<html>
<title> - REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT: FISHERIES SCIENCE</title>
<body><pre>[Senate Hearing 115-568]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-568
 
                         REAUTHORIZATION OF THE
  MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT: FISHERIES 
                                SCIENCE

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 24, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             
                             


                Available online: http://www.govinfo.gov
                
                
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
35-752 PDF                WASHINGTON : 2019                      
                
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

DAN SULLIVAN, Alaska, Chairman       GARY PETERS, Michigan, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JAMES INHOFE, Oklahoma               BRIAN SCHATZ, Hawaii
MIKE LEE, Utah                       EDWARD MARKEY, Massachusetts
RON JOHNSON, Wisconsin               CORY BOOKER, New Jersey
CORY GARDNER, Colorado               TAMMY BALDWIN, Wisconsin
TODD YOUNG, Indiana
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 24, 2017.................................     1
Statement of Senator Sullivan....................................     1
Statement of Senator Peters......................................     2
    Opposition letter dated October 23, 2017 from scientists re: 
      H.R. 200...................................................     3
    Prepared statement...........................................    11
Statement of Senator Cantwell....................................    51
Statement of Senator Wicker......................................    52
Statement of Senator Blumenthal..................................    54
Statement of Senator Markey......................................    57

                               Witnesses

Ray Hilborn, Ph.D., Professor, School of Aquatic and Fishery 
  Sciences, University of Washington.............................    13
    Prepared statement...........................................    14
Dr. Larry McKinney, Executive Director, Harte Research Institute 
  for Gulf of Mexico Studies, Texas A&M University Corpus Christi    19
    Prepared statement...........................................    21
Karl Haflinger, Founder and President, Sea State, Inc............    39
    Prepared statement...........................................    40
Michael Jones, Ph.D., Professor, Department of Fisheries and 
  Wildlife, Michigan State University............................    43
    Prepared statement...........................................    45

                                Appendix

Response to written questions submitted to Dr. Ray Hilborn by:
    Hon. Dan Sullivan............................................    63
    Hon. Bill Nelson.............................................    64
    Hon. Maria Cantwell..........................................    64
    Hon. Gary Peters.............................................    65
Response to written questions submitted to Dr. Larry McKinney by:
    Hon. Dan Sullivan............................................    66
    Hon. Bill Nelson.............................................    68
    Hon. Gary Peters.............................................    74
Response to written questions submitted to Karl Haflinger by:
    Hon. Dan Sullivan............................................    77
    Hon. Bill Nelson.............................................    79
    Hon. Maria Cantwell..........................................    80
    Hon. Gary Peters.............................................    82
Response to written questions submitted to Dr. Michael Jones by:
    Hon. Gary Peters.............................................    83


                         REAUTHORIZATION OF THE

                        MAGNUSON-STEVENS FISHERY

           CONSERVATION AND MANAGEMENT ACT: FISHERIES SCIENCE

                              ----------                              


                       TUESDAY, OCTOBER 24, 2017

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Dan Sullivan, 
Chairman of the Subcommittee, presiding.
    Present: Senators Sullivan [presiding], Wicker, Inhofe, 
Young, Peters, Cantwell, Blumenthal, Markey, and Booker.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. The Subcommittee on Oceans, Atmosphere, 
Fisheries, and Coast Guard now come to order.
    Today's hearing is the fourth in a series of hearings as we 
continue forward with the important process of reauthorizing, 
in a bipartisan way, the Magnuson-Stevens Fisheries 
Conservation and Management Act, what we refer to as the MSA.
    Today's focus will be on fishery science and the importance 
that accurate, timely data plays in ensuring the most informed 
decisions are made in both the best interest of our economy and 
protecting this incredibly valuable natural resource.
    I look forward to a robust discussion today. And I thank my 
friends across the aisle for coordinating with us--Senator 
Peters and his team, in particular--on this important hearing, 
and throughout this series of hearings on MSA reauthorization, 
which we think is critical for our country.
    To make that point clear, the fishing industry--commercial, 
charter, and recreational combined--contributes over $90 
billion annually to the U.S. economy and supports, in excess, 
of 1.5 million jobs.
    At the same time, we need to make sure our resource is 
healthy. The fishing industry right now is stable and has the 
opportunity to grow, primarily because of the hard work our 
predecessors put into ensuring we had a solid framework for 
sustainably harvesting this incredibly important natural 
resource.
    The foundational basis of this stable framework is 
scientifically accurate and reputable data upon which the 
regional councils can base their management decisions under the 
MSA framework.
    The United States has the world's second largest exclusive 
economic zone. Second only, oddly enough, to France. And as 
stewards of that vast ocean, we are entrusted with not only 
safeguarding its biological health and sustainability, but also 
ensuring we are efficiently extracting the resources from 
within.
    Ensuring that Congress supports the need for proper data, 
supported by reputable and consistent science, is critical to 
maintaining a sustainable, yet profitable, national fishery.
    Technology needs to play a larger role in this, as it has 
the potential to provide efficiencies, and reduce 
administrative burdens, and increase the accuracy of the data 
used for the all-important stock assessments and catch 
accountability upon which our councils rely.
    It should be of news to nobody that data does not come 
cheaply, and that while NOAA stretches its limited budget the 
best it can, it is only able to grab a small snapshot of the 
status and health of the biomass in our oceans.
    I look forward to hearing today about how cooperative 
research can augment the information NOAA has available in 
order to make the most informed decisions possible for our 
fisheries and our country.
    As we move forward with reauthorization, we face many 
emerging challenges, namely, balancing the needs of various 
user groups. I believe that the answer to this looming question 
lies in more fully understanding the status and health of the 
resource. Given the funding constraints Federal agencies face, 
we must embrace the efficiency offered by emerging science and 
technology.
    I look forward to hearing from our witnesses today on the 
way forward on some of these critical issues, and also on 
existing data collection programs, and successes that are 
already working within our current Magnuson-Stevens framework.
    With that, I want to thank all of our witnesses. We have, 
as usual, a very distinguished panel of experts, who we will 
learn from today.
    I now want to recognize the Ranking Member, Senator Peters, 
who has been a great partner in these hearings with me as we 
look at MSA reauthorization.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Well, thank you, Chairman Sullivan.
    And thank you, as well, to the witnesses that are here to 
discuss a very important issue of reauthorizing the Magnuson-
Stevens Act, or MSA.
    Today, I am looking forward to the opportunity to hear 
about scientific advances that can help us improve management 
of Federal fisheries.
    But first, I would like to welcome Dr. Michael Jones, who 
is the Peter A. Larkin Professor of Quantitative Fisheries, who 
founded and is now the Co-Director of the Quantitative 
Fisheries Center at Michigan State University; truly a great 
university.
    Dr. Jones' research focuses on fish population dynamics, 
fish ecology, resource management, and simulation modeling.
    Thank you for making the trip here, Dr. Jones. I appreciate 
it. We all look forward to hearing your testimony.
    Second, the fishery science community has many informative 
voices that could not all be with us here today, Mr. Chairman. 
Over 200 scientists have sent a letter outlining the importance 
of science to fisheries, and to the MSA.
    So, Mr. Chairman, if I could enter that letter into the 
record without objection?
    The Chairman. Without objection.
    [The letter referred to follows:]

                                                   October 23, 2017
Dear Members of Congress,

    The undersigned scientists write to urge you to oppose H.R. 200 and 
any other legislative efforts that would weaken science-based 
management of U.S. marine fish populations, so that current and future 
generations of Americans can enjoy fishing and healthy oceans teeming 
with fish for years to come.
    The Magnuson-Stevens Fishery Conservation and Management Act (MSA) 
is the primary law governing marine fisheries management in U.S. 
Federal waters. Congress passed the original law in 1976 to phase out 
foreign fishing in U.S. waters and to promote domestic fishing 
opportunities. In 1996 and 2006, the MSA was amended to strengthen its 
conservation provisions and ensure scientific advice provided the basis 
of fishery management decisions. These changes have enabled the United 
States to become a global leader in well-managed and profitable 
fisheries, with over 40 domestic fish stocks rebuilt since 2000. 
Preventing overfishing with science-based sustainable catch limits and 
timely rebuilding of fish populations that are depleted, as required 
under the MSA, are fundamental to good management of fishery resources 
and should be maintained to continue improving the health of our 
Nation's fisheries.
    Yet, several pieces of legislation have been introduced this 
Congress that would unwind science-based conservation of U.S. marine 
fish populations. Chief among them is H.R. 200, which undermines the 
cornerstones of MSA's success in several ways, including weakening or 
eliminating science-based management requirements and reducing the 
quality of science used in management decisions.
    First, H.R. 200 will weaken the MSA's successful recovery of 
depleted fish populations by establishing broad loopholes that 
effectively eliminate the requirement for managers to set reasonable 
and scientifically based rebuilding timelines. Decades of fisheries 
science shows that in order to succeed in rebuilding overfished stocks, 
managers must implement strong and timely management measures based on 
sound science.
    Second, H.R. 200 would increase the risk of overfishing by removing 
the requirement for science-based annual catch limits for many species, 
including some that may be overfished or subject to overfishing. Annual 
catch limits are vital to the health of fish populations and provide 
the guardrails to make and keep fisheries sustainable. Removal of these 
key management tools will hurt our fisheries, our oceans and the U.S. 
economy.
    Third, H.R. 200 undermines crucial environmental laws such as the 
National Environmental Policy Act (NEPA), the Endangered Species Act 
(ESA) and the Antiquities Act. It is unacceptable to exempt fishery 
management plans from the bedrock requirements of NEPA that provide for 
public participation in management and adequate analysis of decision-
making. The MSA is effective at managing fisheries, but is not designed 
to achieve broader ocean management objectives, particularly with 
regard to maintaining the biological integrity of protected species and 
populations, or protecting special places and ecosystems. These 
essential laws must continue to preserve marine species and habitats, 
and to strongly protect our country's marine national monuments, i.e., 
our Nation's blue parks.
    Lastly, H.R. 200 and other legislative proposals roll back science-
based management and lessen accountability in recreational fisheries. 
Recreational fisheries across the country are already able to use 
flexible management strategies so long as they comply with annual catch 
limits and ensure accountability for their catches. It is essential 
that recreational fisheries continue to be accountable for the fish 
they remove from the ocean to ensure future opportunities for 
recreational anglers and other resource users.
    The last version of this bill was opposed by over 170 
organizations, representing fishermen, business owners, chefs and 
community leaders. We, the undersigned scientists, similarly urge 
Congress to oppose H.R. 200 and other legislation that would weaken 
science-based management and the health of U.S. fish populations, and 
exempt fisheries managers from complying with other laws that protect 
our ocean resources.

Dr. Jane Lubchenco                   Dr. Steven Green
Distinguished Professor              Professor Emeritus
Oregon State University              University of Miami
 
Dr. Andrew A Rosenberg               Dr. Fiorenza Micheli
Director, Center for Science and     Professor of Marine Science
 Democracy                           Stanford University
Union of Concerned Scientists
 
Dr. John Boreman                     Dr. GW Patton
Adjunct Professor, Department of     Toxicologist, Marine Biologist
 Applied Ecology
North Carolina State University
 
Dr. George Leonard                   Dr. Gregory Asner
Chief Scientist                      Professor
Ocean Conservancy                    Stanford University
 
Dr. Santiago Herrera                 Dr. Christopher Kenaley
Assistant Professor                  Professor
Lehigh University                    Boston College
 
Dr. Jeb Byers                        Dr. Curt Storlazzi
University of Georgia                University of California at Santa
                                      Cruz
 
Dr. Steve Murray                     Dr. Charles Peterson
Professor Emeritus                   Alumni Distinguished Professor
CSU Fullerton                        University of North Carolina at
                                      Chapel Hill
 
Dr. Patrick Rice                     Dr. John Avise
Chief Science & Research Officer     Professor
Florida Keys Community College       University of California at Irvine
 
Dr. Richard Ambrose                  Dr. Donald Olson
Professor                            Professor
University of California, Los        RSMAS/University of Miami
 Angeles
 
Dr. John McManus                     Dr. Daniel DiResta
Professor                            Senior Lecturer in Biology
University of Miami                  University of Miami
 
Dr. Lisa McManus                     Dr. Sarah Hameed
Rutgers University                   Science Fellow
                                     Marine Conservation Institute
 
Dr. William Resetarits               Dr. Peter Hodum
Professor                            Associate Professor
University of Mississippi            University of Puget Sound
 
Dr. Vicky Meretsky                   Dr. Matt Lybolt
Indiana University--School of        Marine Ecologist
 Public and Environmental Affairs    Tetra Tech
 
Dr. Adrienne DuBois                  Dr. Douglas McCauley
Lecturer                             Assistant Professor Dept of
University of Miami                   Ecology, Evolution, and Marine
                                      Biology
                                     Director, Benioff Ocean Initiative,
                                      Marine Science Institute
                                     UC Santa Barbara
 
Dr. Kathryn Tosney                   Dr. Deborah Gochfeld
Professor                            Principal Scientist
University of Miami                  University of Mississippi
 
Dr. George Somero                    Dr. Victor Bonito
David and Lucile Packard Emeritus    Director
Professor of Marine Science          Reef Explorer
Stanford University
 
Dr. Angela Doerr                     Dr. Rikki Grober-Eriksen
Stanford's Center for Ocean          Director Marine Protected Areas
 Solutions                           California Marine Sanctuary
                                      Foundation
 
Dr. Douglas Fenner                   Dr. Alicia Mathis
Consultant                           Professor
                                     Missouri State University
 
Dr. Amanda Whitmire                  Dr. Janet Ley
Head Librarian                       Fish Biologist
Stanford University                  Florida Fish & Wildlife Research
                                      Inst
 
Dr. Jonathan Dale                    Dr. Craig Young
Research Associate                   Professor of Biology and Marine
Stanford University                   Laboratory
                                     Director
                                     University of Oregon
 
Dr. Charles Scott Baker              Dr. Mark Hixon
Professor                            Hsiao Endowed Professor of Marine
Oregon State University               Biology
                                     University of Hawaii
 
Dr. Bob Bullis                       Dr. Jennifer Jacquet
Professor of Biology                 Assistant Professor
Florida Keys College                 NYU
 
Dr. Christina Swanson                Dr. John Ogden
Director, Science Center             Emeritus Professor
Natural Resources Defense Council    University of South Florida
 
Dr. Kerry Nickols                    Dr. James Hanken
Assistant Professor                  Director
California State University          Harvard Museum of Comparative
 Northridge                           Zoology
 
Dr. Elise Granek                     Dr. Neil Hammerschlag
Professor                            Research Assistant Professor
Portland State University            University of Miami
 
Dr. Laurie Raymundo                  Dr. Jan Hodder
Professor                            Senior Lecturer
University of Guam Marine            University of Oregon
 Laboratory
 
Dr. Michael Orr                      Dr. Geraldine Knatz
Professor of Biology                 Professor of the Practice of
University of Guam                    Engineering and Policy
                                     University of Southern California
 
Dr. Jason Biggs                      Dr. Dennis Lavrov
Associate Professor                  Associate Professor
University of Guam Marine            Iowa State University
 Laboratory
 
Dr. Alan Shanks                      Dr. Peter Houk
Professor                            Associate Professor
U Oregon, Oregon Inst of Marine      University of Guam Marine Lab
 Biology
 
Dr. David Combosch                   Dr. Terry Donaldson
Professor                            University of Guam Marine
University of Guam Marine Lab         Laboratory
 
Dr. Atsushi Fujimura                 Dr. Aaron David
Assistant Professor                  University of Miami
University of Guam
 
Dr. Kent Carpenter                   Dr. Daniel Kramer
Professor                            Professor
Biological Sciences, Old Dominion    Michigan State University
 University
 
Dr. John Cigliano                    Dr. Karen Alofs
Director of Environmental            Assistant Professor beginning Jan
 Conservation                         2018
Cedar Crest College                  University of Michigan
 
Dr. David Kerstetter                 Dr. Catherine Riseng
Assistant Professor                  Associate Research Scientist
Nova Southeastern University         University of Michigan
 
                                     Dr. Phoebe Zarnetske
                                     Michigan State University
 
Dr. Shawn Riley                      Dr. Jeff Shields
Lovejoy Professor of Wildlife        Professor of Marine Science
 Management                          Virginia Institute of Marine
Michigan State University             Science
                                     College of William & Mary
 
Dr. Terrie Klinger                   Dr. Sarah Gerken
Professor                            Professor of Biological Sciences
University of Washington             University of Alaska, Anchorage
 
Dr. Jay Zarnetske                    Dr. Peter Castro
Faculty                              California State Polytechnic
Michigan State University             University
                                     Pomona
 
Dr. Joseph Arvai                     Dr. Richard Brusca
Max McGraw Professor of Global       University of Arizona
 Sustainable Enterprise
University of Michigan
 
Dr. Daniel Hayes                     Dr. James Carlton
Professor                            Professor of Marine Sciences
Department of Fisheries and           Emeritus
 Wildlife                            Williams College
Michigan State University
 
Dr. Karen Neely                      Dr. Joel Martin
Florida Keys Community College       Associate Vice President, Research
                                      & Collections
                                     Natural History Museum of Los
                                      Angeles County
 
Dr. Susannah French                  Dr. Martin Mendelson Clinical
Associate Professor of Biology        Professor
Utah State University                School of Public Health
                                     University of Washington
 
Dr. Blaine Griffen                   Dr. James M Furse
Associate Professor                  Griffith University
Brigham Young University
 
Dr. Chris Bird                       Dr. Andrew Thurber
Asst Professor                       Assistant Professor
Texas A&M University--Corpus         Oregon State University
 Christi
 
Dr. Rom Lipcius                      Dr. Sherry Tamone
Professor                            Professor of Biology
Virginia Institute of Marine         University of Alaska Southeast
 Science
College of William & Mary
 
                                     Dr. Pam Jensen
                                     NMFS
 
Dr. Gustav Paulay                    Dr. De Forest Mellon
Professor/Curator                    Professor of Biology
University of Florida                University of Virginia
 
Dr. Thomas Dolan                     Dr. L. David Smith
Former Chief of the Bureau of        Professor
 Fisheries                           Smith College
U.S. Virgin Islands
 
Dr. Jason Williams                   Dr. Frederick Schram
Professor of Biology                 Research Assc., Professor Emeritus
Hofstra University                   Burke Museum of Natural History
 
Dr. Daniel Fong                      Dr. Nancy O'Connor
Associate Professor of Biology       Professor
American University                  University of Massachusetts
                                      Dartmouth
 
Dr. Loren Coen                       Dr. Mary Fabrizio
Res. Prof                            Professor of Marine Science
FAU                                  Virginia Institute of Marine
                                      Science
 
Dr. Joel Snodgrass                   Dr. Brad Erisman
Professor and Department Head        Assistant Professor
Virginia Tech                        University of Texas at Austin
 
Dr. Timothy Targett                  Dr. Corinne Diggins
Professor                            Virginia Tech
University of Delaware
 
Dr. Robert Okazaki                   Dr. Keith Walters
Professor Emeritus                   Professor
Weber State University               Coastal Carolina University
 
Dr. Deborah Steinberg                Dr. Brian Tissot
Professor of Marine Science          Professor & Director
Virginia Institute of Marine         Humboldt State University
 Science
 
Dr. Jim Welch                        Dr. Margaret Miller
Professor and Chair of Biology       Research Director
Wittenberg University                SECORE International
 
Dr. Greg Cronin                      Dr. David Drumm
Assoc. Prof.                         Environmental consultant
CU Denver                            EcoAnalysts, Inc.
 
                                     Dr. Diego Bernal
                                     Professor
                                     Univ. Mass. Dartmouth
 
Dr. Eric Hallerman                   Dr. James Dooley
Professor, Fish Conservation         Professor
Virginia Polytechnic Institute and   Adelphi University
 State University
 
Dr. John Scarpa                      Dr. James Cowan
Associate Professor                  Professor
Texas A&M University--Corpus         Louisiana State University
 Christi
 
Dr. Bristol Denlinger                Dr. Ivan Valiela
Post-doc                             Distinguished Scientist
UC Berkeley                          Ecosystems Center, MBL, Woods Hole
 
Dr. Timothy Sullivan                 Dr. Peter Auster
University of Arkansas               Research Professor Emeritus &
                                      Senior Research Scientist
                                     University of Connecticut & Mystic
                                      Aquarium
 
Dr. Janet Nye                        Dr. Ellen Pikitch
Assistant Professor                  Professor
Stony Brook University               Stony Brook University
 
Dr. Julie Thayer                     Dr. Jean Boal
Senior Scientist                     Professor
Farallon Institute                   Millersville University of
                                      Pennsylvania
 
Dr. Peter Jumars                     Dr. William Sydeman
University of Maine                  President & Senior Scientist
                                     Farallon Institute
 
Dr. R. Dean Grubbs                   Dr. Daniel Pauly
Associate Director of Research       Professor
Florida State University Coastal     University of British Columbia
 and Marine Lab                      Vancouver, Canada
 
Dr. Gary Grossman                    Dr. Dee Boersms
Professor                            Wadsworth endowed chair in
University of Georgia                 conservation science
                                     U of WA
 
Dr. Jeb Byers                        Dr. Barbara Brennessel
University of Georgia                Wheaton College and Friends of
                                      Herring River
                                     Wellfleet, MA
 
Dr. Gorka Sancho
Professor
College of Charleston
 
Dr. David Dow
Retired biological oceanographer--
 NOAA Fisheries
 
Dr. Judith Lang                      Dr. Michael LaBarbera
Scientific Advisor                   Emeritus Professor
Atlantic and Gulf Rapid Reef         University of Chicago
 Assessment
 
Dr. Shoemaker                        Dr. Alexis Janosik
Professor Emerita of Biology         Assistant Professor
Saint Francis University             University of West Florida
 
Dr. Paul Spitzer                     Dr. Merav Ben-David
Independent scientist                Professor
                                     University of Wyoming
 
Dr. Richard Thayer                   Dr. Anna Chalfoun
Managing Director                    Associate Professor
ZTC Consulting                       University of Wyoming
 
Dr. John Cannon                      Dr. Lee Fuiman
Conservation Biologist               Corpus Christi, TX
Independent Consultant
 
Dr. Amy Krist                        Dr. Ben Steele
Associate Professor                  Professor
University of Wyoming                Colby-Sawyer College
 
Dr. Michael Minnick                  Dr. Justine Whitaker
Professor of Biology                 UWF
University of Montana
 
Dr. Kristine Stump                   Dr. John Waldman
Lecturer, Marine Conservation        Professor
 Biology                             Queens College
University of Miami Rosenstiel
 School of Marine & Atmospheric
 Science
 
Dr. Catherine Macdonald              Dr. Shannon Albeke
Professor                            Associate Research Scientist
University of Miami                  University of Wyoming
 
Dr. Kevin Feldheim                   Dr. Sherry Keith
Lab Manager                          San Francisco State University
Field Museum
 
Dr. Craig Benkman                    Dr. Jeffrey Leis
Professor of Zoology & Physiology    Adjunct Professor
University of Wyoming                University of Tasmania
 
                                     Dr. Paul Cziko
                                     Research Assistant Professor
                                     University of Oregon
 
Dr. Tara Duffy                       Kelley Tagarino
Lecturer                             Extension Agent
Northeastern University              American Samoa Community College
 
Pedro Zapata                         Whitney Hoot
Senior Advisor                       Coral Fellow
Oceana                               NOAA
 
Renee Carlton                        Alisha Gill
Marine Ecologist                     University of Guam
Khaled Bin Sultan Living Oceans
 Foundation
 
Frances Withrow                      Casey Te Beest
Science Associate                    University of Guam
Oceana
 
Justin Kallman                       Mike Gawel
University of Miami                  Resources Manager/Retired National
                                      Fisheries Officer
                                     NPS
 
Brianna Almeida                      Fifer
Graduate Student                     University of Guam Marine Lab
University of Miami
 
Zoi Thanopoulou                      Chris Barrows
University of Miami                  Officer
                                     U.S. Coast Guard
 
Beth Sheets                          AJ Reyes
Research Biologist                   Biologist
Stanford University                  University of Guam Marine Lab
 
Lucie Hazen                          Alex Medina
Research Analyst                     Biologist
Stanford University                  UoG
 
Brian Baird                          Michael Drexler
Director, Coast and Ocean Program    University of South Florida
The Bay Institute
 
Elana Rusnak                         Amy Wrobleski
University of Miami Rosenstiel       Laboratory and Field Technician
 School of Marine and Atmospheric    Michigan State University
 Science
 
David Burdick                        Matthew McCarthy
Research Associate                   University of South Florida
University of Guam
 
Elizabeth Herdter                    William Ellsworth
Ph.D. candidate                      Graduate Student
USF College of Marine Science        Virginia Tech
 
Kelly Vasbinder                      Tess Geers
PhD Student in Marine Science        Marine Scientist
                                     Oceana
 
Donald Orth                          Taylor Witkin
Thomas H. Jones Professor            Master's candidate
Virginia Tech University             University of Rhode Island
 
Megan Hepner                         Ethan Lucas
Graduate Assistant                   FIP Project Director
University of south Florida          FishWise
 
David Knott                          Anne Hilborn
The University of Charleston         PhD Candidate
                                     Virginia Tech
 
Christian Osorio                     Jean Wiener
PhD Student                          Executive Director
Virginia The--Dept. of Fish and      Fondation pour la Protection de la
 Wildlife Conservation                Biodiversite Marine
 
Mike Muthersbaugh                    Hayden Staley
Graduate Research Assistant          Marine fisheries biologist
Virginia Tech (fish and wildlife     State of Florida
 conservation)
 
Sarah Grasty                         Shanae Allen
Senior Biological Scientist          Research Scientist
University of South Florida          FL Fish and Wildlife Research
                                      Institute
 
Emily Thorne                         Dustin Addis
PhD Candidate and Graduate Research  Research Administrator II
 Assistant                           Florida Fish and Wildlife Research
Virginia Tech Department of Fish      Institute (FWC)
 and Wildlife Conservation
 
Kate Dubickas                        Marcy Cockrell
Master's Student                     Ph.D. candidate
                                     University of South Florida
 
Brianna Michaud                      Annie Roddenberry
Graduate Student                     Biological scientist
University of South Florida          State of Florida
 
Holly Turner                         Drew Martin
HCRHS                                Conservation Chair
                                     Loxahatchee Group
 


    Senator Peters. This hearing, as was mentioned by the 
Chairman, marks the fourth hearing on MSA reauthorization. And 
throughout this process, I have heard a common theme from a 
variety of different stakeholders: having robust data, and a 
science-driven process, are critical to the success of our 
fisheries.
    So for this fourth hearing, it is appropriate that we are 
taking a look at fisheries science.
    The MSA lays out a fisheries management process that 
directs NOAA to rely on the best scientific information 
available. This science informs regional stock assessments 
which, in turn, determine how many fish can be sustainably 
caught or if a stock is being overfished. Making sure that we 
have sound science underpinning these decisions is absolutely 
critical.
    In recent years, this scientific process has proven 
successful. As fisheries decline across the globe, the U.S. has 
become a beacon of sustainable fishing.
    Using science to develop annual catch limits has proven to 
be effective and, along with ensuring accountability, has 
reduced the number of overfished stock, and the number of 
stocks undergoing overfishing to all time lows. The ability of 
science to assist us in managing fisheries cannot be 
understated.
    In the Great Lakes, we were forced into learning this 
lesson the hard way. At the last MSA hearing, I discussed the 
devastating impact of sea lamprey on Great Lakes fisheries, 
reducing the most abundant fisheries in the Lakes to just 2 
percent of their former production within just a couple of 
decades.
    This historical event is a testament, not only to the 
importance of management accounting for the whole ecosystem, 
but it is also a testament to the power of science to assist 
fisheries management.
    Scientists and managers did not sit idly by as the Great 
Lakes fisheries were crashing due to this devastating parasite. 
They were rapidly collecting data and studying the Great Lakes' 
ecosystem like never before, all in an effort to control sea 
lamprey.
    With the concerted bi-national and multistate efforts, a 
breakthrough came in 1957 with the discovery of TFM. After 
testing nearly 6,000 chemicals, TFM was the first to 
selectively impact lamprey without harming other aquatic 
animals or plants.
    This was the first of several scientific advances that 
supported the management and control of sea lamprey, and 
facilitated the resurgence of Great Lakes fisheries.
    Science, together with management, helped to bring the 
Great Lakes fisheries back, and today they are worth $7 billion 
annually, support 75,000 jobs, and provide opportunities for 5 
million anglers of all ages.
    And that is why I introduced the Great Lakes Fishery 
Research Authorization Act of 2017 to provide for critical 
science and research necessary to continue supporting these 
fisheries in the Great Lakes.
    The best thing is that science and research never stop. 
Scientists continue researching lamprey control methods by 
manipulating lamprey senses, targeting lamprey genetics, and 
adapting video shape recognition in the development of 
selective fish passage systems in Traverse City, Michigan.
    Science, research, and technology helping to improve 
fisheries are fortunately not confined to one region.
    For example, the advances in shape recognition software are 
not only helping to control sea lamprey, but they are also 
helping to advance electronic monitoring systems and improve 
data, recording, and recordkeeping.
    The prospect of electronic video systems that can let a 
fisherman know what is in the net before hauling it aboard is, 
indeed, exciting and fascinating.
    New technologies and technological developments in fishery 
science will continue to improve management outcomes.
    NOAA and private companies are beginning to embrace 
autonomous systems in a variety of ways, not the least of which 
is gathering fisheries' data.
    These systems are being used aerially on the water surface 
and throughout the water column to aid fishermen in locating 
fish, help regulators monitor fishing fleets and report illegal 
activity, and assist researchers tracking wildlife, habitats, 
and climate.
    Fishery science and technology has undergone a lot of 
change since the last MSA reauthorization a decade ago. So I 
think this hearing will be a very informative one, and I am 
eager to learn from the scientists here today about the latest 
research, new and emerging technologies, and explore ways to 
make smarter decisions to ensure the long-term sustainability 
of our Nation's fisheries.
    So once again to our witnesses, thank you for being here 
today.
    [The prepared statement of Senator Peters follows:]

   Prepared Statement of Hon. Gary Peters, U.S. Senator from Michigan
    Thank you, Mr. Chairman, and thanks to our witnesses for being here 
this afternoon as we continue a series of hearings to discuss the 
important issue of reauthorizing the Magnuson-Stevens Act or MSA. 
Today, I am looking forward to the opportunity to hear about scientific 
advances that can help us improve management for Federal fisheries.
    First I would like to welcome Dr. Michael Jones, the Peter A. 
Larkin Professor of Quantitative Fisheries who founded and is now Co-
Director of the Quantitative Fisheries Center at Michigan State 
University. Dr. Jones' research focuses on fish population dynamics, 
fish ecology, resource management, and simulation modeling. Thank you 
for making the trip and I look forward to hearing your testimony.
    Second, the fisheries science community has many informative voices 
that could not all be with us today, and over 200 scientists have sent 
a letter outlining the importance of science to fisheries and the 
Magnuson-Stevens Act, so Mr. Chairmen I ask that this letter be entered 
into the record.
    This hearing marks the fourth hearing on MSA reauthorization. 
Throughout this process I have heard a common theme from a variety of 
different stakeholders: having robust data and a science-driven process 
are critical to the success of our fisheries. So, for this fourth 
hearing, it is appropriate that we are taking a look at fisheries 
science.
    The Magnuson-Stevens Act lays out a fisheries management process 
that directs NOAA to rely on the best scientific information available. 
This science informs regional stock assessments, which, in turn, 
determine how many fish can be sustainably caught or if a stock is 
being overfished. Making sure that we have sound science underpinning 
these decisions is absolutely critical to the management and 
sustainability of our fisheries.
    In recent years, this scientific process has proven successful. As 
fisheries decline across the globe, the U.S. has become a beacon for 
sustainable fishing. Using science to develop annual catch limits has 
proven to be effective and along with ensuring accountability, has 
reduced the number of overfished stocks and the number of stocks 
undergoing overfishing to all-time lows. The ability of science to 
assist us in managing fisheries cannot be understated.
    In the Great Lakes, we were forced into learning this lesson. At 
the last MSA hearing, I discussed the devastating effect of sea lamprey 
on Great Lakes fisheries, reducing the most abundant fishery in the 
Lakes to 2 percent of its former production within just a couple 
decades.
    This historical event is a testament not only to importance of 
management accounting for the whole ecosystem, but it is also a 
testament to the power of science to assist fisheries management.
    Scientists and managers did not sit idly by as the Great Lakes 
fisheries were crashing due to this devastating parasite. They were 
rapidly collecting data and studying the Great Lakes ecosystem like 
never before; all in an effort to control sea lamprey.
    With concerted bi-national and multi-state efforts, a breakthrough 
came in 1957 with the discovery of TFM. After testing nearly 6,000 
chemicals, TFM was the first to selectively impact lamprey without 
harming other aquatic animals or plants.
    This was the first of several scientific advances that supported 
the management and control of sea lamprey and facilitated the 
resurgence of the Great Lakes fisheries.
    Science, together with management, helped to bring the Great Lakes 
fisheries back, and today they are worth $7 billion annually, support 
75,000 jobs, and provide opportunities for 5 million anglers of all 
ages. And that is why I introduced the Great Lakes Fishery Research 
Authorization Act of 2017 to provide for the critical science and 
research necessary to supporting fisheries in Great Lakes.
    The best thing is that science and research never stop. Scientists 
continue researching lamprey control methods by manipulating lamprey 
senses, targeting lamprey genetics, and adapting video shape 
recognition in the development of selective fish passage systems in 
Traverse City, Michigan.
    Science, research, and technology helping to improve fisheries are 
fortunately not confined to one region. For example, the advances in 
shape recognition software are not only helping control sea lamprey, 
but they are also helping to advance electronic monitoring systems and 
improve data collection and record keeping.
    The prospect of electronic video systems that can let a fishermen 
know what is in the net before hauling it aboard is indeed exciting and 
fascinating. New techniques and technological developments in fisheries 
science will continue to improve management outcomes.
    NOAA and private companies are beginning to embrace autonomous 
systems in a variety of ways, not the least of which is gathering 
fisheries data. These systems are being used aerially, on the water's 
surface, and throughout the water column to: aid fishermen in locating 
fish; help regulators monitor fishing fleets and report illegal 
activity; and assist researchers tracking wildlife, habitats, and 
climate.
    Fisheries science and technology has undergone a lot of change 
since the last MSA reauthorization a decade ago. So, I think this 
hearing will be very informative and I'm eager to learn from the 
scientists with us today about the latest research, new and emerging 
technologies, and explore ways to make smarter decisions to ensure the 
long-term sustainability of our Nation's fisheries.

    The Chairman. Thank you, Senator Peters.
    Again, I want to thank our panel of witnesses. I think 
everybody will see that this is quite the expert panel, and 
thank you for traveling far distances to come to this hearing.
    The witnesses, I do want to introduce each of them.
    Dr. Ray Hilborn, Professor at the University of Washington 
School of Aquatic and Fishery Sciences; Dr. Larry McKinney, 
Director, Texas A&M University Harte Research Institute for 
Gulf of Mexico Studies; Mr. Karl Haflinger, Founder and 
President of Sea State, Inc.; and Dr. Michael Jones, Professor, 
Michigan State University Quantitative Fisheries Center.
    You will each have 5 minutes to deliver an oral statement, 
and if you would like, we will include a longer written 
statement for the record.
    Dr. Hilborn, the floor is yours, sir.

          STATEMENT OF RAY HILBORN, Ph.D., PROFESSOR,

            SCHOOL OF AQUATIC AND FISHERY SCIENCES,

                    UNIVERSITY OF WASHINGTON

    Dr. Hilborn. Thank you for this opportunity to address you.
    As a point of full disclosure, my research program receives 
substantial funding from a range of sources including U.S. 
philanthropic foundations, fishing industry groups in the U.S. 
and overseas, environmental NGOs, U.S. Government agencies, and 
the Food and Agriculture Organization of the United Nations.
    The number of fish in the sea is rising in all regions of 
the United States, and the proportion of stocks at low 
abundance is consistently decreasing.
    This success has been achieved by funding of science, 
stopping the race to fish through various forms of 
rationalization, engaging in a consultative process with 
stakeholders, and most of all, requiring managers to follow 
science advice regarding allowable levels of harvest.
    The rebuilding of stocks can be directly attributed to the 
reduction in fishing pressure that began in the 1990s, and that 
the science advice has been guided by the objective of stopping 
overfishing.
    The major threats to U.S. fish stocks, and marine 
ecosystems' biodiversity, are now ocean acidification, warming 
temperatures, degraded coastal habitats, exotic species, land-
based runoff, and pollution.
    Overfishing remains a concern for a limited number of 
stocks, but should not continue to be the most important 
concern for U.S. Federal fisheries policy.
    If Congress were to decide what the relative importance of 
various objectives of fisheries management should be--be it 
profit, jobs, yield, environmental protection--the science 
community could give guidance on recommended harvests.
    The social and economic record of U.S. fisheries is much 
more mixed than the biological success.
    Where we have found ways to stop the race to fish, 
profitability has almost always increased, fisheries are safer, 
and fishing seasons grow longer, while total fishing effort and 
costs have reduced.
    However, we have not found any methods to allocate fishing 
opportunities that are considered fair by all stakeholders.
    There is the potential to increase U.S. fisheries' yield by 
as much as 50 percent through fuller utilization of our fish 
resources.
    First, and of most importance, is fuller utilization of the 
total allowable catches that are set.
    In many U.S. fisheries, particularly the mixed fisheries of 
the East and West Coast, Gulf of Alaska, we catch much less 
than the TAC, which themselves are set conservatively to 
prevent overfishing.
    In the West Coast, we actually caught 38 percent of the 
potential value of the fish resources as set by the TACs. 
Maximizing yield from mixed fisheries will generally involve 
some stocks above the target and some stocks below the target 
in what we now call overfishing.
    These mixed fisheries have seen dramatic reductions in 
fishing pressure and rebuilding of the stocks, but they have 
not seen increases of catch. As a policy to provide more catch 
to the fishing fleets, our current approach for mixed stock 
fisheries has largely failed.
    I emphasize that we should not move away from science-based 
management and the existing council process. The current 
rebuilding system is designed to achieve the management 
objective of stopping overfishing regardless of the cost to 
total catch in markets and communities.
    If the science community was directed to maximize economic 
value of the U.S. fisheries or yield, the rebuilding plans 
would be quite different.
    I would like to address the importance of recreational 
fishing and small scale fisheries. I serve on the Science and 
Statistics Committee of the Western Pacific Regional Fisheries 
Management Council.
    The national standards are appropriate for the major 
industrial tuna fisheries of the region, but they are totally 
inappropriate for the small scale and recreational fisheries, 
where we have hundreds of species with poor catch and abundance 
data. Trying to estimate allowable biological catch and status 
relative to reference points, for even a dozen of them, is not 
possible.
    If the SSC or NOAA were directed to provide advice on how 
best to achieve specific objectives for these types of 
fisheries with the budgets and the tools available, we could do 
so, but it would not involve hard catch limits and most 
certainly would be some form of effort and spatial management.
    In summary, I wish to emphasize that U.S. fisheries 
management has succeeded by relying on science advice. This 
should not change.
    However, there certainly is the potential to change U.S. 
fisheries management to try to achieve more benefits from the 
ocean. This can be achieved by directing the science community 
to design fisheries management policies to achieve our social 
objectives.
    It is up to the legislators and councils to explicitly 
state what we want to achieve.
    Thank you very much.
    [The prepared statement of Dr. Hilborn follows:]

Prepared Statement of Ray Hilborn, Ph.D., Professor, School of Aquatic 
             and Fishery Sciences, University of Washington
Qualifications
    I am an ecologist working in fisheries management for over 45 
years. I have published over 300 peer reviewed articles and several 
books, including a text book on fisheries stock assessment and 
management, and ``overfishing, what everyone needs to know.'' I have 
received the Volvo Environmental Prize, the American Fisheries 
Societies Award of Excellence, The Ecological Society of America's 
Sustainability Science Award, and the International Fisheries Science 
Prize. I am a Fellow of the Royal Society of Canada, the American 
Academy of Arts and Sciences, the American Fisheries Society and the 
Washington State Academy of Sciences. I have helped lead international 
study teams examining the status of fish stocks and the relationship 
between management and outcomes, the impact of bottom trawling on 
benthic biota, and the impact of fishing forage fish on their 
predators.
Funding
    My research program receives substantial funding from a range of 
sources including U.S. Philanthropic Foundations (Walton Family 
Foundation, David and Lucile Packard Foundation, Gordon and Betty Moore 
Foundation, Pew Institute of Ocean Sciences), fishing industry groups 
in the U.S. and overseas, environmental NGOs (Environmental Defense, 
The Nature Conservancy), U.S. government agencies (NOAA and NSF), and 
the Food and Agriculture Organization of the United Nations.
Testimony
    U.S. Federal fisheries policy has led to rebuilding of fish stocks 
and some of the most successful fisheries in the world. The number of 
fish in the sea is rising in all regions of the U.S. and the proportion 
of stocks at low abundance is consistently decreasing (See Figures 1 
and 2).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 1. Trend in U.S. average stock biomass in relation to the 
level that would produce long term maximum sustainable yield. The green 
line is the stock biomass that would produce maximum sustainable yield. 
All data from NOAA assessments.

    This success has been achieved by funding of NOAA, regionalizing 
fisheries management decisions, stopping the race-to-fish through 
various forms of rationalization, engaging in a consultative process 
and most of all requiring managers to follow science advice regarding 
allowable levels of harvest.
    In many cases, but certainly not all, moving away from effort 
limits to hard ``total allowable catch'' has made a big difference in 
reducing fishing pressure where it was too high. The rebuilding of 
stocks can be directly attributed to the reduction in fishing pressure 
that began in the 1990s and the science advice has been guided by the 
objective of stopping overfishing.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 2. Trend in average abundance of fish stocks (blue line) in 
individual regions of the U.S. and fishing mortality rate (red line).

    The major threats to U.S. fish stock and marine ecosystem 
biodiversity are now ocean acidification, warming temperatures, 
degraded coastal habitats, exotic species, land based run off, and 
pollution. Overfishing remains a concern for a limited number of stocks 
but should not continue to be the most important concern for U.S. 
Federal fisheries policy. If Congress were to decide what the relative 
importance of various objective of fisheries management should be 
(profit, jobs, yield, environmental protection) the science community 
could give guidance on the recommended harvest.
    The social and economic record of U.S. fisheries is much more mixed 
than the biological success. Where we have found ways to stop the race-
to-fish, profitability has almost always increased, fisheries are 
safer, and fishing seasons have grown longer while total fishing effort 
and cost has been reduced. However many of the methods used to stop the 
race-to-fish have led to declines in owner operated small boat fleets 
and concentration of ownership, and we have not found any methods to 
allocate fishing opportunity that are considered fair by all 
stakeholders.
    The overall approach of reference points, TACs for each species and 
rebuilding plans works well for individually targeted, large scale 
industrial fisheries, but is totally inappropriate for recreational, 
small scale, and highly mixed fisheries where dozens or even hundreds 
of species may be caught together and the science is not affordable 
assess and measure catch of each species.
    There is potential to increase U.S. fisheries yield, jobs and 
economic value, but this potential may be limited by the ability to 
manage stocks individually, concerns about environmental protection, 
profitability of fishing, and markets for stocks that are lightly 
fished (Figure 3).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 3. Graph showing how much yield will be achieved at current 
levels of fishing pressure (green), how much yield can be increased by 
rebuilding overexploited stocks (red), and the remaining area is a 
theoretical gain that could be achieved if we were able to and wanted 
to manage each stock to its MSY.

    Fuller use has three aspects.
    First and of the most importance, is fuller utilization of the TACs 
being set. In many U.S. fisheries, particularly the mixed bottom 
fisheries of the east coast, west coast, and Gulf of Alaska, we catch 
much less than the TACs which themselves are set conservatively to 
prevent overfishing. In the West coast, the potential landed value of 
all TACs in 2015 was $168 M, the landed catch as worth $65 M, thus we 
only actually caught 38 percent of the potential value. In the Gulf of 
Alaska we left 1/3 of the economic value uncaught. In the East Coast 
groundfish fishery the percent used is somewhere below 50 percent. In 
the Bering Sea the catch may be less than \1/2\ the catch level science 
says could be achieved. It is impossible to have all species in a mixed 
stock fishery produce MSY at the same time, and if we want to have no 
species overfished or collapsed we have to forgo most of the potential 
catch. Maximizing yield from mixed fisheries will generally involve 
some stocks above BMSY and some stocks below BMSY. (See Figure 4.)
    Why are we catching such a small fraction of the TAC--primarily 
because these mixed fisheries are heavily constrained markets and by-
catch of choke species, most commonly stocks under rebuilding plans. 
Commonly the fishing fleet cannot catch valuable species because there 
are strong catch limits on other species that are caught at the same 
time. Markets are also very important. Fishing is a highly competitive 
business, and the volatility in the actual catch due both to natural 
fluctuations and fisheries regulations has meant it is difficult to 
develop or even maintain markets for some of our fish. Many of the 
highest value markets for our fish are overseas and government trade 
policies strongly affect these markets.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 4. The relationship between catch (blue) and total 
exploitation rate for mixed fisheries. Redrawn from Worm et al., 2009. 
The total abundance of fish is shown in green and declines as fishing 
pressure increases. In gold is the number of species that would be 
collapsed, and in red the number overfished. We can reduce the number 
of overfished and collapsed stocks by reducing fishing pressure lower 
than would maximize yield (the downward arrow), but if we want to have 
no overfished stocks, we must give up most of the potential catch.

    These mixed fisheries have seen dramatic reductions in fishing 
pressure, and rebuilding of stocks, but they have not seen increases in 
catch. As a policy to provide more catch to the fishing fleets our 
current approach for mixed stock fisheries has largely failed.
    The second potential for increasing U.S. food from fish, jobs and 
economic benefits come from increased harvest of our underexploited 
fish resources. According to a recent analysis (Costello et al., 2016; 
Hilborn and Costello 2017) U.S. total yield could potentially increase 
by 50 percent if we could obtain the maximum sustainable yield of all 
species. We cannot actually achieve MSY for each species, and we may 
not want to maximize sustainable yield, but there is potential for more 
food, jobs and economic value. If scientists were directed to calculate 
quotas that would maximize long term catch, or jobs or profit, the 
science recommendations would be different from current science advice 
built around stopping overfishing.
    Third, we can increase our fish production by using more of the 
fish we catch. This has happened in many fisheries where stopping the 
race-to-fish has placed incentives on getting more value from the fish 
one is allowed to catch rather than rushing to catch a bigger share of 
the total catch.
    I know that there is considerable interest in adding flexibility to 
the law. I support the conclusions of the National Academy of Sciences 
2013 NRC (2013) report on rebuilding plans and their conclusion

        ``Rebuilding plans that focus more on meeting selected fishing 
        mortality targets than on exact schedules for attaining biomass 
        targets may be more robust to assessment uncertainties, natural 
        variability and ecosystem considerations, and have lower social 
        and economic impact.''

    I emphasize that we should not move away from science based 
management and the existing Council process. The current rebuilding 
system is designed to achieve the management objective of stopping 
overfishing--regardless of the cost to total catch, markets and 
communities. If the science community was directed to maximize economic 
value of U.S. fisheries or yield, the rebuilding plans would be quite 
different.
    I would like to address the importance of recreational fishing and 
small scale fisheries. I serve on the Science and Statistics Committee 
of the Western Pacific Regional Fisheries Management Council where we 
evaluate the small scale commercial and recreational fisheries of the 
Hawaiian Islands, American Samoa, Guam, and the Northern Mariana 
Islands. The National Standards are appropriate for the major 
industrial tuna fisheries of the region but totally inappropriate for 
the small scale reef fisheries where we have hundreds of species with 
poor catch and abundance data. Trying to estimate ABC and status 
relative to reference points for even a dozen of them is simply not 
possible. If our SSC (and other SSCs) were directed to provide advice 
on how best to achieve specific objectives for these types of fisheries 
with the budgets and tools available, we could do so, but it not 
involve hard TACs, and almost certainly be some form of effort and 
spatial management.
    As an example of threats to our major fisheries that are unrelated 
to fishing, I would like to mention the proposed Pebble Mine in Bristol 
Bay Alaska. For 20 years I have spent much of each summer studying this 
ecosystem and the fishery. Over the last 50 years sockeye salmon has 
been the second most valuable species caught in the U.S. and Bristol 
Bay has been the major production region for sockeye salmon. The idea 
that highly toxic chemicals can be stored forever behind earthen dams 
in an ecosystem that is highly permeable, and subject to volcanic and 
seismic activity is laughable. The Pebble Mine poses a serious threat 
to one of America's premier fisheries.
    In summary I wish to emphasize that U.S. fisheries management has 
succeeded by relying on science advice. This should not change. 
However, there certainly is the potential to change U.S. fisheries 
management to try to achieve more benefits from the ocean. This can be 
achieved by directing the science community to design fisheries 
management policies that achieve our societal objectives.
References
    Costello, C., Ovando, D., Clavelle, T., Strauss, C. K., Hilborn, 
R., Melnychuk, M. C., Branch, T. A., et al., 2016. Global fishery 
prospects under contrasting management regimes. Proceedings of the 
National Academy of Sciences, 113: 5125-5129.
    Hilborn, R., and Costello, C. 2017. The potential for blue growth 
in marine fish yield, profit and abundance of fish in the ocean. Marine 
Policy. (available online).
    National Research Council. 2013. Evaluating the Effectiveness of 
Fish Stock Rebuilding Plans in the United States, National Academies 
Press.

    The Chairman. Great. Thank you, Dr. Hilborn.
    Dr. McKinney.

      STATEMENT OF DR. LARRY McKINNEY, EXECUTIVE DIRECTOR,

          HARTE RESEARCH INSTITUTE FOR GULF OF MEXICO

          STUDIES, TEXAS A&M UNIVERSITY CORPUS CHRISTI

    Dr. McKinney. Thank you, Mr. Chairman, and members of the 
Committee.
    Thank you for inviting me to testify today.
    For the record, my name is Dr. Larry McKinney. I am the 
Director of the Harte Research Institute at Texas A&M Corpus 
Christi.
    HRI is a trans-disciplinary institute focused on directed 
research, and includes the Center for Sportfish Science and 
Conservation, uniquely focused on developing foundational 
science for sustainable fisheries in the Gulf of Mexico.
    Before coming to HRI, I managed saltwater fisheries for the 
State of Texas. So I have both a management and a science 
perspective. And for that reason, I was asked to chair the 
working committee of the Morris-Deal Commission.
    The 2014 Commission report, ``A Vision for Managing 
America's Saltwater Recreational Fisheries,'' has enjoyed 
significant attention, and more importantly, the ideas 
summarized there have had a positive impact on Federal 
fisheries' policy and science.
    We have the science-based tools with which to manage our 
recreational fisheries. What we need is the legislative 
framework within which to apply those tools. Management of 
recreational fish-based fisheries cannot be accomplished by 
modifying management tools largely developed for the commercial 
fishery.
    My point is neither to diminish the importance of 
commercial fisheries nor the effective management tools now in 
place because of the MSA, which have been key to assuring their 
sustainable future.
    My request is that recreational fisheries have their own 
similarly effective, appropriate Federal framework to assure 
their future.
    The framework is not the current one-size-fits-all 
fisheries management paradigm to which we are confined. 
Recreational fisheries cannot be managed by a quota based, 
annual catch limit approach.
    That may work well and successfully for commercial 
fisheries, but access-based management approaches such as 
practice by state, successfully recovering and managing 
recreational fisheries, like the red drum and spotted sea 
trout, should be the Federal focus.
    Sport fish should be managed not as a commodity, but as a 
natural resource belonging to all Americans and accessible by 
all Americans. Unlike commercial fisheries, recreational 
anglers do not seek to maximize pounds landed, but the 
opportunity to fish for a range of mostly non-consumptive 
reasons.
    Using an access-based approach, fishery managers in states 
like Texas and Florida have been able to provide predictability 
and regulations, while also sustaining a healthy population 
with broad access.
    We need reasonable latitude in stock building timelines. 
Magnuson-Stevens does not currently allow for this 
consideration. The National Research Council reached this same 
conclusion in their report evaluating the effectiveness of fish 
stock rebuilding plans in the United States.
    They found that rebuilding plans based on monitoring and 
controlling fishing levels, rather than on requiring fish 
populations recover to pre-specified target sizes within 
certain timeframes, would be less disruptive to the fisheries 
and less subject to uncertainty.
    Magnuson-Stevens should address and facilitate regional 
cooperative management. Not all recreational species, often 
found in both State and Federal waters, can be managed as a 
single population. Yet, that is often the case for Federal 
management. Red snapper in the Gulf of Mexico is an example 
where such an approach is sorely needed.
    Flexibility to meet different regional angler needs, as 
well as ecological and biological subtleties across large 
geographic regions, is essential. It can be complex and take 
more effort, but the resource and economic benefits far 
outweigh the costs.
    Reauthorization should be explicit in providing for and 
encouraging cooperative management on a regional basis. Some of 
the very best and most successful fisheries expertise lies 
within State agencies, and that is not accessed given the 
current management system. Integration into Federal management 
processes through truly cooperative management, they bring 
expertise, resources, and credibility.
    For me, the defining example of the different motivations 
between recreational and commercial fisheries, and the power of 
an appropriate and sustained science foundation occurred when I 
was the head of Texas fisheries.
    Our data showed that because of a successful recovery 
effort, we could increase the daily bag limit of red drum from 
three fish to four. Texas anglers were loud and clear about 
that proposal, a resounding no. ``Even if the data says we can, 
leave it alone,'' was their message. The bag limit remains at 
three today.
    Anglers simply want reasonable access and quality fishing, 
not maximizing their take. An involved and educated 
recreational angling community can help generate that response.
    Anglers that have access to and trust in their fisheries 
management agency and the data on which they transparently 
operate are allies in conservation, not opposition. We need 
this for our Federal fisheries and for our Federal recreational 
fisheries management.
    Incorporating the ideas that I have briefly summarized here 
today, and that are more fully detailed in my written 
testimony, and the Commission report, can make that a reality 
for Federal fisheries.
    Thank you for the opportunity to provide this brief 
testimony.
    I am certainly happy to answer questions.
    [The prepared statement of Dr. McKinney follows:]

  Prepared Statement of Dr. Larry McKinney, Executive Director, Harte 
  Research Institute for Gulf of Mexico Studies, Texas A&M University 
                             Corpus Christi
    Mr. Chairman and members of the Committee, thank you for inviting 
me to testify before you today. For the record, I am Dr. Larry 
McKinney--Director of the Harte Research Institute (HRI) of Texas A&M 
University--Corpus Christi. HRI is a transdisciplinary organization 
with a focus on directed research and includes the Center for Sportfish 
Science and Conservation, uniquely focused on developing the 
foundational science for sustainable fisheries in the Gulf of Mexico. 
Before coming to HRI I managed saltwater fisheries for the state of 
Texas, so I have a management and science perspective, which is why I 
was asked to chair the working committee of The Morris-Deal Commission 
on Saltwater Recreational Fisheries Management. The commission was 
established in 2013 to provide a vision and framework for the 
modernization of Magnuson-Stevens Act (MSA) in its next reauthorization 
specifically to address pressing issues related to Sportfishing. The 
working committee brought together the very best policy, management and 
scientific expertise. These included a former director of the National 
Marine Fisheries Service, respected state and Federal fisheries 
managers, leading academics, NGOs and industry leaders.
    The report released by the Commission in 2014, A Vision for 
Managing America's Saltwater Recreational Fisheries, reflected that 
collective input and has received significant attention and more 
importantly, the ideas summarized there have had positive impact on 
Federal fisheries policy. NOAA's National Marine Fisheries Service 
worked closely with the Morris-Deal Commission and in 2015 adopted a 
National Saltwater Recreational Fisheries Policy, acknowledging Morris-
Deal, as the impetus for its development. NOAA Fisheries is also 
addressing other Commission recommendations as reflected in a recent 
Progress Update: A Vision for Managing America's Saltwater Fisheries. 
These are welcome efforts but further progress is limited by current 
legislation. We have the science-based tools with which to manage our 
recreational fisheries, but lack the legislative framework within which 
we can apply them.
    The Commission and I hope that any reauthorization of MSA will 
focus on this issue specifically as it relates to recreational 
fisheries, the single largest component of our Nation's fisheries not 
yet specifically addressed by our most important Federal fisheries 
legislation. Securing the economic health, sustainability, and access 
to the most economically significant fisheries sector is achievable, 
but legislation should provide for and encourage application of long-
established and successful science-based tools well known to fisheries 
managers and scientists.
    Management of recreationally based fisheries cannot be accomplished 
by modifying management tools largely developed for commercial 
fisheries. My point is not to diminish the importance of commercial 
fisheries nor the effective management tools now in place because of 
the MSA, which have been key to assuring their sustainable future. My 
request is that recreational fisheries have their own similarly 
effective and appropriate Federal framework to assure their future. 
That framework is not in the current one-size-fits-all fisheries 
management paradigm to which we are now confined. I suggest that the 
means to do so resides within the Commission's Vision Report. Some key 
recommendations from the report include the following:
    Recreational fisheries cannot be managed by quota-based, annual 
catch limit approaches. That may work well and successfully for 
commercial fisheries, but access-based management approaches, such as 
practiced by states successfully managing recreational fisheries, 
should be a Federal focus. Recreational fish should be managed, not as 
a commodity, but as a natural resource belonging to all Americans and 
accessible by all Americans. Unlike commercial fisheries, recreational 
anglers do not seek to maximize pounds landed but the opportunity to 
fish for a range of mostly non-consumptive reasons. Fisheries managers 
in the Atlantic striped bass fishery successfully employed the strategy 
of using long-term harvest rates, rather than strict poundage-based 
quotas, to successfully manage the most sought-after saltwater 
recreational fishery fish in the Nation. Using this access-based 
approach, fisheries managers in states like Texas and Florida have been 
able to provide predictability in regulations, sustain a healthy 
population, and ensure broad access.
    Perhaps the best example of this success is the restoration of Red 
Drum and Spotted Seatrout in Texas. These species were severely 
overfished by the commercial fishery through the mid-1970s. The Coastal 
Fisheries Division of Texas Parks and Wildlife Department launched a 
robust monitoring program in 1975. This program covered four million 
acres of Texas bays and out to nine nautical miles offshore, with joint 
Federal management out to two hundred nautical miles. Some 900,000 
recreational anglers and 1,700 commercial fishers were surveyed, 
including a 1,000 creel survey-days and 19,000 interviews. Over 780 
gill net sets, 1,680 bay trawls, 1,200 oyster dredges and 2,160 bag 
seines were used to gather the fisheries independent data. The forty-
two years of continuous data collection is the longest record of its 
kind in the world. A combination of legislative and regulatory actions 
fully recovered those species (see Figure 1 and 2, attached) with the 
support of an active and engaged angling public.
    The program also allowed for the successful implementation of a 
commercial fishing license buy-back program. Through the 2014 license 
year, $14.2 million was spent to purchase and retire 2,145 commercial 
Bay and/or Bait Shrimp Boat licenses. This represents 66 percent of the 
original 3,231 licenses grandfathered into the fishery in 1995. 
Additionally, $1.8 million has been spent purchasing 63 Commercial Crab 
Fisherman's licenses and 241 Commercial Finfish Fisherman's licenses, 
retiring 22 percent and 44 percent of the licenses respectively.
    We need reasonable latitude in stock rebuilding timelines. 
Magnuson-Stevens does not currently allow for this consideration. The 
National Research Council, a part of the National Academy of Sciences, 
Engineering and Medicine, reached the same conclusion in their report--
Evaluating the Effectiveness of Fish Stock Rebuilding Plans in the 
United States. They found that rebuilding plans based on monitoring and 
controlling fishing levels, rather than requiring fish populations to 
recover to a pre-specified target size within a certain timeframe, 
would be less disruptive to the fisheries and less subject to 
uncertainty.
    Magnuson-Stevens should address and facilitate regional and 
cooperative management. Not all recreational species, often found in 
both state and in Federal waters, can be managed as a single 
population, yet that is often the case for Federal management. Red 
snapper in the Gulf of Mexico is an example where such an approach is 
sorely needed. Flexibility to meet differing regional angler needs, as 
well as, ecological and biological subtitles across large geographic 
reaches is essential. It can be complex and take more effort but the 
resource and economic benefits far outweigh the costs. Reauthorization 
should be explicit in providing for and encouraging cooperative 
management on a regional basis. Some of the very best and most 
successful fisheries management expertise lies within state agencies; 
that expertise is not accessed given the current management system. 
Integrated into the Federal management process through truly 
cooperative management, they bring expertise, resources and 
credibility.
    Economic Data in Allocation of Mixed Fisheries. MSA reauthorization 
must provide the framework to assure that where mixed fisheries exist, 
managers use not only the best available science but also data-driven 
economic information to assure their sustainable future and equitable 
allocation. Reauthorization should clearly mandate this approach to 
eliminate ambiguity in the existing legislation.
    Stock Assessments are in need of Improvement. The most fundamental 
science-based tool for fisheries management is a robust stock 
assessment, including both fisheries dependent and independent data. 
This is not an area where reauthorization is necessary unless there is 
a desire to be prescriptive in the structure of this process. 
Considering the diversity of fish stocks, that likely would not be a 
wise course of action. We can certainly improve these assessments and 
there are considerable scholarly recommendations, such as the National 
Research Council's Improving Fish Stock Assessments. Stock assessments 
are the principal tool we use to gauge the health and productivity of a 
particular fish population. Management advice hinges on the frequency 
and robustness of these assessments. The issue is not a question of 
science. I believe we know well enough what to do. The question resides 
in policy and resources available. Currently, in the South Atlantic 
region, for example, the number and frequency of assessments are 
astonishingly low when compared to other regions, obviously hindering 
the decision making process. The driving factors behind the turn-around 
time for assessments, whether it personnel, data, or other resources 
can be complex; however, as pointed out by several independent review 
groups, this is an area that should be addressed and drastically 
improved. There are, as a general rule of thumb, never enough resources 
to carry out all the stock assessments needed, nor frequently enough to 
adequately support management needs. NOAA Fisheries' policy decisions 
on where and when to allocate its limited funding would benefit from 
review and revision.
    Building a Science Base for Fisheries Management Decisions. For me, 
a defining example of the different motivations between recreational 
and commercial fisheries occurred when I was the head of fisheries for 
Texas. Our data showed that because of a successful recovery effort we 
could increase the daily bag limit of Red Drum from three to four fish. 
Texas anglers were loud and clear about that proposal--a resounding no. 
Even if the data says we can, leave it alone, was their message. The 
bag limit remains at three to this day. Anglers simply want reasonable 
access and quality fishing, not maximizing their take. An involved and 
educated recreational angling community generated that response. 
Anglers who have access to--and trust in--their fishery management 
agency (and the data on which they transparently operate) are allies 
for conservation, not opponents. We need this for our Federal 
recreational fisheries management. Incorporating the ideas I have 
briefly summarized can make that a reality for Federal fisheries. Thank 
you for the opportunity to provide this brief testimony, and I am 
certainly happy to answer any questions.
                                Figures
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 1. A brief graphic history of the management of red Drum in 
Texas. Figure courtesy of Coastal Fisheries Division--Texas Parks and 
Wildlife Department. The combination of legislative and regulatory 
actions were all predicated on a robust monitoring program, including 
both fisheries dependent and independent data

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 2. A brief graphic history of the management of Spotted 
Seatrout in Texas. Figure courtesy of Coastal Fisheries Division--Texas 
Parks and Wildlife Department. The combination of legislative and 
regulatory actions were all predicated on a robust monitoring program, 
including both fisheries dependent and independent data
                               Attachment
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The Chairman. Great. And thank you, Dr. McKinney, and for 
your work, your Morris-Deal work as well.
    Mr. Haflinger, the floor is yours, sir.

             STATEMENT OF KARL HAFLINGER, FOUNDER 
                 AND PRESIDENT, SEA STATE, INC.

    Mr. Haflinger. Chairman Sullivan, Ranking Member Peters, 
and members of the Committee.
    My name is Karl Haflinger and my company, Sea State, 
maintains a private fisheries information network for 
approximately 150 trawl and longline vessels that fish in the 
waters off Alaska, Washington, and Oregon.
    Good science and data are critical in our fisheries 
management system. I hope my testimony today helps members of 
the Subcommittee understand the kind of management innovation 
that is possible under existing law and the importance of 
proceeding cautiously in any reauthorization process to ensure 
that we retain what is working.
    I also want to address areas where continuing innovations 
by NOAA fisheries could be helpful in catalyzing further 
improvements in how fisheries' data is collected and utilized.
    Shortly after passage of the original Act, limits were 
placed on foreign catch in Alaska and observers were placed on 
foreign processing vessels. As the growing domestic industry 
took over, the North Pacific Fishery Management Council 
retained full observer coverage on larger vessels and 30 
percent coverage on smaller vessels.
    The Council also retained strict catch limits, which 
requires tracking of both retained and discarded fish, and the 
Council also enacted limits on crab and halibut bycatch and 
started action on salmon bycatch as well.
    By the mid 1990s, the problem for U.S. fishermen in our 
area became not one of catching their target species, but of 
keeping bycatch down to levels that would allow them to fish 
without being shutdown.
    We responded to that challenge with innovations that 
harnessed cutting edge technology at the time; that is, fax 
machines and dial-up modems.
    Because there had been a close relationship between the 
NOAA fisheries biologists, observers, and industry, members of 
the industry realized that they might be able to combine 
observer data from all vessels to aid in salmon bycatch 
reduction.
    This is how Sea State began 25 years ago, by combining 
observer data from all vessels in the Pollock fleet and sending 
out maps showing areas that boats could avoid to reduce their 
salmon bycatch.
    The approach spread to another sector that fished for sole 
and needed to avoid halibut and crab, and has continued since.
    Our original efforts were only marginally successful since 
bycatch avoidance is not generally a win-win situation. It 
almost always results in slower fishing rates as vessels have 
to take time to relocate.
    However, as catch share programs became the norm and the 
race for fish ended, vessels could take that extra time to 
relocate and the use of this information became more important.
    As our fleets showed more ability to manage their bycatch, 
the councils have relaxed some of their rigid approaches to 
bycatch management in favor of flexible approaches that hence 
we can change closure areas on a much faster schedule than the 
Federal Government could and our enforcement is simpler because 
our vessels waive due process.
    Our actions are audited by a third party to be sure that we 
are not acting as a fox guarding the henhouse.
    We have built all these capabilities on data that we obtain 
from NOAA fisheries. But fisheries are no different from the 
rest of society, and we are constantly being challenged to 
incorporate new methods and technologies while not losing 
legacy data.
    This offers opportunity. I believe that the same advantages 
that technology offers to society in general will also be 
extended to fisheries. Whatever you can do in the 
reauthorization process to encourage further innovation as well 
as continuing cooperation between industry and NMFS is 
important.
    It is also important to realize that the demands on regions 
to live within catch limits makes accurate monitoring of catch 
even more important.
    Thus, technologies like electronic monitoring will have to 
be used alongside human observers because we cannot afford to 
place observers on every boat, and fishermen will have to work 
together with NOAA fisheries to make this happen.
    My written testimony references a document called 
``Improving Net Gains,'' that grew out of a data modernization 
workshop, and I would urge you to look at the report for 
suggestions in this arena. The report highlights how 
modernizing our data infrastructure could provide economic 
benefits to the fleet, make it easier for more vessels to stay 
on top of catch and bycatch, and allow both safety and 
efficiency gains.
    Thank you again for the opportunity to testify and I 
welcome any questions.
    [The prepared statement of Mr. Haflinger follows:]

     Prepared Statement of Karl Haflinger, Founder and President, 
                            Sea State, Inc.
Introduction
    Good afternoon, Chairman Sullivan, Ranking Member Peters, and 
members of the Subcommittee. Thank you for the opportunity to testify 
today. My name is Karl Haflinger and my company, Sea State, maintains a 
private fisheries information network for approximately 150 trawl and 
longline vessels that fish off the coasts of Alaska, Washington and 
Oregon.
    I will be speaking today about the close partnership that Sea State 
has built with members of the fishing industry in the North Pacific and 
Pacific Northwest to dramatically improve business and conservation 
outcomes. Our work is, we believe, an illustration of ``state of the 
art'' cooperative management under the Magnuson-Stevens Act (MSA). It 
demonstrates how fishing industry participants are themselves investing 
in world-class science and data in ways that deliver healthier 
fisheries and more profitable fishing enterprises. First, I hope my 
testimony helps members of the Subcommittee understand the kind of 
management innovation that is possible under the existing law, and the 
importance of proceeding cautiously in any reauthorization process to 
ensure we retain what is working. Second, I want to address areas where 
continuing innovations by the National Marine Fisheries Service (NMFS) 
could be helpful in catalyzing further improvements in how fisheries 
data is collected and utilized.
Meeting Business and Conservation Challenges
    Data collection and analysis is an critical component of success 
for fishing businesses in the twenty-first century, and where Sea State 
focuses its work. Currently, approximately 150 commercial fishing 
vessels use our services, which could be loosely described as fisheries 
data analysis, in support of fishing activities governed under 
regulations developed by two of the eight regional fishery management 
councils established under the MSA, the North Pacific Fishery 
Management Council and the Pacific Fishery Management Council. All of 
these vessels are members of fishing cooperatives, whether these 
cooperatives are recognized in statute (as inshore cooperatives defined 
under the American Fisheries Act), or simply composed of all members of 
a closed class of vessels that receive a fixed percentage share of the 
annual harvest quota. Fish harvesting cooperatives are a form of catch 
share-style program.
    With modern fishing gear, sophisticated electronics that identify 
fish schools, and fishing experience acquired over 40-plus years on the 
offshore grounds since the MSA extended U.S. jurisdiction out to 200 
miles, locating target species is generally not a persistent problem 
for the fleets with whom we work. Reducing incidental catch of non-
target species (bycatch), with an emphasis on certain species, is more 
often the focus of fishermen and fishery managers because fishery 
management regulations exist that can close fisheries before the target 
species quota is taken if fishermen reach an incidental catch allowance 
for certain non-target species.
    In 1996, the MSA was amended to define bycatch as discarded fish. 
Fish can be discarded for economic reasons (i.e., the fish are 
unmarketable), but there are also discards required by regulations, 
most often because fish incidentally caught by one fisherman are target 
species for another. Requiring such fish to be discarded is intended to 
eliminate any incentive to catch the non-target fish in the first 
place. The 1996 MSA amendments contained other provisions to reduce 
incidental catch of non-target species, including adding National 
Standard #9 to the Act, which requires Federal fishery managers to 
minimize bycatch.
    Regulatory actions by the North Pacific Council on bycatch 
reduction predated MSA National Standard 9, due to the fact that major 
bycatch species like salmon, crab and halibut are at the center of 
subsistence and commercial livelihoods for many coastal residents 
throughout Alaska and the Pacific Northwest. The Council responded to 
concerns about bycatch (first raised in conjunction with foreign 
fishing) with a series of both input and output controls, such as time-
and-area closures and outright limits on total allowed bycatch in the 
early 1990s. In the latter instance, target groundfish fisheries closed 
before the allowable catch was reached if the fleet reached caps on the 
incidental catch of certain non-target species, particularly halibut 
and crab.
    In 1976 when the U.S. established its 200-mile Exclusive Economic 
Zone (EEZ), a number of foreign nations entered into fishing agreements 
to allow continued access to U.S. waters to harvest groundfish species. 
One condition of fishing was that NMFS's observers were placed on 
foreign vessels to ensure adherence to fishing quotas. Regulations 
requiring onboard observer coverage carried over to the domestic fleet 
in Alaska as U.S. fishing and fish processing developed through the 
1980s.
    The U.S. industry in the Northwest and Alaska is currently spending 
$15-20 million annually to cover Federal fishery observer costs. 
Observers are trained and managed by NMFS and the data they collect is 
protected under confidentiality rules covered in MSA. Confidentiality 
protections, while important to preserve in the Act, initially 
presented an obstacle to using this data to support industry bycatch 
reduction initiatives. The trawl industry realized that the solution 
was to authorize a 3rd party to receive and review observer data for 
all vessels in a fleet, and quickly create maps of bycatch trends that 
were returned in real-time to vessels. That is when Sea State began, 
and we have continued to create information products that captains 
themselves help design, that assist in bringing down bycatch rates. 
Original efforts were only marginally successful since bycatch 
avoidance is not a win-win solution--it almost always results in slower 
fishing rates as vessels must take time to relocate. However, once the 
fisheries I work with transitioned to catch share fisheries of some 
form fishermen could accept the cost of increased time that bycatch 
reduction almost always entails, because individual vessel allocations 
ensured no lost fishing opportunities from picking up gear and moving 
to areas with lower bycatch.
    All of the major groundfish fisheries in the Bering Sea and the 
Pacific whiting, or hake, fishery off Washington and Oregon are now 
prosecuted under strong cooperative agreements. Input controls, like 
rigid time-and-area closures that often proved to be at odds with 
actual trends on the grounds, have largely been abandoned by the 
Councils. The ocean environment is dynamic, and the distribution of 
fish stocks is in constant flux. Static lines on a map that require 
promulgation of a rule to change do not provide for the type of 
adaptive, real-time management that sound catch accounting methods and 
electronic reporting of catch can provide. Instead, the Councils have 
tasked the fleets with finding ways to reduce bycatch, at times adding 
performance standards for industry to meet. And industry is required to 
regularly demonstrate to the councils that their approaches are 
working.
    To respond to these challenges placed on fleets by the Councils, we 
have had to step up our efforts to gather data from multiple sources 
and at times even automate our analysis and response to the fleets so 
that it is a round-the-clock process. Data-sharing among vessels in 
cooperatives is made mandatory by fishing cooperative contracts, and 
informal, cross-sector (that is, among target fisheries) sharing is 
common as well. Cooperative contracts are legally binding private 
sector agreements. Such agreements obligate cooperative members to fish 
according to whatever rules the coop in particular feels are necessary 
to put in an orderly harvest in accordance with Council guidelines. Sea 
State generates notices of high bycatch based on both observer data and 
landings information (whichever arrives first) and sends alerts to 
vessels on the grounds as text-based e-mails with links to live web 
maps.
    Additionally, according to rules of some cooperatives, we evaluate 
actively fished areas on a weekly basis and close them to vessels 
exhibiting high bycatch rates, thus providing an incentive for 
individual vessels to figure out how to fish with less bycatch. All of 
these measures are prescribed in the cooperative contracts that all 
members sign, so that no behavior is simply voluntary. Substantial 
fines are levied for not following the rules (for example, fishing in a 
closed area, which is monitored via satellite), and in some cases Sea 
State's management actions are subject to 3rd party audits to be sure 
that we are performing according to contract in our oversight role.
Catalyzing Continued Innovation
    We have been fortunate to work cooperatively with NMFS over the 
last 20 years to develop the most advanced private fishery information 
system on the planet. NMFS's Northwest Groundfish Observer Program 
office has been extremely cooperative from day 1, from a time when 
faxes and online bulletins boards were state-of-the-art tools. We have 
now progressed to the point where all vessels have at least text 
messaging systems, satellite monitoring of positions (VMS) and often 
full e-mail and Internet access. The e-Landing system in Alaska, which 
was created through a partnership with NOAA Fisheries, the State of 
Alaska and the International Pacific Halibut Commission followed in the 
early 2000s, allows us access to shoreside landings information for 
clients who authorize our access to their records.
    Nonetheless, there is clearly more we can do to modernize data 
infrastructure, give additional tools to fishing businesses, and ensure 
the long-term sustainability of all U.S. fisheries. I was recently part 
of an expert panel that explored what more we could do to accelerate 
progress. Our ``Fishing Data Innovation Taskforce'' included a broad 
cross-section of fisheries stakeholders with an interest in harnessing 
technology to meet business and conservation goals. Our Improving Net 
Gains report reviews both areas of progress and remaining challenges 
and makes specific recommendations for reform, which I recommend to the 
Subcommittee.
    I am encouraged by the reception our Taskforce report has received 
to date. The new Assistant Administrator for Fisheries, Chris Oliver, 
has confronted these issues before in his previous role as Executive 
Director of the North Pacific Fishery Management Council. Others in 
positions of leadership at the National Marine Fisheries Service are 
showing a willingness to explore new approaches where needed, which I 
applaud. We have been gratified by the interest of a number of 
congressional leaders. Chairman Sullivan, we're especially grateful for 
the spotlight you're shining on this issue. Progress in this area can 
be difficult. As in many fields today, fishery data systems that were 
developed ad hoc must be re-written to take advantage of newer 
information technologies, and doing so without losing critical 
``legacy'' data requires almost inspired planning. However, it is 
critical that fisheries managers and fishermen find ways to navigate 
these challenges to secure the benefits that improved data systems can 
deliver. Modernizing our data infrastructure could provide economic 
benefits to the fleet, make it easier for more vessels to stay on top 
of catch and bycatch, and allow both safety and efficiency gains.
Maintaining what we have
    One issue I haven't yet mentioned is the importance of maintaining 
NOAA Fisheries stock surveys and yearly stock assessments for both 
major and other constraining stocks (that is, minor or weaker stocks 
taken as bycatch in a mixed-stock fishery). Maintenance of the surveys 
provides fishery independent data that is essential to the fisheries 
that span the West Coast and make up a substantial proportion of the 
Nation's groundfish landings. The industry ``pitches in'' on management 
costs paying for 100 percent observer coverage for catch share 
fisheries in the Bering Sea, often with 2 observers on larger vessels. 
Industry has also been involved in cooperative programs with NMFS, such 
as providing platforms for echo-sounding surveys while fishing, funding 
gear research, and genetic stock research for Alaskan salmon. However, 
the fisheries independent surveys and stock assessments are the basis 
for the most critical management decisions, and need to be carried 
forward to ensure that the large groundfish stocks off our coasts are 
fished sustainably.
    Thank you again for the opportunity to testify, and I look forward 
to continuing to work with the Subcommittee to modernize fishery 
information systems and improve the performance of our fisheries.

    The Chairman. Great. Thank you, Mr. Haflinger.
    Dr. Jones.

         STATEMENT OF MICHAEL JONES, Ph.D., PROFESSOR,

             DEPARTMENT OF FISHERIES AND WILDLIFE,

                   MICHIGAN STATE UNIVERSITY

    Dr. Jones. Chairman Sullivan, Ranking Member Peters, and 
distinguished members of the Committee.
    Thank you for inviting me to appear before you to discuss 
fishery science and its potential to better inform fishery 
management practices.
    My name is Michael Jones. I am a Professor in the 
Department of Fisheries and Wildlife at Michigan State 
University. I received my Ph.D. from the University of British 
Columbia, and have experience as an environmental consultant, 
as a Government scientist, and since 1997, as an academic.
    I come to fisheries honestly and my father worked, 
admittedly, as an accountant in the fishing industry in British 
Columbia. But my exposure through him to this world really set 
the course for my academic career.
    As Senator Peters mentioned, I am the Founding Director of 
the Quantitative Fisheries Center at MSU. Our Center works with 
Government and stakeholders to foster better management of 
Great Lakes fisheries.
    We marry analytics with management and decision making. We 
use our expertise to put computer models to work with 
stakeholders for real fishery benefits in real time. Our work 
is focused on the Great Lakes, but the science we use is just 
as relevant to other regions of the United States.
    The Magnuson-Stevens Act has made a vital contribution to 
substantially improving the state of the country's federally 
managed fisheries. I hardly need to remind the Committee of 
this fact.
    Via the Act, our country oversees over 4 million square 
miles of ocean, an area larger than that of our entire country. 
These waters range from the Caribbean to the Bering Sea. They 
include a huge variety of species.
    Ecological science tells us that these species should not 
all be managed in the same way. There is merit in considering 
scientifically flexible, defensible flexibility in things like 
rebuilding plants, for example, related to species' life 
histories.
    A one-size-fits-all approach to fisheries management does 
not work well and risks managing some fisheries overly 
conservatively, while others suffer from regulations that are 
too liberal.
    All fisheries are managed in the face of great uncertainty, 
both about the current status and about future conditions. Good 
policy and decisionmaking frameworks should explicitly 
recognize this uncertainty, and frame action in the context of 
risks.
    One implication of this is that there is not a bright line 
between stocks that are assessed as overfished versus those 
that are not. Accommodating this uncertainty about status by 
taking account of a range of possible assessments from, for 
example, slightly or possibly overfished to greatly or 
certainly overfished, will go a long way toward allowing for 
better decisions.
    Around the world, fishery management is increasingly being 
informed by approaches widely referred to as Management 
Strategy Evaluations, which use computer simulation methods to 
evaluate how alternative fishery management strategies are 
likely to perform relative to predefined sets of management 
goals and that explicitly recognize our uncertainty.
    While this approach is sometimes technically challenging, 
there is really no excuse for failing to use it. Increasingly, 
the National Marine Fishery Service is adopting this approach.
    I would like to highlight two positive experiences with the 
application of these MSE methods to important fishery 
management issues in the Great Lakes: sea lamprey control and 
Lake Erie perch and fisheries.
    Sea lamprey is a destructive, invasive species in the Great 
Lakes that require annual investments of millions of dollars on 
pest control to reduce their impact on valued species.
    In collaboration with the Great Lakes Fishery Commission, 
we use MSE methods to guide critical decisions about allocation 
of resources between determining where we should apply control 
and actually implementing that control. These decisions have 
greatly helped the GLFC to achieve its management goals for sea 
lamprey in each of our Great Lakes.
    Lake Erie walleye and yellow perch fisheries represent the 
most valuable commercial freshwater fishery in the world. Not 
unlike red snapper, for example, Lake Erie walleye and perch 
are highly valued by both recreational and commercial fishers.
    These competing interests have led to considerable conflict 
and an erosion of trust in management by all stakeholders that 
peaked around 2009.
    In the summer of 2010, Lake Erie fishery managers invited 
the QFC to lead an effort to create a more transparent, 
science-based process to help define harvest policies that were 
scientifically sound and balance the competing objectives of 
the different stakeholders.
    We developed and used an MSE model in a process that 
involves stakeholders and managers to examine harvest policy 
options.
    Largely as a result of the transparency and openness of 
this process, this work led to the adoption of harvest policies 
that are viewed by all stakeholders as suitable for these 
fisheries.
    Our experience in the Great Lakes also highlights the 
importance of considering how ecosystem change can affect the 
future of fisheries in ways that are not evident from looking 
at the past.
    Invasive species--including the sea lamprey, but also 
zebra, and quagga mussels, and possibly Asian carp in the 
future--can profoundly alter the dynamics of native species 
that are economically and culturally important.
    As well, land based activity, such as agricultural 
practices and storm water management, can have very large 
impacts on nutrient dynamics that drive so-called bottom up 
effects on the food web.
    More than 50 years of experience studying the human driven 
ecosystem change in the Great Lakes should provide insight that 
can help us to develop robust management strategies for 
fisheries that are resilient to the uncertainties created by 
unanticipated changes in the ecosystem.
    One of the great benefits to the U.S. fishery science, due 
to the Magnuson-Stevens Act, has been its impact on the 
development and deployment of cutting edge scientific 
technologies to inform us about fish stocks and their 
ecosystems. I would be remiss if I did not and were not to 
mention that this is a benefit that we, who do science in the 
Great Lakes, truly envy.
    Senator Peters and others have recently introduced a bill 
known as the Great Lakes Fishery Research Authorization Act 
that seeks to provide comparable support for science for Great 
Lakes fisheries. I urge you to consider the merits of this bill 
for the betterment of fishery management on our north coast.
    The Magnuson-Stevens Act has helped us to be able to claim 
that our country has some of the world's best managed 
fisheries, but our work cannot stop.
    I am honored to have this opportunity to speak to you about 
the role of science and our investment in the future of 
America's fisheries.
    I look forward to the opportunity to address your 
questions.
    [The prepared statement of Dr. Jones follows:]

 Prepared Statement of Michael Jones, Ph.D., Professor, Department of 
           Fisheries and Wildlife, Michigan State University
    Chairman Sullivan, Ranking Member Peters, and distinguished members 
of the Committee, thank you for inviting me to appear before you to 
discuss fisheries science and its potential to inform better fishery 
management practices.
    My name is Michael Jones. I am a professor in the Department of 
Fisheries and Wildlife at Michigan State University. I received my 
B.Sc. and Ph.D. degrees from the University of British Columbia in 
Canada. I have worked in the private sector as an environmental 
consultant, in the public sector as a government scientist, and since 
1997 as an academic. I come to fisheries ``honestly''--my father worked 
in the fisheries industry in British Columbia, admittedly as an 
accountant, but my exposure through him to this world set the course of 
my academic career. My research focuses on fish population dynamics and 
ecology, resource management and simulation modeling.
    Over the years, I have become more and more interested in how 
uncertainty and risk affect resource management decision-making. I have 
also seen how Structured Decision Making methods can lead to better 
management outcomes, especially when they involve stakeholder 
engagement. I have worked closely with fishery management agencies, 
particularly in the Great Lakes region and in Alaska, to apply my 
research findings and scientific expertise to current and emerging 
management issues.
    I am a founding director of the Quantitative Fisheries Center (QFC) 
at MSU. Our Center works with agency partners and stakeholders to 
foster better management of fisheries, primarily in the Great Lakes 
Region. The QFC marries analytics with management and decision-making. 
We use our expertise to put statistical methods and models to work with 
stakeholders, to achieve real fishery benefits in real time.
    We work to ensure that wise, fair decisions are made, based on the 
best science, and in partnership with many, sometimes disparate, 
stakeholder groups.
    Although our work has focused on the Great Lakes, we tackle 
scientific issues that are just as important for other regions of the 
United States, where the Magnuson-Stevens Act applies, including:

  <bullet> determination of sustainable and equitable harvest policies 
        for exploited species;

  <bullet> mitigation of the negative effects of invasive species;

  <bullet> accommodation of the influence of ecosystem change on food 
        webs that include economically valuable fish stocks.

    The Magnuson-Stevens Fishery Management and Conservation Act has 
made vital contributions to substantially improve the state of our 
country's federally-managed fisheries. While I hardly need to remind 
this committee of this fact, we have seen since the early 2000s:

  <bullet> 39 overfished stocks rebuilt.

  <bullet> A 98 percent increase in fish stock sustainability.

  <bullet> A Fish Stock Sustainability Index (FSSI), which gauges key 
        stocks according to their overfishing status and biomass 
        levels, has increased every year since the index was 
        implemented.\1\
---------------------------------------------------------------------------
    \1\ NOAA Fisheries Magnuson-Stevens Fishery and Conservation Act 
http://www.nmfs.
noaa.gov/sfa/laws_policies/msa/
---------------------------------------------------------------------------
    This is in stark contrast to reports of fishery performance in many 
other--although not all other--regions of the world.
    The Marine Fish Conservation Network reports that as of 2013, two-
thirds of overfished stocks placed in rebuilding plans due to the 
Magnuson-Stevens Act have been rebuilt or have made significant 
progress since 1996. They estimate that rebuilding all U.S. fish 
populations would lead to a $31 billion increase in annual sales and 
support for half a million new U.S. jobs.\2\
---------------------------------------------------------------------------
    \2\ Marine Fish Conservation Network http://conservefish.org/
healthy-oceans/magnuson-ste
vens-act-upholding-a-legacy-of-success/
---------------------------------------------------------------------------
    Via the Magnuson-Stevens Act, our country oversees 4.4 million 
square miles of ocean--an area larger than that of our entire country. 
These oceans and seas range from the Caribbean to the Bering Sea, and 
no two are the same. They include a huge variety of species that are 
the objects of exploitation: ranging from small, pelagic, short-lived 
fish like menhaden to large, extremely long-lived benthic fish like 
Pacific coast rockfishes, not to mention numerous important shellfish 
species.
    Ecological science tells us that these species should not all be 
managed in the same way. There is merit--and evidence to support this--
considering scientifically defensible flexibility in things like 
rebuilding plan expectations, for example related to species life 
histories. A `one-size fits all' approach to fisheries management does 
not work well, and risks managing some fisheries overly conservatively 
while others suffer from regulations that are too liberal. Determining 
how to adapt management strategies to match the characteristics of 
diverse fisheries has been a focus of my work for the past 30 years.
    All fisheries are managed in the face of great uncertainty, both 
about current status and about future conditions; good policy and 
decision-making frameworks should explicitly recognize this uncertainty 
and frame action in the context of risks.
    One implication of this is that there is not a ``bright line'' 
between stocks that are assessed as overfished versus those that are 
not. Better decisions would result from some Accommodation for the 
uncertainty about status, taking account of a range of possible 
assessments from, for example, slightly/possibly overfished to 
certainly/greatly overfished, would go a long ways toward informing 
better decisions.
    Around the world, fishery management is increasingly being informed 
by approaches widely referred to as Management Strategy Evaluations 
(MSEs), which use computer simulation methods to evaluate how 
alternative fishery management strategies are likely to perform 
relative to pre-defined sets of management goals, and that explicitly 
recognize the uncertainty I just mentioned. While sometimes technically 
challenging, particularly for data-poor fisheries, there is no excuse 
for failing to use this type of approach, especially for economically 
important fisheries. Increasingly, the National Marine Fisheries 
Service has begun to adopt this approach.
    We have had positive experiences with the application of MSE 
methods to two key fishery management issues in the Great Lakes.
    The first MSE application is sea lamprey control. Sea lamprey were 
one of the first aquatic invaders that entered the Great Lakes as a 
consequence of increased shipping and other commerce in the region in 
the early 20th century. When the sea lamprey entered into the upper 
Great Lakes, they decimated native fish populations.
    Sea lampreys have a very unique life cycle. Lampreys cause their 
damage to Great Lake fisheries during the adult parasitic phase of 
life, which lasts 12-18 months. During the spring, lamprey die, but not 
before they spawn in Michigan rivers to continue their destructive 
legacy. After the eggs hatch, they go through a non-parasitic larval 
stage that lasts for three to six years. When the larval stage is 
complete, they begin the adult parasitic phase where they enter the 
Great Lakes and feed on the fish population. However, during the larval 
stage sea lampreys are vulnerable to chemical control, and this has 
been the primary means by which this destructive invader has been 
controlled.\3\
---------------------------------------------------------------------------
    \3\ Jones, M.L., B. Irwin, G.J.A. Hansen, H.A. Dawson, A.J. Treble, 
W. Liu, W. Dai, and J.R. Bence. 2009. An operating model for Great 
Lakes sea lamprey integrated pest management. Open Fish Science Journal 
2: 59-73.
---------------------------------------------------------------------------
    Over the last decade we have used MSE methods to guide ``million 
dollar'' critical decisions about allocation of resources between 
assessment (that is, determining where we should apply control) and 
control (that is, how much habitat should we chemically treat) of this 
pest, and to evaluate trade-offs among competing management options. 
This science has been vital to the considerable success of the control 
program run by the bi-national Great Lakes Fishery Commission.
    While sea lamprey control is a success story in the Great Lakes, 
the lessons learned from this program can reach far beyond the Great 
Lakes. Learning how to better manage invasive species ranks among the 
most important ecosystem-level issues we face today, and this is 
equally true for our marine ecosystems.
    The second MSE application involves the most valuable freshwater 
commercial fishery in the world--the Lake Erie walleye and yellow perch 
fisheries. Not unlike red snapper in the Gulf of Mexico, and any number 
of other U.S. coastal marine fish stocks, Lake Erie walleye and perch 
are highly valued by recreational and commercial fishers alike.\4\
---------------------------------------------------------------------------
    \4\ Jones, M.L., M.J. Catalano, L.K. Peterson, and A.M. Berger. 
2016. Stakeholder-centered development of a harvest control rule for 
Lake Erie walleye Sander vitreus. pp. 163-183 in ``Management Science 
in Fisheries'', C.T.T. Edwards and D.J. Dankel, editors. Routledge, 
Oxford and New York.
---------------------------------------------------------------------------
    Since the late 1970s walleye and perch fishers, and the managers 
that determine who gets to catch what, have repeatedly fought over 
allocation of these prized fish stocks. By 2009 trust among 
stakeholders, and between many stakeholders and decision makers, was at 
an all-time low. In Ontario especially, managers and commercial fishery 
stakeholders were spending a lot of unproductive time in court.
    In the summer of 2010, the Lake Erie fishery managers decided to 
change course. They invited the Quantitative Fisheries Center to lead a 
Structured Decision Making effort to help create a more transparent, 
science-based process--a process that would help define harvest 
policies that were scientifically sound and balanced the competing 
objectives of different stakeholders.
    At the core of our effort was the development of an MSE model, 
using a process that involved active engagement of fishery stakeholders 
and managers, to both improve stock assessment methods and examine 
harvest policy options. Largely as a result of the transparency and 
openness of our process, this work has led to adoption of harvest 
policies that are viewed by all stakeholders as suitable for these 
fisheries.
    My experience with using a stakeholder-engaged MSE process, both in 
Lake Erie and more recently in western Alaska for subsistence salmon 
fisheries, has convinced me that progress towards better management of 
fisheries, where a diversity of stakeholders have potentially 
conflicting objectives, depends on an open, transparent process where 
stakeholders feel empowered to influence management decisions, and are 
able to gain insight into the objectives of other stakeholders.
    Experience with the management of fisheries in the Great Lakes over 
the past few decades also has taught me the importance of careful 
consideration of how ecosystem change can affect the future of 
fisheries in ways that are not always evident from looking at the past.
    As I mentioned earlier, invasive species, including the sea lamprey 
but also zebra and quagga mussels, and possibly Asian carp in the 
future, can profoundly alter the dynamics of our native species that 
are economically and culturally important.
    In addition, land-based activities such as agricultural practices 
and stormwater management can have large impacts on nutrient dynamics 
that drive so-called bottom up effects on the food web.
    More than 50 years of experience with human-driven ecosystem change 
in the Great Lakes offers examples that can be applied to fishery 
management in marine coastal regions of the U.S. These can also help us 
to develop robust management strategies that are resilient to the 
uncertainties created by unanticipated changes to the ecosystem.
    One of the great benefits to U.S. fisheries science and management 
that has come from the Magnuson-Stevens Act has been its impact on the 
development and deployment of cutting edge scientific technologies to 
inform us about fish stocks and their ecosystems. I would be remiss if 
I were not to mention at this hearing that this is a benefit that we 
who carry out science in the Great Lakes truly envy. Senator Peters and 
others recently introduced a bill known as the Great Lakes Fishery 
Research Authorization Act that seeks to provide comparable support for 
science for Great Lakes fisheries as we presently enjoy for marine 
systems thanks to the MSA. I urge you to consider the merits of this 
bill for the betterment of fishery management in the United States' 
``north coast.''
    The Magnuson-Stevens Act undoubtedly allows us to claim our country 
has the world's best managed fisheries, but our work cannot stop. I am 
honored to have the opportunity to speak to you about the role of 
science in our investment in the future of America's fisheries, and I 
look forward to addressing your questions.

    The Chairman. Great.
    Well, thanks again to all the witnesses for great opening 
statements. I think now we will proceed to questions.
    I wanted to begin, Dr. Hilborn and Mr. Haflinger, you both 
mentioned the phrase ``race to fish.''
    Can you describe that in a little bit more detail in what 
you mean? How data and sound science, that is really the focus 
of this hearing, can help us address some of the challenges 
that come out of the race to fish?
    I will let either of you take it.
    Mr. Haflinger. In the race to fish, I think typically 
refers to the way fisheries have most often been conducted in 
which whatever management agency is responsible would somehow 
set an allowable catch, and they would determine when a season 
would be for this fish fishery. The starting gun would go off 
and fleets would fish until the allowable catch had been 
achieved if they were fishing with an allowable, within the 
framework of an allowable catch.
    In such an environment, anything that slows you down and 
takes you off the grounds, or makes you less efficient on the 
grounds, simply means you have lost revenue because you have 
lost fishing time to somebody else.
    So that is the race for fish and removing the race for fish 
has been phenomenally important in fisheries in the U.S.
    The Chairman. So are there safety elements to that?
    Mr. Haflinger. There are certainly safety elements.
    The Chairman. Can you unpack those a little bit as well?
    Mr. Haflinger. I think the most striking example would be 
in the crab fisheries in Alaska where the seasons were 
compressed to just maybe a week or so. If it was blowing out of 
the north at 45 and it was heavy icing, you went out anyway.
    A lot of boats were lost, a lot of lives were lost, and 
there was simply no choice because that is when the season 
started, and that is when you had to go and fish. I think it 
was true across the halibut fishery as well. I am sure it has 
been true in many fisheries. So safety was a large issue 
certainly.
    The Chairman. Dr. Hilborn, do you want to comment on that 
at all?
    Dr. Hilborn. Yes. The race to fish was destructive and it 
still exists in some fisheries, but it has safety consequences. 
It also means that the incentives, for any individual 
fisherman, are to do anything that lets him catch fish at a 
faster rate.
    As we have eliminated the race to fish in many fisheries, 
the incentive switched to getting the maximum value of the fish 
that you do catch. And this has led to much fuller product 
utilization, concentrating on trying to get higher value 
products, whether it is more fillets off of a pound of fish or 
whatever.
    I think it has universally been recognized that stopping 
the race to fish is an essential element in most good fisheries 
management.
    The Chairman. So management and safety?
    Dr. Hilborn. But for economics, for management, and for 
safety, for all those reasons.
    The Chairman. Great. Thank you.
    Dr. McKinney, one of the Morris-Deal recommendations was, 
quote, ``Adopting a revised approach to saltwater recreational 
fisheries management.'' This has also been termed ``alternative 
management.''
    Can you elaborate on what is meant by alternative 
management? And do you have any experience from your work in 
Texas and in the Gulf on these management approaches?
    Dr. McKinney. Appreciate the question, Mr. Chairman.
    I guess I would start that from the State's perspective and 
from a number of fisheries managements, we do not really call 
it ``alternative fisheries management,'' but it is the fishing 
approach.
    Because it is used in nearly every state, tribal groups, 
state compacts, even in wildlife type things which basically is 
looking at, not looking at [sic] quota based or maximum yield 
type of approach, but basically access.
    And it is based on what was the old North American model of 
how we manage fisheries, and that is, that came about as we 
tried to move away from commercial fisheries for wildlife 
production particularly. I think that is the best management, 
best idea of management deal.
    So it is looking at access based approaches where you use 
link limits, seasons, bag limits, those types of approaches and 
you combine that with a robust data collection process as you 
move along so that you can make adjustments as you move.
    It is a very adaptive management approach rather than 
setting a targeted date, a time for restoration and a weight, a 
catch her by weight type of thing.
    The Chairman. Thank you.
    I might have some more questions on follow up, but I turn 
now to Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Again, thank you to each of our witnesses for some very 
good testimony here today.
    One thing that has come out through our hearings that we 
have had on this issue is that oftentimes we have difficulty 
reaching consensus. So when it comes to fisheries management, 
there are a lot of stakeholders that have very strong opinions, 
as you know.
    Dr. Jones, your experience with the management strategy 
evaluations has certainly been a success in trying to bring 
some of these folks together.
    If you could just elaborate more specifically as to how 
that works? How it enables us to bring divergent groups 
together and how that might be something for us to be thinking 
about going forward?
    Dr. Jones. Sure. Thank you very much for the question.
    I guess the main thing that I would emphasize about the MSE 
process is that it starts with a conversation about what you 
want to achieve. Dr. Hilborn made reference to this in his 
testimony, the importance of articulating what the goals of 
management are in order to, then, bring the science to bear on 
how best to achieve those goals.
    And so, the process that we have used, the process that 
other groups have used also in the world with MSE, is to bring 
the diverse points of view into the room and articulate what 
the suite of objectives are.
    Not necessarily resolve and try to define a common 
objective, but identify what the range of objectives are that 
different stakeholders have. And then proceed with an analysis 
that formally asks the question, ``How will different 
management strategies succeed at meeting this diverse, and 
sometimes competing, set of objectives?''
    What we have found is that if you do that in a transparent 
and explicit way, that stakeholders begin to have more of an 
opportunity to understand the need for compromise, the need for 
reconciling their goals with the goals of other stakeholders.
    That was certainly our experience with the Lake Erie perch 
and fisheries that I referred to in my testimony.
    Senator Peters. Thank you.
    Dr. Jones, also in your written testimony, you list some 
very important scientific issues to tackle that are actually 
shared between the Great Lakes fisheries, as well as fisheries 
under the Magnuson-Stevens Act including the influence of 
ecological changes on food webs.
    The question is really, how can we go about improving 
fisheries management, whether under NOAA or in the Great Lakes, 
to accommodate ecological changes on food webs, as well as 
other environmental changes like invasive species, such as the 
Asian carp, which we hopefully do not have, in the Great Lakes? 
Hopefully, we will be able to prevent that. Or climate change, 
if you could elaborate a little bit on that, I would appreciate 
it.
    Dr. Jones. Hard questions.
    I think one observation that I would make is that I think 
we have been comparatively successful working in the Great 
Lakes to begin to tease apart and understand the role that 
ecosystem change--as invasive species' eutrophication and 
oligotrophication, the opposite of that--has played in 
influencing the productivity of fish populations that we are 
targeting.
    I think that what we have essentially learned is that you 
cannot ignore those phenomena as you are asking questions about 
sustainable levels of harvest.
    So you need to make accommodations in your targets of 
allowable harvests, or what have you, that account for your 
understanding of how those processes influence.
    I would admit that the Great Lakes, despite the fact that 
you and I both see them as enormous bodies of water, they are 
kind of puddles compared to the Gulf of Alaska or the North 
Atlantic Ocean.
    The Chairman. Sorry, Senator Peters.
    [Laughter.]
    The Chairman. But I concur with your fellow Spartan.
    Dr. Jones. The upside of them being puddles is that they 
are microcosms relative to the marine environment, where we can 
really understand these interactions in ways that are very, 
very elusive to understand in these large oceanic systems.
    So I think that the science that we have over the last 50 
years developed in the Great Lakes has a lot to say about 
informing questions that we should be asking in ecosystems.
    Senator Peters. Good. Thank you. My time is running down.
    I have a vote coming up, so I will defer to make sure our 
other Committee members have questions.
    The Chairman. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    I thank the panelists and thank you for your support of 
Magnuson-Stevens.
    I think the verdict after decades is clear that good 
management of fisheries produces the greatest results. I think 
what we have to ask ourselves is, ``What do we need to keep 
doing and what else can we do?'' Clearly, using science is 
very, very important. Stock assessments would go a long way in 
making sure that we are measured in our approach.
    I am glad to see that the management strategy that started 
in the Pacific Northwest has at least made it to the bottom of 
the continental United States to Texas. I hope that we can keep 
moving up the coast in the future.
    I wanted to ask you about something, Dr. Hilborn. It is 
hard to think about the good aspects of Magnuson-Stevens and 
its management strategies when, at the same time, some people 
are proposing something as crazy as mining in Bristol Bay. This 
would affect the headwaters of a very large salmon stock and 
the most productive wild Pacific salmon fishery on Earth.
    Do you have thoughts on the proposed Pebble Mine?
    Dr. Hilborn. Yes. At the University of Washington, we have 
a program that has been researching the salmon populations of 
Bristol Bay since 1946 and I have been working there for the 
last 22 years.
    It is the most productive salmon fishery in the world, in 
terms of value. You could not have designed a better habitat 
because it is essentially a giant gravel bed that is just 
perfect spawning habitat for salmon.
    The idea that you can actually build reservoirs that 
contain highly toxic chemicals and hold them forever--forever--
in a seismic and volcanic zone is just crazy.
    We have one of the most valuable natural resources in the 
United States that has been sustained for a long time and is, 
in fact, at record abundance. A big goldmine, or a big mine, in 
the middle of all of that is a serious threat to the 
sustainability of that resource.
    Senator Cantwell. Well, thank you for those comments.
    I will note that our former Chairman from Alaska, the late 
Ted Stevens, also had doubts about this. I do not think that we 
can be too aggressive in saying that this is a very, very bad 
idea. It would basically devastate Magnuson-Stevens. Why do it 
if it will devastate the salmon runs?
    Mr. Haflinger, what about our continued focus on science? 
How important do you think it is to maintain scientific 
investment in order to keep our maritime and seafood economy?
    Washington has a $30 billion maritime economy; 60 percent 
of it is tied to the seafood industry. So we do not take this 
issue lightly when somebody says they want to cut any funding 
for science.
    Mr. Haflinger. Mr. Chairman, Senator Cantwell, that one is 
just too easy.
    All of my constituents or my clients that are involved in 
the North Pacific and the West Coast fisheries are very strong 
advocates of the process that the councils go through to 
establish catch limits. And we have had, we have gone through 
times where our TACs had been less than we had liked.
    I mean, back in 2010, I believe, we had pollock TACs (Total 
Allowable Catch) that were under a million tons for the first 
time in 45 years and it was a wake up call. We have had Pacific 
whiting TACs that have been very low. We have had constraining 
species rockfish TACs that were low.
    But I do not think anybody has ever questioned the need, I 
mean, ever even thought that what you would do is back off on 
science.
    Senator Cantwell. Well, apparently, there are some that 
think that way. I actually think we should be going in the 
opposite direction. I am so proud of what the North Pacific 
Fisheries Management Council has done. We have made progress.
    When I first came here and started voicing those opinions, 
I would get little hate e-mails from various northeast parts of 
the country. They would say, ``No, no.''
    But eventually, we are going to have a food shortage around 
the globe. We should be exporting our ideas on fisheries 
management instead of letting people into our fisheries to 
steal our fish. And we should be forcing those countries to 
implement better fishery management policies.
    So anyway, I could not be more proud of what we have been 
able to accomplish and hopefully the next chapter will see even 
more investment in science and a stopping of bad ideas.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Dr. McKinney, you chaired the Working Group 
on Saltwater Recreational Fisheries Management of the Morris-
Deal Commission. The working group came forward with a number 
of recommendations.
    I have a little bill called the Modernizing Recreational 
Fisheries Management Act of 2017 and I have nine cosponsors in 
the Senate. Representative Gary Graves in the House, has 
introduced a similar bill with 23 cosponsors.
    If enacted, the bill would allow for alternative management 
tools for recreational fisheries. It reexamines fisheries 
allocations, provides flexibility in rebuilding fish stocks, 
and improves recreational data collection.
    How does this compare to the recommendations of your 
working group and what do you think of my bill?
    Dr. McKinney. Well, on behalf of my Commission, we would 
like to thank you for obviously taking a look at our 
recommendations in the Commission Report because they did 
include many, if not all of those. And so, we appreciate that.
    It measures up quite well and I think it addresses those 
issues that we would hope to see addressed in Magnuson, so.
    Senator Wicker. How would it help?
    Dr. McKinney. Well, as I tried to provide in my testimony, 
in every one of those areas of looking at timelines, 
cooperative management, and every one of the recommendations we 
made in that Commission Report, it addresses each one of those, 
essentially.
    Senator Wicker. OK. I must say, we have had to come and go, 
and I did miss your testimony. So thank you for touching on 
that.
    Dr. McKinney. Yes, sir.
    Senator Wicker. I will go back and be advised by your oral 
testimony.
    Dr. Hilborn, let us talk about Gulf menhaden as an 
important forage fish down around where I come from.
    They are embroiled in the debate over whether to enact one-
size-fits-all restrictions on forage fishing or whether to go 
on a case-by-case basis.
    Are you familiar with the menhaden issue with the forage 
fish issue? Can you help us decide where to come down on this 
issue?
    Dr. Hilborn. Yes, I would be happy to.
    I have been leading a study group looking at the impacts of 
fishing forage fish on their predators for the last about 2 
years now, with a number of my colleagues, who were not working 
formally with us, but working on similar fisheries.
    What we have really shown is that every system is 
different. That in some systems there is really very little 
impact to fishing forage fish on their predators. We suspect 
that in other systems, it is much stronger, but so far we have 
not gotten to those systems yet.
    We have looked at the California current system. I have 
looked at the Atlantic menhaden. I have not looked specifically 
at Gulf menhaden, except insofar as we have looked if there is 
an empirical relationship between the abundance of the forage 
fish and the rates of change--that is, whether they increase or 
decrease--of the predators for pretty well all U.S. forage fish 
fisheries.
    We found no empirical evidence to support the idea that 
abundance of forage fish affects their predators. Largely, we 
suspect, because most of the predators are reasonably 
generalists and if their forage fish species is in low 
abundance, they switch to something else.
    Senator Wicker. So a one-size-fits-all rule of thumb on 
forage fish, we can do better than that. Is that your 
testimony?
    Dr. Hilborn. Yes. That all you need to do is sit down, and 
take the biology of the forage fish and the predators, and put 
those into some reasonably simple population dynamics, or 
ecosystem dynamics models, that allow for the important 
biology, particularly the natural variability of forage fish.
    You can do better than one-size-fits-all.
    Senator Wicker. Dr. Jones, let me ask you briefly.
    Are you familiar at all with our Mississippi Tails `N' 
Scales electronic reporting system for red snapper? Would you 
comment about the accuracy of state by state reporting of this 
type coming from anglers?
    Dr. Jones. I am afraid I am not familiar with that.
    Senator Wicker. Let me tell you about the concept.
    They have an application and they can provide fish data to 
the fisheries agencies. They have developed applications on 
their smart phones to provide information that would be helpful 
in creating policy.
    And so, although we call it Tails 'N' Scales, perhaps you 
are familiar with it as a concept elsewhere.
    Dr. Jones. Yes, thank you.
    So what we are talking about is this, what do I want to 
say, exploding opportunity to use mobile, social networking 
types of technology to inform assessments, inform the 
assessment of catches, of exploitation rates, and so on, and so 
forth.
    I guess my opinion on that, as a scientist, is that it is a 
wonderful thing, but it is going to take us a while to figure 
out how to do it, how to use that information in a way that is 
more informative than misleading because of the challenges of 
quality control on the data.
    I see great promise in that. I think we should invest in 
learning how to use resource users to provide us with 
information on the fisheries they are exploiting in ways that 
we can use to then inform our assessments and our evaluation of 
status.
    But I do not think it is a silver bullet right now.
    Senator Wicker. Well, our people like it. There has to be a 
use for data supplied by the people who want to help and who 
are out there.
    Thank you for thinking with me about that for a few 
moments.
    Thank you, Mr. Chairman.
    The Chairman. Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman.
    And thank you for having this hearing, the third in a 
series on a very, very important topic. Many of the issues that 
I have raised in previous hearings are still outstanding.
    The United States still imports 90 percent of the fish we 
eat. That is absolutely astonishing and appalling.
    The Seafood Import Monitoring Program is a Federal program 
overseen by NOAA that establishes reporting and recordkeeping 
requirements for certain kinds of fish, but it applies only to 
13 species.
    I have raised these issues already with Secretary Wilbur 
Ross, but without any actionable response, as they say; without 
anything done about it.
    They fly in the face of science and facts, which are your 
responsibility.
    Human trafficking continues to be a problem in the seafood 
industry. I know it is not a matter of fish catches or fish 
population, but it afflicts the industry and it is a cancer on 
the humanitarian backbone of the industry.
    Among other problems that I see--literally almost every day 
in Connecticut, either in the news or directly when I hear from 
fishermen--is the imbalance that has occurred in our fishing 
quotas; the imbalance and the distortions.
    Say whatever you will about the cause of fish moving, as in 
many other parts of the country, certain of our species have 
moved away and others have moved into our waters, but the 
quotas remain the same.
    This quota system is Byzantine, outdated. It has failed to 
adapt to the movement of fish stocks like black sea bass, 
summer flounder, and scup.
    It effectively bars Connecticut fishermen from catching 
economically sustainable quantities of fish. Instead, it 
requires them to throw back fish. They go to waste. They are 
inedible. When they haul a larger catch than their permissible 
quota, which happens often, it is a waste of precious 
resources.
    I have raised this issue at numerous, previous hearings. So 
have my colleagues.
    The law governing the management of fisheries requires the 
Department of Commerce to ensure fishery management plans 
adhere to several national standards, and I am quoting, ``the 
best scientific information available,'' in deciding catch 
limits.
    So my question to you is, each of you, do you believe that 
the councils are using, quote, ``the best scientific 
information,'' in determining the quotas and the system?
    [No response.]
    Senator Blumenthal. I will take by your silence that you 
say, ``No, they are not.''
    [Laughter.]
    Senator Blumenthal. I think that is fairly self-evident, 
but I would love to hear your explanation.
    Mr. Haflinger. Mr. Chairman, Senator, my experience with 
the North Pacific and the West Coast council is that they do.
    I think what you are talking about is a problem that is 
especially in the movement of fish and quotas, it is a big 
issue in other places in the world too. It is a huge problem 
throughout the EU. It is monstrous. It is very large.
    But that is a symptom of a brittle management system rather 
than whether or not the Councils are using the best available 
science, in my view. I do not want to indict the Council in 
your region, because I do not go to their meetings at all.
    But if you do have a system that is not flexible enough, 
then you have problems because fish do move.
    Senator Blumenthal. You have problems because they cannot 
take advantage of new data as quickly as the data is available.
    Correct?
    That is what you mean when you say it is not flexible 
enough.
    Mr. Haflinger. Well, no. That is not really what I meant. I 
guess I was thinking that if allocations are relatively 
inflexible and cannot----
    Senator Blumenthal. I am not looking to blame anyone with 
my question right now. I am just asking whether these quotas--
and maybe it is the system, maybe it is the councils--reflect 
the best scientific information available?
    You are saying it is not flexible enough. That may be the 
reason that the system does not respond to new information.
    Mr. Haflinger. I am saying that is a possibility. I mean, 
that is what we have seen in other places in the world that the 
systems need to be flexible.
    Senator Blumenthal. You have seen it in other parts of the 
world?
    Mr. Haflinger. Yes, like I said, it is a huge problem.
    Senator Blumenthal. All over?
    Mr. Haflinger. Throughout the EU.
    Senator Blumenthal. All over the world.
    Mr. Haflinger. Well, I said other places in the world.
    Senator Blumenthal. Well, so it is likely to occur in the 
United States too?
    Mr. Haflinger. I suspect it could. Sure.
    Senator Blumenthal. Does anyone want to be a little more 
unequivocal here?
    Yes, sir.
    Dr. Hilborn. I would be happy to talk on this.
    The basic theory of fisheries population dynamics, that is 
more or less how our quotas are set, has traditionally been 
based on the assumption that things are not changing in time. 
That is, you have a long-term average productive relationship 
between the population and its productivity.
    What many of us have identified over the last 20 years is 
that the natural systems fluctuate enormously and you do see 
systematic change in things like distributions.
    Productivities of many of our stocks in New England appear 
to be going down. I know it is true in some Canadian stocks 
where as the temperatures have gotten warmer, the stocks have 
gotten less productive. The science community is struggling----
    Well, first, it is often difficult to identify the changes 
as they are occurring. We can determine it in retrospect, but 
certainly within the U.S., we are short of scientific capacity 
to analyze those things and deal with it. The NOAA stock 
assessment scientists are struggling just to do the 
assessments.
    What would really be required is a lot more time or 
resources of people to start really trying to do, as Mike Jones 
suggested, Management Strategy Evaluation for how you would 
manage resources that are changing; either changing in their 
distribution or changing in their productivity.
    I would say that if there were more resources, we could do 
better science. But what I would say they are doing is the best 
science that they can do with the resources they have.
    Senator Blumenthal. Well, I appreciate that comment, which 
I will take as a plea for additional resources, which I 
wholeheartedly support.
    In fact, as you know, the budget that has been sent to us 
by President Trump cuts resources for exactly this kind of 
research and, in fact, it slashes funding for programs like Sea 
Grant, and the Milford Lab in Milford, Connecticut for the 
University of Connecticut. These research efforts are essential 
to grow new forms of agriculture and keep track of fish 
populations.
    At the last meeting of this Committee, we approved a bill 
that will help support driverless cars; a technology that many 
of us, who voted for the bill, find somewhat apprehensive, but 
certainly very much in the future.
    If we can put a man on the Moon and put people into 
driverless cars, I respectfully submit, we can actually produce 
better scientific information.
    It may not be the fault of the Councils. It may be the 
fault of the system, but it is destroying an American industry. 
We are complicit in destroying an American industry if we fail 
to fund the research that enables the law and the Councils to 
keep pace with the effects of climate change, which we know is 
there.
    Thank you, Mr. Chairman.
    The Chairman. Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, so much for having 
us here.
    I heard the introduction of Senator Peters and it is good 
to have somebody here from MSU working on MSA, I thought.
    [Laughter.]
    Senator Markey. As I was listening to your opening 
statement and how we can actually use, complementing your other 
work in this Committee, autonomous monitoring, to accompany 
your autonomous vehicle legislation that you are moving as 
well.
    The reality is that Massachusetts has been leading advances 
in fishery sciences at many of our prestigious institutions 
including the Northeast Fisheries Science Center at Woods Hole, 
the University of Massachusetts Dartmouth School for Marine 
Science and Technology funded, in part, by NOAA grants.
    Professor Kevin Stokesbury, at the University of 
Massachusetts Dartmouth, has led very successful collaborative 
research doing sea scallop stock assessments using video 
surveys. This research is facilitated by a Fishermen Steering 
Committee made up of fishermen, owners, and processors that 
meets monthly to discuss management issues, the needs and 
concerns of the industry, and current research.
    Mr. Haflinger, good science is fundamental to ensuring that 
sustainable fisheries can be managed under the Magnuson-Stevens 
Act.
    How can we continue these collaborative research projects 
and the development of new technologies to keep getting better 
science?
    Mr. Haflinger. Mr. Chairman, Senator, thank you for the 
question.
    I wholeheartedly agree with you that collaborative, 
scientific work is tremendously important. There is a lot of it 
that has been done in the fisheries in Alaska that I am 
familiar with, especially in areas of development that is 
similar to what you are referencing in the scallop fishery off 
Massachusetts.
    I am not exactly sure how to continue to expand this, but I 
feel like anything the Committee can do in MSA to encourage 
cooperative research between industry and NOAA fisheries is 
tremendously important and something that I am sure that all 
fishermen in the regions that I am familiar with would agree 
with.
    Senator Markey. Great. Thank you.
    When you live on the coast, and even reflecting upon what 
Dr. Hilborn said in his testimony, that we have never had more 
fish in the ocean at this particular point in time.
    Is that correct, Dr. Hilborn?
    Dr. Hilborn. No, I said, we have been increasing since the 
1990s. We have more fish than 20 years ago.
    Senator Markey. I misunderstood. I thought you said that we 
had more fish.
    Dr. Hilborn. No, not more than ever. No.
    Senator Markey. The United States, not withstanding how 
many we have, we do import over 80 percent of the seafood which 
we eat, and this seafood largely comes from countries that do 
not have laws like we do in the United States that create 
sustainably managed fisheries.
    And while many Americans understand that they can support 
local sustainable fisheries by buying from American fishermen, 
it can sometimes be impossible for consumers to find out where 
their fish is caught and processed.
    Senator Wicker and I worked with the previous 
Administration to address this issue by establishing the NOAA 
Seafood Import Monitoring Program. This program is laying the 
groundwork to ensure transparency and traceability for seafood 
products in the American marketplace, but this information is 
not yet accessible to consumers through any sort of labeling.
    Dr. McKinney, based on your work as the Executive Director 
for the Harte Research Institute at Texas A&M, how can we 
expand upon this new monitoring program so that more Americans 
know where their fish is coming from and can enjoy wholesome, 
sustainable seafood from American waters?
    Dr. McKinney. Thank you for the question, Senator. I 
appreciate the opportunity to address it.
    What we found, certainly, in the Gulf--and this is an 
important issue there about recognizing where our seafood comes 
from--and what we find, I think, is an informed consumer is a 
good one; the type that we are looking for. And anything you 
can give them of that information, they will make good 
decisions.
    So certainly, any time we can provide information on the 
source of our seafood and its quality is going to be of benefit 
to some people in the country, but also to our own commercial 
and recreational fisheries, but our commercial fisheries for 
sure.
    Because, as Dr. Hilborn noted and other members did too, we 
have a very high standard of how we capture and manage those 
fisheries.
    Senator Markey. Would you expand the Gulf Wild Program, 
which is a very successful program in the Gulf of Mexico?
    Dr. McKinney. Yes, sir. And I wish that I had some part of 
its origin, but I did not, but we certainly benefit from that, 
and that is exactly that type of program.
    In that you see, it gives the opportunity for our citizens 
to identify seafood that is taken in the Gulf of Mexico, be it 
shrimp or whatever, and know that it was not farm-raised, but 
it is wild caught and have confidence in that, and then, it 
also supports the Gulf. And so from every aspect, it has been 
tremendously beneficial.
    Senator Markey. Thank you.
    May I ask one more question?
    The Chairman. Sure.
    Senator Markey. Thank you.
    Fishery management councils understand the effects that 
climate change is having on their fisheries and are starting to 
include climate change considerations in their management 
plans.
    Oceans are absorbing more than 90 percent of the excess 
heat trapped by greenhouse gas emissions. These rising 
temperatures change stock distribution, abundance, and catch.
    For example, butterfish, which are caught off the coast of 
Massachusetts and the mid Atlantic region, are very temperature 
dependent and shift their distribution in response to changing 
bottom water temperatures.
    By doing collaborative science with academics, fishermen, 
and regulators NOAA used water temperature data to set catch 
limits for butterfish in 2014.
    Dr. Jones, how can increase the use of this sort of science 
that allows regulators to consider the impacts that climate 
change is having on our fish stocks?
    Dr. Jones. Thank you for the question, Senator.
    I think the most important thing to do is to begin by 
asking the question, framing the questions about management of 
a particular fishery or fish stock in terms of, if you will, 
hypotheses about how environmental change might alter your 
perspective on the productivity of that stock, or might alter, 
as a previous question alluded to, the distribution of the 
population.
    If you ignore those factors, you are going to erroneously 
develop catch limits, or other management strategies, that are 
based on the state of those fisheries in the past, not the 
state of those fisheries in the future.
    So I think there is a really important role for this sort 
of partnership between those of us, like myself and Dr. 
Hilborn, who do work on population dynamics and projecting fish 
dynamics into the future, and the scientists who have a better 
understanding of this sort of ecosystem processes that 
ultimately affect fish movement, and fish growth rates, and so 
on, and so forth.
    I think that we could do a lot more using methods like the 
Management Strategy Evaluation modeling techniques that I 
referred to in my testimony to move the yardsticks on that a 
lot.
    Senator Markey. Yes, I think that, obviously, the science 
is changing very rapidly in climate. I think probably the 
Arctic and the Gulf of Maine are the two fastest warming bodies 
of water on the planet.
    So there are profound implications for the fishing stock 
because of that and because we are warming so rapidly in the 
Gulf of Maine that we just need the science to be there to help 
us to understand it.
    So we thank you all for your wisdom.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    We are going to wrap it up here in a minute, gentleman. 
Senator Peters has another follow-up. I have a few, if I can 
get them in. We have a vote that has already kicked in, so we 
might have to finish up a little bit early.
    But again, thank you. Very, very informative testimony.
    Senator Peters. I will be brief because of the nature of 
this.
    Dr. Jones, we have heard, I have already heard from all of 
you about the importance of science in using the best science. 
Currently, the Magnuson-Stevens Act requires that all of these 
decisions are based on best science.
    But as has been alluded to by some of the other 
questioners, science is changing. There is emerging science and 
the guidelines under MSA ask that decisions use a standard 
encouraging both science from many sources, including both 
established and emerging science. Emerging science is emerging 
very rapidly.
    What are some of the considerations that are important when 
we are using established science versus newer, emerging 
science?
    Dr. Jones, a brief answer. I know it is a big question, but 
a brief answer would be helpful.
    Dr. Jones. The brief answer would be it is hard.
    A slightly less brief answer would be that it is all about 
the partnerships between the science that has very helpfully 
informed our management of fish stocks, both in the Great Lakes 
and in the oceans in the past with these emerging technologies.
    An example that is very prominent in the Great Lakes right 
now is the acoustic telemetry network that we are establishing 
there called GLATOS, Great Lakes Acoustic Telemetry Observing 
System. There are similar infrastructures being put in place on 
the two coasts.
    The potential for that science to improve our understanding 
of things like fish stock movements in ways that can make for 
better models to inform management in the future is really only 
constrained by being clever about how you think about the use 
of those technologies; to ask the right questions about fish 
dynamics and fish movement.
    Senator Peters. Great. Thank you.
    The Chairman. I am going to ask one final question. I am 
going to combine two for Mr. Haflinger and Dr. McKinney.
    One of the purposes of the hearing is looking at innovative 
programs, innovative technologies, and efficiencies. Both of 
you have been involved with different programs. Dr. McKinney, 
the iSnapper application, which I think was something Senator 
Wicker was talking about; and Mr. Haflinger, the cooperative 
program that has been created in the Pacific Northwest, which 
you touched on during your opening statement.
    Both of these look like they are innovative, that they have 
been helpful ways in which to better manage with regard to 
technology and data, and instill best management practices.
    Can you just touch on these and maybe, if you think that 
there is a potential for broadening these kinds of innovations 
to other elements of the MSA? I would welcome your input or any 
of the other panelists on those kinds of innovations.
    Dr. McKinney. Thank you, Mr. Chairman.
    I do appreciate the opportunity to comment on iSnapper. For 
full disclosure, it was my Institute that developed that 
originally as an app, but there are others very similar to it.
    This gets back to your question, sir, about innovation and 
this type of thing. How can we make use of them?
    We have been working with iSnapper for many years and 
actually testing it out in conjunction with Texas Parks and 
Wildlife comparing it to the type of normal type of surveys 
that they take in seeing how they match up, and the prospect is 
looking really good, that they will match up.
    The way things move these days, we are always looking for 
these types of technologies. So anything we can do to get more 
information. Of course, it has to be as accurate as possible, 
because we are going to run it into the models and so forth 
that we use. So those things, I think, show great promise.
    Not only can we get good information and timely 
information, we can get that information from these anglers and 
fishermen as soon as they catch the fish, basically, because 
they get into it. It is amazing how much they want to help once 
they get these apps and go with them. And the younger people 
nowadays, it is really good with them.
    So they work wonderfully in that regard. Yes, sir.
    The Chairman. Great. Thank you.
    Mr. Haflinger.
    Mr. Haflinger. Briefly, I think that the fisheries 
information that we make available to our stakeholders is done 
in such a way that I am sure there is no other private systems 
like this on the planet that are as advanced.
    But we were able to do that really because we had the 
stakeholders who saw the need for it. And we had an agency that 
was willing to work with us to let us access the data that they 
were collecting from our stakeholders, so that we could 
turnaround and give them what they needed to do this.
    So you need three things: you need the stakeholders who 
have some vision; you need an agency that is willing to work 
for you; and it is good to have a programmer like me around 
occasionally.
    The Chairman. Good. That is a great way to wrap up this 
hearing.
    Thank you again, gentlemen. I think the witnesses have all 
done an outstanding job.
    The hearing record will remain open for two weeks. During 
this time, the Senators may submit additional questions for the 
record to all of you.
    Upon receipt, we respectfully ask that the witnesses submit 
their written answers back to the Committee as soon as 
possible.
    I, again, want to thank everybody for traveling here today 
and testifying; very, very helpful for all of us.
    This hearing is now adjourned.
    [Whereupon, at 3:50 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                            Dr. Ray Hilborn
    Question 1. Last month some researchers who purport to understand 
seafood sustainability published a paper concluding that up to 22 
percent of Pollock caught in Alaska waters is caught illegally. Earlier 
this month, NOAA Fisheries called for the paper's full retraction 
because of the paper's flawed methodology and reliance on completely 
anonymous sources. As a scientist who has studied Alaska fisheries for 
decades, what do you make of this paper and its accusations?
    Answer. I totally agree with NOAA and have investigated the methods 
used in detail. I along with 5 other well respected scientists have 
written the journal laying out a case that the paper is in fact 
fraudulent, not simply wrong, and suggest that this fraud meets the 
publishers standards for withdrawing of the paper. The key element in 
the fraud is the paper cites perhaps a dozen scientific papers as the 
source of information and none of these papers mentions IUU fishing, 
thus the authors try to make readers believe they have data on IUU from 
Alaskan fisheries when they have none, and the authors do not consider 
the enforcement system in Alaska in any way.

    Question 2. During this current reauthorization process we've heard 
testimony from commercial fishing industry witnesses who indicated we 
are not achieving optimum yield, and in many instances we are actually 
under harvesting healthy stocks to protect minor ones. What is your 
perspective on these issues?
    Answer. There is no question that this is true if the objective is 
to maximize yield. On average U.S. harvest rates are lower than would 
produce maximum biological yield. Now in some cases the ``under 
harvesting'' is due to markets, but in most cases is it precautionary 
management, either to protect smaller stocks that are at abundance 
below the target, or in cases like the 2 million ton cap in the Bering 
Sea, for a general form of ``ecosystem'' protection. We could certainly 
increase the yield from American fisheries. However, there are many 
interpretations of what ``optimum yield'' is and some of these that 
place considerable weight on maintaining high abundance of fish stocks 
can be considered a form of optimum yield.

    Question 3. Some stakeholders engaged in the MSA reform process are 
calling for drastic management measures designed to curtail the harvest 
and use of forage fish species. What is your view on this from a 
natural resource management perspective?
    Answer. There is a trade-off between the yield of forage fish, and 
the abundance of some of their predators in the ecosystem. The calls 
for drastically reducing forage fish harvest place great weight on the 
abundance or predators and have not looked in detail at the trade-offs. 
A recent paper by a large scientific team on the California Current 
showed there was very little impact of sardine and anchovy fishing on 
the predators of most concern, pelicans and sea lions. I have done 
analysis of the menhaden fishery in the Atlantic (this work as funded 
by the menhaden industry) and found very little impact.
    My conclusion is that for each major forage fish fishery a study 
should be done of the trade-off between forage fish harvest and the 
abundance of their predators, and the decision making body should 
decide what trade-off they find most acceptable.
    But environmental groups and decision makers must keep in mind that 
one of the benefits of forage fish harvest, is reduced reliance on 
crops and livestock, and it is very clear that the environmental costs 
of using forage fish as feed for aquaculture is much less than the 
environmental costs of growing additional crops, which comes primarily 
from destroying tropical rainforests.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Dr. Ray Hilborn
    Question 1. Limitations to Stock Assessments: Can you outline some 
of the major barriers to conducting more frequent stock assessments 
that you see and your suggestions on how to address those concerns?
    Answer. The major barrier is human resources--people trained in 
stock assessment. The key to this is increasing the pipeline of such 
training, and making the jobs within NOAA and other agencies less 
stressful to retain qualified staff. The NOAA/Seagrant program funding 
stock assessment training has been very successful at producing stock 
assessment scientists for NOAA but its scale is quite limited. A major 
expansion of this program would be the most significant step I can 
imagine.

    Question 2. Do you have suggestions on how NOAA should prioritize 
allocating limited funding?
    Answer. I suggest a triage system: We need to manage and assess our 
most important stocks, and importance can be measured by economic 
value, recreational value and conservation concern for ESA listed 
species. In all of our oceans we have hundreds of species, most of 
which make little contribution to benefits to the Nation and given 
limited resources, we are now, and must continue to largely ignore 
these species in our marine management. The inevitable consequence is 
that some will be overfished, but this will not have a major impact on 
the benefits the Nation receives from our oceans.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Dr. Ray Hilborn
    Question 1. Dr. Hilborn, I understand the University of Washington 
has a long standing research program studying Pacific salmon in Bristol 
Bay, Alaska. Bristol Bay is home to the most productive wild Pacific 
salmon fishery on earth. Bristol Bay salmon support 20,000 jobs in 
commercial and recreational fisheries, as well as support businesses 
like shipbuilders and restaurants. Despite the tremendous value of 
salmon fisheries in Bristol Bay, Administrator Pruitt is taking steps 
to undo commonsense Clean Water Act protections that were put in place 
to protect salmon from the proposed Pebble Mine.
    Do you believe there is a way to move forward with the Pebble Mine 
without the risk of pollution, salmon die offs, and loss of fishing 
jobs?
    Answer. Certainly there is no way to establish a large mine in the 
Bristol Bay watershed with the risk of all of those things happening. 
Although no specific proposals have been tabled, the idea that highly 
toxic waste can be stored forever without leaking is impossible--
forever is a very long time.

    Question 2. Dr. Hilborn, on October 23, numerous EPA scientists 
were prevented from presenting their research at an estuary conference 
in Rhode Island. Additionally, a CNN report two weeks ago found that 
EPA Administrator Scott Pruitt had not been briefed by scientists when 
he called for the removal of clean water protections in Bristol Bay. 
Instead, Administrator Pruitt made his decision based on a closed-door 
meeting with the CEO of a foreign mining company called the Pebble 
Limited Partnership, or the Pebble Mine. Putting a Canadian mine ahead 
of American fishing jobs and sound science is putting ``America 
Second'' not ``America First'' as our President has promised.
    Dr. Hilborn, as a scientist, are you concerned about reports that 
Federal scientists are not being allowed to do their jobs?
    Answer. Certainly this is a very serious concern.

    Question 3. What can we do to protect the role of science in 
Federal agencies?
    Answer. This is probably more a question for a lawyer than a 
scientist. We could have a ``scientist freedom of information act that 
says that government scientists may be allowed to express their 
scientific opinion without censorship by their superiors.
    Recently, the GAO released a study that found that climate change 
will cost American taxpayers more than a trillion dollars by 2039. The 
report reviewed Federal costs in response to extreme weather, decreased 
agricultural yields, and damage to public utilities and infrastructure. 
The report also identified the loss of habitat, fish and shellfish as a 
cost to taxpayers due to climate change. Oceans are on track to be 300 
percent more corrosive by the end of this century. Numerous studies 
show that ocean acidification is likely to impact species such as 
Dungeness crab, salmon, and other species. This is a jobs issue. 
Washington state's maritime economy is worth 30 billion dollars, sixty 
percent of which is tied to the seafood industry.

    Question 4. Dr. Hilborn, what is the state of the science on ocean 
acidification and its impact to seafood? While there is some research 
being done--is it enough to understand population level impacts?
    Answer. With respect to prediction of ocean acidification I believe 
the science is very certain--the chemistry is quite simple. With 
respect to its impact on seafood things are almost totally unknown. We 
do know some specific examples of what has happened (shellfish in 
Washington) but we don't really know how resilient various taxa are to 
acidification.

    Question 5. I introduced a bill with my colleague Senator Wicker 
that in part would address this issue. Our bill would require NOAA to 
determine which fisheries are most at risk from ocean acidification and 
direct NOAA to make targeted investments in research and monitoring for 
those at-risk fisheries. Would you support that approach?
    Answer. Yes

    Question 6. What more do we need to do to tackle this looming 
threat for our fishing industry?
    Answer. Obviously reducing carbon emissions is #1. There is 
absolutely no scientific uncertainty about this. Other than that there 
is little we can do to change what will happen to the marine ecosystem, 
but we could have serious reconsideration of how we structure our 
fishing industry to be more adaptive to whatever changes may occur. For 
instance if it turns out that pollock are very badly affected by 
acidification, but some other species pops up to take their place in 
the food chain, should we transfer harvest rights from pollock to the 
new species?
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                            Dr. Ray Hilborn
    Question 1. Fisheries Management Priorities: In your testimony, you 
mentioned a need for Congress to decide the relative importance of 
various objectives for fisheries management.
    What types of objectives do you envision Congress prioritizing? And 
what types of science and subsequently what types of management 
decisions would be necessary to make if those objectives were made into 
priorities?
    Answer. For our commercial fisheries the overall structure works 
very well to achieve the current objective which is to stop 
overfishing. However, if we wanted to maximize jobs, profit or food 
production we would have quite different scientific advice. Any mixture 
of those three objectives would almost certainly lead to policies that 
would allow some stocks in our mixed stock fisheries to remain in what 
is classified as an overfished state. Small fish stocks that have low 
overall productivity would be below the levels that would maximize 
their production. The little lost yield from those stocks would be more 
than compensated by increasing the yield of stocks that are currently 
not fully exploited.
    If Congress were to give guidance to the management councils on how 
to balance those objectives the science and management system would be 
able to respond and increase the production of jobs, food and profit. I 
suggest that Congress mandate an annual report to Congress on the 
potential for jobs, food and profit, and a score of how we are doing 
compared to the potential that we have from our marine resources.

    Question 2. Changing Environmental Conditions: In your written 
testimony, you list several threats to U.S. fish stocks including 
climate change, degraded habitat, invasive species, and pollution.
    In your opinion, what factors should management be considering and 
in what way should those factors be incorporated into fisheries 
management?
    Answer. The major problem is that NOAA and the councils have almost 
no control over those factors. The major habitat and pollution concerns 
are outside their control, and climate change and invasive species are 
largely outside anyone's control. So essentially I don't see that our 
management system as it is now constructed can respond. The first step 
would be close integration of terrestrial and coastal zone management 
of habitat and land based pollution, with the fisheries management 
system.

    Question 3. Bycatch: What could be done to resolve the issue of 
bycatch?
    Answer. In the places I know best these issues are largely under 
control. The regulations put in place have led to some dramatic 
reductions in by-catch by the industry, often on their own initiative 
in responding to by-catch limits. By-catch avoidance is almost always a 
technical problem, and new technologies in gear design have made some 
impressive advances and will likely continue to do so. I would see that 
within a decade or two, most trawl nets, for instance, would have 
cameras attached with real time detection of species and size that 
would allow ejection of non-targeted fish from the net.
    At present there is little funding for this work, and government, 
university and industry partnerships could advance this rapidly.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                           Dr. Larry McKinney
    Question 1. You discuss in your testimony that the conservation 
framework in MSA provides challenges for recreational fishing, but 
works well for the commercial industry. How do we balance the 
significant conservation gains achieved during the last reauthorization 
while allowing for responsible access to a fishery for multiple user 
groups?
    Answer. What we now know as the Magnuson-Stevens Fishery 
Conservation and Management Act (MSA) had its origins in the1976 form, 
the Fishery Conservation and Management Act, drafted by Senator Warren 
Magnuson. It most notably established the 200-mile exclusive economic 
zone, eliminating the overfishing threats of foreign fleets and 
regularizing fisheries management and regulation through the 
establishment of eight regional management councils. The Magnuson-
Stevens Fishery Conservation and Management Act of 1996 and 
reauthorization of 2006, secured the economic health and sustainability 
of our Nation's commercial fisheries.
    I believe the history congressional actions regarding the MSA is a 
wonderful example of how the reauthorization process should work and I 
am confident that it will continue to work in such a manner. I would 
hope that Congress does nothing that would diminish the conservation 
gains achieved during the last reauthorization, nor anything that allow 
responsible access to the fishery for multiple user groups. I do think 
that it is necessary to address issues related to recreational 
fisheries. We developed the recommendations of the Morris-Deal 
Commission 2014 report, A Vision for Managing America's Saltwater 
Recreational Fisheries, with just that concern, in mind. The 
recommendations, if adopted, will most certainly expand access while 
providing significantly more economic benefits and jobs and will do so 
without harm to what has been gained through previous iterations of the 
MSA.
    This reauthorization of Magnuson-Stevens must focus on recreational 
fisheries, the single largest component of our nations fisheries not 
yet addressed by our most important Federal fisheries management 
legislation. Securing the economic health and sustainability of the 
largest and most economically significant of all our fisheries sectors 
is achievable, if it provides for and encourages application of long 
established and successful science-based tools well known to fisheries 
managers and scientists. I would provide the following as an example of 
how Morris-Deal recommendations maintains that balance between 
conservation and access.
    Magnuson-Stevens, in its current form, makes it almost impossible 
for Federal resource managers to use the very effective and well-
established science-based tools that state fisheries managers have 
developed and successfully used to restore species like Red Drum and 
Spotted Seatrout, taking those species from overfished to economic 
powerhouses generating billions of dollars in economic benefit and 
thousands of jobs.
    Restoration of these species and the economic benefits that were 
sustained during those recoveries would not be possible under the 
existing Magnuson-Stevens legislation. The MSA requires stock 
rebuilding within very specific timelines, regardless of circumstances, 
either science-or economic-based. In its 2014 report--Evaluating the 
Effectiveness of Fish Stock Rebuilding Plans in the United States--the 
National Research Council found rebuilding plans based on monitoring 
and controlling fishing levels, rather than on requiring that fish 
populations recover to a pre-specified target size within a certain 
time-frame would be less disruptive to the fisheries and less subject 
to uncertainty. This was just one of many recommendations that would 
greatly benefit recreational fisheries management, if the MSA allowed 
for it.
    That Magnuson-Stevens must be modernized is illustrated by the 
current state of the red snapper fishery management in the Gulf of 
Mexico. While that iconic species has been the headline, similar 
management issues regarding Grey Triggerfish and Amberjack are no less 
problematic. That Federal managers have neither the tools, nor the 
basic information, to work effectively with state partners and 
provisions of the MSA are an often-cited impediment.
    The angling public sees the failure every day they are on the water 
when they cannot get past swarming red snapper to catch other species, 
which they must because that season is closed most of the year. Charter 
captains cannot effectively manage their business when the amberjack 
season closes by e-mail notification, on a seemingly random day with 
very little notice.
    The solution is not rocket science; it is not even difficult 
fisheries science. We currently have the tools and knowledge to improve 
management for these species but are constrained by a Federal fisheries 
management act that was developed for commercial fisheries based on 
biomass extraction and not with a goal of providing access--what 
recreational fisheries need. This, of course, does not mean that for 
commercial species biomass extraction is not appropriate. Changes to 
the MSA to address this recreational issue would simply make it clear 
that a broader range of goals exists beyond biomass extraction and they 
are of equal value to the Nation.

    Question 2. One of the greatest challenges facing recreational 
fishermen is inconsistent data and stock monitoring. How do we improve 
the real time stock data to ensure we have as good a picture as 
possible of the available fishery?
    Answer. This question directly addresses a fundamental issue for 
successful management of recreational fisheries under Federal 
management. It is probably not a coincidence that the regions facing 
the most controversial fisheries management (e.g., the Gulf and South 
Atlantic Regions) are also characterized by having the fewest and most 
infrequent stock assessments. The differences among production of the 
regions in terms of stock assessment is quite striking. The Fish 
Assessment Report--FY 2017 Quarter 1 Update, is instructive in this 
regard. The Southeastern Fisheries Science Centers do lag significantly 
behind other centers in almost every regard as to completing 
assessments. I make no judgement as to why. Every region is different 
and faces differing constraints. I do think it worthy of close review 
by NOAA leadership.
    More frequent stock assessments, prioritized for high value 
species, is a critical need. An example being the iconic Red Snapper, 
but many others as well. The key is having timely and robust data. For 
Red Snapper, where the season has become progressively shorter to just 
a few days (3 days in 2017), our traditional data collection 
mechanisms, particularly in the recreational fishery, break down and 
become ineffective. There is wide consensus that the data collection 
program (i.e., MRIP--Marine Recreational Information Program and its 
predecessor program) is not adequate to meet manager's need. Please 
refer to citations of National Research Council reports referred to in 
my written testimony before the Committee on this issue. Their finding 
makes this same point and that has not been lost on NOAA and NMFS, who 
are taking actions to address these issues but progress is slow. I know 
there is a desire for more rapid progress but budget and staffing 
issues are a real constraint. Regardless, it is clear our current 
approach is not as robust as needed to deliver the most pertinent 
management advice. Managers find themselves constantly lacking timely 
and accurate data and this is greatly hindering effective management.
    There are solutions. Implementing these changes have been too slow, 
despite thoughtful guidance from the Councils in terms of approved 
amendments to the Secretary of Commerce and stakeholder desire (in most 
sectors) to change the management paradigm. One solution that could 
rapidly move toward reality is electronic real or near-real time data 
collection in the recreational sectors. The technology exists, such as 
iSnapper. As a point of full disclosure, iSnapper is an app developed 
by my institute's Center for Sportfish Science and Conservation. It 
would take a relatively short time to implement it, and similar 
technologies. Acting on these amendments and working toward more 
improved data collection methodologies are underway; however, the 
process is painfully slow with Federal bureaucracy a significant 
impediment. Because of those delays, I am concerned that we will see no 
real progress, for the next few years at least.
    Finally, the lack of robust abundance data (in addition to harvest 
or catch rate) is driving much of the uncertainty. What anglers see on 
the water is simply not reconciling with assessments. This has led to a 
lack of confidence and distrust of the process when anglers see the 
ocean teaming with red snapper to the point they can catch nothing 
else, yet have to deal with the reduction of a six-month season down to 
three days. Anglers can accept such management actions when they trust 
the process. Within the states, there are many examples where they have 
done just that. I provided some in my previous written testimony. I 
cannot provide such examples as readily for Federal fisheries and must 
make changing that a priority.
    Progress toward better abundance data is under way (http://
www.noaa.gov/media-release/scientific-team-selected-to-conduct-
independent-abundance-estimate-of-red-snapper-in). In an unprecedented 
study funded by Congress and implemented through NOAA Sea Grant College 
Program, a 2-yr study is now underway to generate an estimate of 
absolute abundance of Red Snapper in the Gulf of Mexico. We have 
currently been managing using indices of abundance, and having a true 
abundance estimate will not only inform management, but most 
importantly will open up new opportunities to implement more effective 
management strategies. This would be the value of programs like 
iSnapper that can generate data quickly and involve anglers in a 
positive way.
    One such strategy for private recreational anglers is moving toward 
a harvest rate management, and away from an Annual Catch Limit-based 
strategy (ACL) that is largely appropriate for allocation-based 
commercial fisheries, not recreational. An ACL system clearly does not 
work for access-based recreational fisheries. A management approach 
that targets a particular harvest rate (or mortality rate management) 
is much more appropriate and provides the access that recreational 
anglers need to promote the health and tremendous economic drivers 
these fisheries represent. It does take a robust and timely assessment 
process. We must make that a priority to make use of these more 
appropriate management tools. There is a history of conservation 
success across many management challenges using this approach. Joint 
Federal and state waterfowl management being the most prominent 
example.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                           Dr. Larry McKinney
    Question 1. Can you describe some successful strategies you've 
witnessed for engaging with the recreational angling community in order 
to build that trust and goodwill that you reference in your testimony 
in the case of Red Drum in Texas?
    Answer. Building trust and a positive relationship with the 
recreational angling community is a sustained process towards which 
resources, staff and funding, must be allocated. It does start by 
focusing on sustaining an accessible and abundant resource. Because of 
reasonable harvest rate-based management, science-based conservation 
strategies, and angler support of management, Texas is blessed with 
robust fisheries that afford virtually unlimited access to that 
resource. Interestingly, under these liberal accessibility regimes, 
fisheries populations in Texas are at some of the highest abundance 
ever. As I noted in my written testimony, saltwater anglers may even 
come to turn down the possibility of increased bag limits. Anglers 
certainly benefit from this type of management, as do the environment 
and coastal economies. This desirable state of the fishery did not 
occur by accident.
    While I was head of Coastal Fisheries at Texas Parks and Wildlife 
Department (TPWD) we established dedicated positions at key areas along 
the coast whose job was to be a liaison with the fisheries community, 
both commercial and recreational. Their primary focus was the latter 
because of the numbers of anglers and their economic impact to coastal 
Texas. These liaisons had many responsibilities. They held how-to 
clinics that always included conservation and management messaging. 
They always responded to any inquiry and were a ready source to explain 
new fishing techniques and new rules and regulations, with equal 
facility. They represented TPWD in community events so were a common 
and expected part of the community. Because they are part of a large 
and diverse agency they could call on expertise and assistance from 
game wardens, angler and boating education, wildlife experts, etc. They 
provide a direct conduit from anglers to management and the reverse.
    One important annual activity for TPWD that has been key in 
building trust and goodwill is the annual regulatory process. Each 
Spring Coastal Fisheries Biologists meet to review the status of fish 
stocks and the fishery in general. Any biologist may propose new rules 
or revisions of existing rules, like size and bag limits, even new 
activities or programs. It is an intense, peer review-type process and 
it can be rough on egos. Once agreed upon these new proposals go 
through a statewide process of regional meetings for public input. The 
public may also propose new rules or changes in existing rules. Each 
August anyone may come before the Texas Parks and Wildlife Commission, 
the nine-member decision-making body appointed by the Governor, and 
comment on or make direct appeal to the Commission. Once through that 
process final rules are proposed by agency staff and are subject to one 
last round of public review and input before the Commission, in a 
formal multi-step process. Final action is taken at the Commission's 
spring meeting. No one can reasonably complain they did not have a 
chance to be heard at every level of decision-making.
    Building trust and goodwill does not mean acquiescing to every 
public or angler demand. It is, in fact, just the opposite. TPWD's 
Coastal Fisheries Division dedicates significant resources to a robust 
data collection program. The potential impact of all regulatory 
proposals is evaluated against the data produced by the program. It is 
one of longest continual fisheries data collection programs still 
active. I summarized it in my written testimony:

        This program covered four million acres of Texas bays and out 
        to nine nautical miles offshore, with joint Federal management 
        out to two hundred nautical miles. There are currently 900,000 
        recreational anglers and 1,700 commercial fishers in Texas. 
        TPWD annually conducts 1,064 survey-days and interviews 
        approximately 19,000 trips, of which about 12,000 are 
        recreational in nature. Each year over 780 gill net sets, 1,680 
        bay trawls, 1,200 oyster dredges, 2,160 bag seines, 1,680 bay 
        trawls and 960 Gulf trawls were used to gather the fisheries 
        data. The forty-two years of continuous data collection is the 
        longest record of its kind in the world. [these numbers are 
        updated since written testimony, thanks to input from TPWD]

    All regulatory changes proposed by the Division are evaluated and 
modeled using the data from this monitoring program to predict impacts 
on fish stocks, etc. It includes both fisheries independent and 
fisheries dependent data. Because the monitoring program and resulting 
data are so robust, predictive modeling has proven to be very reliable. 
This has fostered credibility with the public and decision-makers, 
alike.
    It is the foundation of the regulatory process. Because it is a 
transparent process with the data widely and readily available, both 
the Commission and angling public have come to have confidence in 
predictions about impacts of proposed regulations. They may disagree 
with specific actions but because of the transparency of the process, 
they are more likely to accept the result, or if not, work in a 
cooperative fashion to revise those options. This detailed summary is 
important in fully understanding the two specific examples that follow.
Example One--Changing hearts and minds with data and hard facts. Yes, 
        it is possible.
    The TPWD biologist charged with management of the lower Texas coast 
presented data and analysis during the 2005 review process that spotted 
seatrout were moving towards an overfished status with both quality and 
numbers declining. His solution was to reduce bag limits in that region 
from ten fish daily to five. TPWD had never approved anything but 
statewide regulations and this would be the first regional regulation 
proposal--where the middle and upper coast would retain the ten-bag 
limit and lower coast a five-bag limit. The evidence was compelling and 
I agreed to send the proposal forward into the regulatory process I 
previously described. The proposal was strongly opposed by many 
anglers, including guide organizations and especially the Recreational 
Fishing Alliance (RFA). Others, like the Coastal Conservation 
Association (CCA) were supportive. The annual regulatory process was 
bitter. Political and personal threats abounded. TPWD biologists 
consistently presented the rationale for the proposal at every 
opportunity in the process. At the final decision-making meeting before 
the Commission, the state director of RFA stood before the Commission 
and stated that they were withdrawing their opposition because the TPWD 
biologist's arguments were compelling and they had nothing to counter 
them. Many guide organizations continued opposition. Regardless, the 
proposal was unanimously approved by the Commission. The modeled 
predictions proved to be accurate within the three years of predicted 
recovery.
    The fishery has rebounded to once again produce an abundant and 
trophy quality fishery. In 2014 the five-fish bag limit was extended 
northward to encompass the entire middle coast because of the same 
compelling reasons and with little opposition. It was broadly 
supported, especially from guide organizations, many which were most 
bitter in their original opposition.
    When you engage rather that dictate to recreational anglers, when 
you are transparent in process and open in information, recreational 
anglers will join you, putting conservation above maximizing fish 
extraction, every time.
Example Two--Why recreational anglers paid shrimpers and were happy to 
        do it.
    In my written testimony, I referred to a shrimp license buy-back 
program:

        The program also allowed for the successful implementation of a 
        [voluntary] commercial fishing license buy-back program. 
        Through the 2014 license year, $14.2 million was spent to 
        purchase and retire 2,145 commercial Bay and/or Bait Shrimp 
        Boat licenses. This represents 66 percent of the original 3,231 
        licenses grandfathered into the fishery in 1995. Additionally, 
        $1.8 million has been spent purchasing 63 Commercial Crab 
        Fisherman's licenses and 241 Commercial Finfish Fisherman's 
        licenses, retiring 22 percent and 44 percent of the licenses 
        respectively.

    The successful implementation of this program was possible only 
because of the support and trust of Texas recreational anglers. TPWD 
started the Shrimp License Buy-back Program because the inshore 
shrimping industry was successful lobbying the Texas Legislature in 
limiting the TPWD Commission's ability to directly address that 
industry's debilitating impacts on recreational fishing within Texas 
bays and estuaries. Industry bycatch ranged from four to more than ten 
pounds of bycatch per pound of shrimp trawled from the bottom. That 
bycatch included the young of recreationally important species of red 
drum, spotted seatrout, flounder, etc. Trawling routinely also 
disturbed bay bottom habitat and the clams, worms and other benthic, or 
bottom dwelling organism, that is a basic food web within Texas bays.
    Ecosystem impacts aside, the economic consequences of bay shrimping 
to the recreational fishery were severe. The simple arithmetic of 
comparing the economic impact of the inshore shrimp industry to the 
significantly more valuable recreational fishery was revealing and 
obvious. The inshore shrimp fishery was also detrimental to the larger 
and more sustainable offshore shrimping industry, so it was decided to 
propose a program to buy back inshore licenses to the point that the 
fishery could operate a much less impactful, yet for the fishery, a 
more sustainable level. A scenario, if properly executed would be a 
winner for all parties. The aspect of the program summarized above that 
is responsive to question about building trust and good will, is 
related to funding of the buy-back program.
    For the program to be successful, the Texas legislature would have 
to act to limit the purchase of new shrimping licenses. You cannot have 
a successful buy-back program, if new licenses could be purchased. That 
political process was successful because of the agencies credibility 
with the Texas Legislature and support of Texas anglers. This was 
possible because of the history of a transparent regulatory process 
where all stakeholders felt they were heard and their views considered. 
Coastal Fisheries staff could work with all parties, commercial and 
recreational; to craft a buy-back process because all parties agreed 
the data and analysis were credible. This allowed a focus on solutions 
rather than a debate about science and data. This unified front was 
appreciated by the Legislature, providing much needed political support 
and a successful result in creating a limited access shrimp fishery.
    It became obvious that the buy-back program after being underway 
for nearly two years, was working but was not adequately funded to meet 
either program goals or the demand by willing shrimpers to sell their 
license. The only viable option to generate the large sums of money 
needed to fuel the buy-back program at an accelerated pace was to ask 
our recreational anglers to pay for it. A seemingly counter-intuitive 
proposition, it was clearly the only path possible. Coastal Fisheries 
staff assembled the data, prepared analysis and developed the case to 
present to the Texas Parks and Wildlife Commission (TPWD's decision-
making body) and Texas saltwater anglers. Full use of the regulatory 
process described earlier, along with special workshops, helped inform 
and win over stakeholders.
    Many conservation organizations, led by the CCA, were joined by 
commercial organizations like the Texas Shrimp Association, in support 
of the proposal. A rare occasion of common cause. The result was that 
recreational anglers agreed to tax themselves an additional $3 per year 
to add to the existing $7 annual saltwater fishing stamp, if the 
addition was dedicated to the buyback program. They agreed because 
compelling evidence was presented and options were offered that 
included sunset review provisions and annual progress reporting.
    The buy-back funding newly invigorated with funding from 
recreational anglers and supplemented by many and significant private 
donations, met all goals and expectations. The program was subject to 
sunset review and subsequently approved to continue two times while I 
was Costal Fisheries Director and continues to this day. It has 
expanded to the crab and finfish commercial fisheries, routinely 
reducing commercial fishing impacts to the benefit of coastal 
ecosystems, coastal economies and saltwater anglers.

    Question 2. Can you outline some of the major barriers to 
conducting more frequent stock assessments that you see and your 
suggestions on how to address those concerns?
    Answer. It is probably not a coincidence that the regions facing 
the most controversial fisheries management (e.g., the Gulf and South 
Atlantic Regions) are also characterized by having the fewest and most 
infrequent stock assessments. The differences among production of the 
regions in terms of stock assessment is quite striking. The Fish 
Assessment Report--FY 2017 Quarter 1 Update, is instructive in this 
regard. The Southeastern Fisheries Science Centers do lag significantly 
behind other centers in almost every regard as to completing 
assessments. I make no judgement as to why. Every region is different 
and faces differing constraints. I do think it worthy of close review 
by NOAA leadership.
    The lack of up-to-date information is greatly hindering decision 
makers in the regions noted. These issues of infrequent and too few 
assessments are not new to management nor to the leadership in the 
Federal science centers that are responsible for producing them, but 
the problems persist and remain unresolved. The principal argument 
offered now is that Science Centers cannot retain enough qualified 
staff to carry out timely assessments and the stock assessments with 
which they are charged, are exceptionally difficult.
    There have been vocal and repeated recommendations to subcontract 
the workload to qualified groups. While the councils have encouraged 
delegations, it has occurred only on a very limited basis, and there 
appears to reluctance by the agency to pursue this most obvious of 
solutions, for unexplained reasons.
    In terms of complexities, one need to look no further than the Red 
Snapper assessment for the Gulf of Mexico. Most agree this assessment 
is the most complex document of its type for any federally managed 
species. There are many contributing factors that make this document 
overly cumbersome. It is over-parameterized (too many uncertain 
variables), making it insensitive for achieving its purpose of 
predicting outcomes. This forces managers to make decisions based on 
poor management advice. As such, assessments are not reflective of the 
actual population status nor responsive to regulatory changes. Thus, it 
is not surprising red snapper is seen by many as one of the most 
mismanaged of all Federal fisheries. Should the assessment workload and 
production situation be addressed, pressing problem like this might be 
solved.
    While I directed fisheries management in Texas I initiated efforts 
to move from species management to ecosystem based approaches. 
Freshwater inflows to estuaries being a key issue and I had studied 
this resource extensively over the years. The situation with stock 
assessment and management of red snapper reminds me of a statement by 
Texas Supreme Court Judge, Will Wilson, in 1955, when describing the 
management of groundwater.

        Because the existence, origin, movement and course of 
        [groundwater] and the causes which govern and direct their 
        movements, are so secret, occult and concealed that an attempt 
        to administer and set any legal rules in respect to them would 
        be involved in hopeless uncertainty, and would therefore be 
        practically impossible.

    Texas groundwater remains today as big a mess as the management of 
red snapper. The secret, occult and concealed nature of red snapper 
stock assessment has led many constituents to lose confidence in the 
entire stock assessment and management process. This is particularly 
the case when the differences between the assessment and what is 
observed on the water by anglers are quite striking. It is baffling to 
these anglers as to why they are forced to a three day, derby-like 
season when for remaining 362 days a year they cannot get a bait or 
lure past the legions of red snapper between them and all other 
saltwater fish, that are legal to catch and retain.
    My recommendations to address this issue would be:

  <bullet> First, subcontract much of this work as rapidly as possible.

  <bullet> Second, have independent experts evaluate the stock 
        assessment process to determine why the production is so low.

  <bullet> Third, I would recommend an evaluation by appropriate 
        experts as to why the agency cannot attract enough qualified 
        scientists or retain those currently in these positions and 
        help develop strategies to remedy any problems.

    I am particularly, sensitive the last issue about a shortage of 
trained biologists. In this, universities like my own share some 
responsibility. I chair an organization, the Gulf of Mexico University 
Research Collaborative (GOMURC). All the major Gulf universities with a 
fisheries interests is a member. A key concern for GOMURC is the 
declining number of students with this capability. We are actively 
exploring ways to work together to correct the problem. I am sure that 
GOMURC would work closely with both state and Federal fisheries 
managers in finding a solution.

    Question 3. Do you have suggestions on how NOAA should prioritize 
allocating limited funding?
    Answer. A key strategy to prioritizing limited funding would be to 
subcontract some of the scientific workload such as stock assessments 
and research. There are many programs within NOAA that have made great 
strides in this, such as the MARFIN, Saltonstall-Kennedy, and 
particularly the Cooperative Research Program. These programs have 
generated independent science of great use to the management process, 
fostering significant advances in managing our fisheries. These 
programs should remain at the top of the list for funding.
    NOAA should prioritize data collection. Many of the issue that 
persist are a result of uncertainly in the data that could be improved 
by having better and much more responsive recreational fisheries data.
    Funding work that reduces discard mortality (e.g., NOAA BREP 
program) help anglers and commercial fisher become better stewards of 
the resource at the ground level and increase season length as 
mortality rates are reduced.
    Better funding of Federal law enforcement and cooperative 
agreements with state counterparts could significantly reduce illegal 
take by Mexican fishermen, accelerating recovery and providing more 
management options. The amount of illegal and unreported catch by these 
fleets, particularly in South Texas, is astonishing and largely 
uncontrollable at the current level of significant illegal activity and 
minimal enforcement resources. An average of 32 illegal vessels are 
seized per year that retain over 700,000 lbs. of red snapper. Many 
other species are seized, as well. The U.S. Coast Guard estimates some 
1,006 of these vessels go undetected and uncaptured. Interestingly, 
these major removals of biomass are ``not detectable'' in the current 
assessment, further questioning the reliability of Federal data.
    Additionally, some of the funding for the Gulf-region could be 
directed toward the states, and this is particularly important for the 
controversial red snapper fishery. Regional management could a make 
significant and positive contribution. Gulf states are willing and have 
both the expertise and a positive track record, demonstrating their 
ability to take on such a challenge.
    A recent and welcome action by Congress will significantly improve 
stock assessments of red snapper. The announcement was made after my 
oral and written testimony before the Committee on October 24, 2017, so 
I could not make note of it at that time but it is the most significant 
and positive development in the recent history of red snapper 
management.
    In 2016, Congress directed the National Sea Grant College Program 
and NOAA Fisheries to fund independent red snapper data collections, 
surveys and assessments, including the use of tagging and advanced 
sampling technologies. Sea Grant and NOAA Fisheries worked 
collaboratively to transfer Federal funds to Mississippi-Alabama Sea 
Grant to administer the competitive research grant process and manage 
this independent abundance estimate. On November 17, 2017 That Sea 
Grant office announced that a team of university and government 
scientists, selected by an expert review panel convened by the 
Mississippi-Alabama Sea Grant Consortium, will conduct an independent 
study to estimate the number of red snapper in the U.S. waters of the 
Gulf of Mexico.
    The research team, made up of 21 scientists from 12 institutions of 
higher learning, a state agency and a Federal agency, was awarded $9.5 
million in Federal funds for the project through a competitive research 
grant process. With matching funds from the universities, the project 
will total $12 million. The project team will determine abundance and 
distribution of red snapper on artificial, natural and unknown bottom 
habitat across the northern Gulf of Mexico.
    The project is led by Dr. Greg Stunz, Endowed Chair for Fisheries 
and Ocean Health at the Harte Research Institute for Gulf of Mexico 
Studies, Texas A&M University--Corpus Christi. Dr. Stunz also directs 
HRI's Center for Sportfish Science and Conservation.
    Scientists on the team include:

  <bullet> Greg Stunz, Harte Research Institute for Gulf of Mexico 
        Studies, Texas A&M University--Corpus Christi

  <bullet> Will Patterson, University of Florida

  <bullet> Sean P. Powers, University of South Alabama, Dauphin Island 
        Sea Lab

  <bullet> James Cowan, Louisiana State University

  <bullet> Jay R. Rooker, Texas A&M University at Galveston

  <bullet> Robert Ahrens, University of Florida, Fisheries and Aquatic 
        Sciences

  <bullet> Kevin Boswell, Florida International University

  <bullet> Matthew Campbell, NOAA Fisheries (non-compensated 
        collaborator)

  <bullet> Matthew Catalano, Auburn University

  <bullet> Marcus Drymon, Mississippi State University

  <bullet> Brett Falterman, Louisiana Department of Wildlife and 
        Fisheries

  <bullet> John Hoenig, College of William and Mary, Virginia Institute 
        of Marine Science

  <bullet> Matthew Lauretta, NOAA Fisheries (non-compensated 
        collaborator)

  <bullet> Robert Leaf, University of Southern Mississippi

  <bullet> Vincent Lecours, University of Florida

  <bullet> Steven Murawski, University of South Florida

  <bullet> David Portnoy, Texas A&M University-Corpus Christi

  <bullet> Eric Saillant, University of Southern Mississippi

  <bullet> Lynne S. Stokes, Southern Methodist University

  <bullet> John Walter, NOAA Fisheries (non-compensated collaborator)

  <bullet> David Wells, Texas A&M University at Galveston

    As noted by Dr. Stunz in the press release announcing the study

        ``We've assembled some of the best red snapper scientists 
        around for this study,'' said Greg Stunz, the project leader 
        and a professor at the Harte Research Institute for Gulf of 
        Mexico Studies at Texas A&M University--Corpus Christi. ``The 
        team members assembled through this process are ready to 
        address this challenging research question. There are lots of 
        constituents who want an independent abundance estimate that 
        will be anxiously awaiting our findings.''

    Recreational anglers and commercial fishers will be invited to play 
a key role in collecting data by tagging fish, reporting tags and 
working directly with scientists onboard their vessels.
    ``The local knowledge fishermen bring to this process is very 
valuable and meaningfully informs our study,'' Stunz said.
    Some stakeholder groups have expressed concerns that there are more 
red snapper in the Gulf than currently accounted for in the stock 
assessment. The team of scientists on this project will spend two years 
studying the issue.
    In addition to excerpts above, I included both the link and the 
actual press release in my response to questions. The release came 
almost two months after the issuance of the award letter; it was 
released on a Friday, November 17, 2017; and, on submission of this 
response to questions has not appeared on any NOAA website, other than 
that of Mississippi-Alabama Sea Grant, that I can discover. I thought 
it might be of interest to the Committee.
    The full press release is included as an attachment and may be 
found online at: http://masgc.org/news/article/scientific-team-
selected-to-conduct-independent-abundance-estimate-of-red-s
Scientific team selected to conduct independent abundance estimate of 
        red snapper in Gulf of Mexico
    A team of university and government scientists, selected by an 
expert review panel convened by the Mississippi-Alabama Sea Grant 
Consortium, will conduct an independent study to estimate the number of 
red snapper in the U.S. waters of the Gulf of Mexico.
    ``American communities across the Gulf of Mexico depend on their 
access to, as well as the long term sustainability of, red snapper,'' 
said Secretary of Commerce Wilbur Ross. ``I look forward to the 
insights this project will provide as we study and manage this valuable 
resource.''
    The research team, made up of 21 scientists from 12 institutions of 
higher learning, a state agency and a Federal agency, was awarded $9.5 
million in Federal funds for the project through a competitive research 
grant process. With matching funds from the universities, the project 
will total $12 million.
    ``We've assembled some of the best red snapper scientists around 
for this study,'' said Greg Stunz, the project leader and a professor 
at the Harte Research Institute for Gulf of Mexico Studies at Texas A&M 
University--Corpus Christi. ``The team members assembled through this 
process are ready to address this challenging research question. There 
are lots of constituents who want an independent abundance estimate 
that will be anxiously awaiting our findings.''
    Recreational anglers and commercial fishers will be invited to play 
a key role in collecting data by tagging fish, reporting tags and 
working directly with scientists onboard their vessels.
    ``The local knowledge fishermen bring to this process is very 
valuable and meaningfully informs our study,'' Stunz said.
    Some stakeholder groups have expressed concerns that there are more 
red snapper in the Gulf than currently accounted for in the stock 
assessment. The team of scientists on this project will spend two years 
studying the issue.
    In 2016, Congress directed the National Sea Grant College Program 
and NOAA Fisheries to fund independent red snapper data collections, 
surveys and assessments, including the use of tagging and advanced 
sampling technologies. Sea Grant and NOAA Fisheries worked 
collaboratively to transfer Federal funds to Mississippi-Alabama Sea 
Grant to administer the competitive research grant process and manage 
this independent abundance estimate.
    ``Today's announcement is welcome news for all red snapper anglers 
in the Gulf of Mexico,'' said Sen. Richard Shelby of Alabama. ``As 
Chairman of the U.S. Senate Appropriations Subcommittee on Commerce, 
Justice, Science, and Related Agencies, I was proud to author and 
secure Federal funding to address the need for better data, which is a 
fundamental issue plaguing the fishery. The management of red snapper 
must be grounded in sound science if we want to provide fair access and 
more days on the water for our anglers. It is my hope that these 
independent scientists will be able to accurately determine the 
abundance of red snapper in the Gulf of Mexico once and for all.''
    ``This research will be driven largely by university-based 
scientists with partners from state and Federal agencies.'' Stunz said. 
``This funding will allow us to do an abundance estimate using multiple 
sampling methods with a focus on advanced technologies and tagging for 
various habitat types.''
    ``I'm pleased to see that the independent estimate is moving 
forward and including the expertise of recreational fishermen,'' said 
Rep. John Culberson of Texas. ``I will continue to work with Texas 
fishermen and NOAA to address the inadequate access to red snapper.''
    The project team will determine abundance and distribution of red 
snapper on artificial, natural and unknown bottom habitat across the 
northern Gulf of Mexico.
    Scientists on the team include:

  <bullet> Greg Stunz, Harte Research Institute for Gulf of Mexico 
        Studies, Texas A&M University--Corpus Christi

  <bullet> Will Patterson, University of Florida

  <bullet> Sean P. Powers, University of South Alabama, Dauphin Island 
        Sea Lab

  <bullet> James Cowan, Louisiana State University

  <bullet> Jay R. Rooker, Texas A&M University at Galveston

  <bullet> Robert Ahrens, University of Florida, Fisheries and Aquatic 
        Sciences

  <bullet> Kevin Boswell, Florida International University

  <bullet> Matthew Campbell, NOAA Fisheries (non-compensated 
        collaborator)

  <bullet> Matthew Catalano, Auburn University

  <bullet> Marcus Drymon, Mississippi State University

  <bullet> Brett Falterman, Louisiana Department of Wildlife and 
        Fisheries

  <bullet> John Hoenig, College of William and Mary, Virginia Institute 
        of Marine Science

  <bullet> Matthew Lauretta, NOAA Fisheries (non-compensated 
        collaborator)

  <bullet> Robert Leaf, University of Southern Mississippi

  <bullet> Vincent Lecours, University of Florida

  <bullet> Steven Murawski, University of South Florida

  <bullet> David Portnoy, Texas A&M University--Corpus Christi

  <bullet> Eric Saillant, University of Southern Mississippi

  <bullet> Lynne S. Stokes, Southern Methodist University

  <bullet> John Walter, NOAA Fisheries (non-compensated collaborator)

  <bullet> David Wells, Texas A&M University at Galveston
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                           Dr. Larry McKinney
    Question 1. Dr. McKinney, at the hearing, you were asked about 
legislative efforts to actualize the Morris-Deal Report. One area of 
the Report that may warrant additional attention from Congress is 
improved management of forage fish fisheries that occur under the 
jurisdiction of the Magnuson-Stevens Act (i.e., in Federal waters).
    How do abundant forage fish populations contribute to healthy 
fisheries, both recreational or otherwise?
    Answer. Forage fish are lower trophic level species that at some 
life stage and most often at all life stages, is a significant food 
source for other fish, marine mammals and birds. Forage species are of 
importance to ecosystem function because they transfer energy through 
the system from lower trophic levels to higher levels. Forage fish most 
often feed near the base of the food web, often they are filter 
feeders, like menhaden. Other common and well-known forage species 
include sardines, shad and anchovies. When environmental conditions are 
favorable, they can be prolific spawners, reproducing quickly in huge 
numbers and rapidly growing to sexual maturity. Under such conditions, 
they may gather in very large schools, hence the attraction to 
predatory fish as an abundant and easily located food source.
    Forage fish are valuable, both in ecosystem function and as a food 
source for highly valued sportfish. The very traits that allow them to 
reproduce in huge numbers by quickly responding to favorable conditions 
can work against them, especially in temperate ecosystems such as most 
waters of the United States. Populations of these species also respond 
to unfavorable conditions like diminished or excessive freshwater 
inflows, hypoxia and shifting temperature regimes. These are examples 
of population drivers that can suppress population numbers. This is an 
evolved response common in ecosystems where widely changing conditions 
occur naturally. These ecosystems can be pushed beyond natural limits 
by man-made events like habitat loss, pollution, oil spills and water 
management. Forage species may respond accordingly. These often widely 
fluctuating population levels can, in turn, drive ecosystem stability 
and productivity because of their significant ecological role. Where 
anthropogenic actions add to extremes in natural cycles they can so 
stress the system that resilience is diminished or lost.
    Forage species are also subject to intense overfishing if they have 
a commercial value, because they concentrate in such large schools. 
Menhaden are an example. Spotting aircraft, high-speed net boats and 
immense purse seines can quickly and easily deplete these species over 
wide areas. When commercially over exploited this critical trophic 
driver can upset ecosystem function and significantly and negatively 
affect higher trophic levels, often species of great value to both 
recreational and commercial fisheries. Natural perturbations and 
overfishing, especially both in combination, can have cascading effects 
on higher trophic level species like valuable sportfish, the impact of 
which can echo through many years, with significant economic impact.
    Having healthy robust populations of forage fish is essential for 
production of more ecologically and economically desirable finfish 
populations, as well as, contributing to ecosystem stability and 
productivity. Science is just uncovering the full extent and dynamic 
role forage species play in the broader ecosystem. It is these types of 
linkages that we now recognize as fundamental to ecosystem health and 
productivity. It will require development of management frameworks 
focusing on ecosystem-based approaches, rather than a singles species 
management, to assure these species are not overexploited generating 
unintended and detrimental consequences on the ecosystem of which they 
are a part.

    Question 2. The Morris Deal Report urged that ``forage fish must be 
managed to provide enough food resources for healthy recreational fish 
species.'' Although some regional fishery management councils have 
taken significant steps toward this, as the Report indicates, ``very 
few forage fish are considered in fishery management plans, meaning 
that potential impacts on these critical components of the ecosystem 
are not considered or controlled.''
    In the context of changes to or a reauthorization of the Magnuson-
Stevens Act, what improvements should Congress consider helping move 
the ball forward on more comprehensive consideration of forage in 
management decisions?
    Answer. Forage species must be considered in fisheries management 
plans, either as individual species or in aggregate where several 
species are present, with the goal of preserving their role in 
ecosystem function and support of valuable higher trophic level fish, 
marine mammals and birds. Reauthorization of Magnuson Stevens should 
address this issue in a systematic and science-based approach. The 
first and fundamental requirement is to identify these species, their 
geographic range, condition and contribution to ecosystem health and 
productivity. During this assessment, no new direct fishery for any 
potential forage species should be permitted until their ecological 
functions are well understood. In the event of a proposal to develop a 
fishery for one of these forage species, subsequent to the review noted 
above and a regional fisheries council determination that it is 
allowable, an important determination must be made--what portion of the 
annual maximum sustained yield will be set aside in support of 
ecosystem function and maintaining valuable sportfish and other 
commercial fisheries. If a fishery is approved, there should be an 
annual evaluation to determine if that set aside is adequate to 
minimize ecosystem harm. An economic assessment should be part of this 
evaluation. Additionally, a mechanism to make those adjustments in a 
timely fashion should be required. There are models on which to 
construct this adaptive regulatory approach that recognize the 
practical difficulties of managing these species for both commercial 
exploitation and ecosystem function protection.
    In 2009, while Director of Coastal Fisheries for Texas Parks and 
Wildlife I oversaw creation of a process much as described above for 
menhaden in state waters. The result was a determination by the Texas 
Parks and Wildlife Commission that the harvest of menhaden in state 
waters should be capped to protect the remainder as a forage base, 
securing their contribution to sustaining economically important 
sportfish [Texas Administrative Code. Title 31. Part 2. Chapter 57. 
Section 995]. To minimize economic disruption for the existing 
commercial fishery the initial cap number was based on a ten-year 
average of annual harvest. Several adaptive regulatory methodologies 
allowed for accommodation of over and underfishing during each year.

    Question 3. The Commission on Saltwater Recreational Fisheries 
Management, which you chaired, published the ``Vision for Managing 
America's Saltwater Recreational Fisheries''. This document talks about 
the importance of abundance and stipulates that recreational anglers 
need a ``wide-ranging, dependable access to healthy and abundant 
fisheries.'' The Magnuson Stevens Act has been successful at creating 
more abundant fisheries, as 84 percent of stocks are no longer 
overfished and over 43 previously depleted stocks have been rebuilt. 
This is largely due to requirements to end overfishing immediately, 
rebuild depleted fish stocks within certain time parameters, and use of 
annual catch limits.
    If Congress loosens conservation requirements to allow overfishing, 
weaken rebuilding, and reduce fish abundance, how would that help 
recreational fishermen when abundance is so important to the angling 
experience?
    Answer. The Magnuson Stevens Act provided the necessary Federal 
framework to curb industrialized commercial fisheries from rampant 
overexploitation and protect our country from intrusions by foreign 
fishing fleets. The Act's history is a notable example of an adaptive 
legislative process that has focused on the key issue of the time, 
while being responsive to developing needs during subsequent 
reauthorization. It is my hope that the adaptive process continues 
during consideration of this reauthorization and that an important 
focus is given to the recreational fishery. As it stands now the Act is 
an impediment, rather than a benefit in establishing a workable Federal 
framework for recreational fisheries management in Federal waters. This 
is not a criticism of the Act, which has served our country well, as 
noted earlier. It is a request to continue the exemplary adaptive 
legislative process that has so far characterized the Magnuson-Stevens 
Act and move forward to appropriately address recreational fisheries.
    Recreational fisheries, the most economically important of all 
fisheries in our country, should not be confused with commercial 
fisheries in either structure or the legislative framework needed to 
sustain it. The needs of this fishing sector are quite different from 
that of commercial fisheries. For example, recreational fisheries can 
have much less of a negative ``footprint'' on the ecosystem than other 
fisheries focused on industrialized extraction of the resource. 
Recreational fisheries are more focused on access and quality rather 
than extracting the maximum yield allowed by regulation. Abundance has 
a much different meaning for recreational anglers than for commercial 
fishers.
    I do not agree that the Morris-Deal Commission recommendation to 
consider reasonable stock rebuilding timelines constitutes a 
``loosening of conservation requirements'' as suggested in the first 
question. As I summarized in my written testimony, neither does the 
National Academy of Science panel that closely reviewed this current 
requirement of the Act:

        The National Research Council, a part of the National Academy 
        of Sciences, Engineering and Medicine, reached the same 
        conclusion in their report--Evaluating the Effectiveness of 
        Fish Stock Rebuilding Plans in the United States. They found 
        that rebuilding plans based on monitoring and controlling 
        fishing levels, rather than requiring fish populations to 
        recover to a pre-specified target size within a certain 
        timeframe, would be less disruptive to the fisheries and less 
        subject to uncertainty.

    This sentiment is echoed by many well qualified fisheries 
scientists and especially managers who have successfully recovered fish 
stocks, especially for recreational fisheries. Overfishing, weakened 
rebuilding and reduced fish abundance is a relative term defined by 
whatever time-frame is selected, whether science-based or arbitrary. 
That timeframe, as defined in the Act, was not based on science. It was 
based on the need of the time. Please do not misunderstand, I do 
appreciate the difficulties in dealing with this issue during an era 
when overfishing and delaying tactics to avoid imposing any reasonable 
management structure reached so frustrating a point that a line had to 
be drawn. That was then, not now. We have abundant examples where 
successful recovery of recreational fisheries have happened. Those 
examples are primarily in state managed fisheries. I graphically 
provided two examples in my written testimony--red drum and spotted 
seatrout. Recovery timelines in those examples were relative to both 
the species biological needs and the economic needs of the fishery. 
What I illustrated in those examples was an adaptive management 
process.
    The existing Federal management structure generally, is not. The 
``one-size-fits-all'' approach is cumbersome and does not allow for 
adaptations for differing management strategies across a species range, 
nor does it recognize differing economic realities of fisheries 
dependent coastal communities across that same geographic range. 
Federal management strategies, in part due to restrictions of the Act, 
attempt to manage recreational fisheries and mixed fisheries (ones with 
both recreational and commercial components) with approaches more 
suited to commercial fisheries. Abundance, for example, calculated as 
quota-based annual catch limits focused on maximum sustained yields by 
weight. This is not an appropriate strategy for recreational fisheries.
    The metrics of the current Federal management process, as 
summarized in the preamble to the two questions shows that biological 
recovery is possible under such management and it has happened in many 
cases, especially for commercial species. It is a commendable 
achievement, realized in sustained, difficult struggles to those 
positive ends. Federal fisheries managers and regional management 
councils deserve credit and recognition of achievement. The primary 
focus, however, was commercial fisheries. Today it should be 
recreational fisheries, a very different ball game. Biological and 
economic factors must be considered in tandem. In this endeavor, mixed 
fisheries do represent the greatest challenge to a stabilized future. 
There, flexibility and cooperative management is key. As noted, state 
fish managers have navigated this difficult terrain successfully and 
have much to offer, if allowed and encouraged.
    In the case of red snapper, Federal management is succeeding on the 
biological level, but at what cost? What value in economic stability 
and jobs is being lost in this $63 billion-dollar industry? What value 
is a recovered and abundant fishery, if no one is left to enjoy it? It 
does not have to be an either-or choice. State managers have proven 
this repeatedly. The ability to expand recovery timelines is 
fundamental to solving this puzzle as it minimizes negative economic 
impacts, protects and even grows jobs and produces fish in abundance. 
The evidence is clear and incontrovertible.

    Question 4. Do you think it is fair to say that abundant fisheries 
create more opportunities to fish, which is key to the recreational 
angling experience?
    Answer. I was asked if it was fair to say that abundant fisheries 
create more opportunities to fish, which is key to the recreational 
angling experience. In part, but the real key to such an experience is 
threefold: access, quality and abundance. If the process to achieve 
those ends precludes or unnecessarily curtails, any one of those 
objectives, then it fails. Current Federal management, under the 
restrictions of the existing Magnuson Stevens Act all but precludes 
this possibility and thus fails.
    I am a strong proponent of the North American Model of wildlife 
conservation, a model that was much inspired by our greatest 
conservation president, Theodore Roosevelt, and codified by Aldo 
Leopold. Its core principles should be instructive to any 
reauthorization of the Magnuson Stevens Act. The most basic tenet is 
that wildlife is a public trust resource, equally available to all. It 
appears to me that some of our fisheries managers have forgotten, 
ignored or worst of all, never heard of this most basic tenet of the 
American experience.
    The most successful demonstration of the model, informing fisheries 
management, is the way in which Federal and state wildlife agencies and 
managers cooperate in assuring waterfowl conservation across 
international borders and within the United State, across state 
borders. All the issues faced by fisheries managers have been common to 
waterfowl managers--commercial versus recreational species, managing 
for access, quality and abundance, rebuilding timelines, etc. The 
solution there is as instructive as it has been successful. Why have 
waterfowl managers succeeded where fisheries managers have not?
    I do believe all parties in the current red snapper debate and 
likely, other fisheries issues as well, share a common and positive end 
goal. Fisheries managers have much to learn from waterfowl managers and 
could so worse than adopt such a model.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Dan Sullivan to 
                             Karl Haflinger
    Question. In your testimony you refer to the Improving Net Gains 
report that resulted from a multi-stakeholder process you were involved 
in that included representatives from many regions of the country. 
Please expand on that report and on the recommendations that resulted 
from that process and how they could help move us forward with 
fisheries data innovation.
    Answer. The basic recommendations could be summarized as:

  (1)  Prioritize modernization of national fishery information systems

  (2)  Perform a cross-regional assessment of status and needs

  (3)  Develop and disseminate a policy based on the above.

  (4)  Develop and fund a budget for modernization

  (5)  Review confidentiality issues and prioritize access to 
        participants

  (6)  Ensure that key stakeholders understand the capabilities and use 
        of these systems

    It is perhaps important to note that members of the task force were 
not current NMFS employees, but were mostly drawn from industry, NGOs, 
and state and former NMFS employees. Key areas that had proven 
frustrating to those attending were multiple levels of reporting for 
some fishermen (apparently multiple agencies needed the same 
information but didn't communicate), delays in stock assessments that 
led to harvest recommendations at odds with what fishermen saw in the 
environment, and difficulty for those outside NOAA Fisheries in 
accessing data that had been submitted by participants.
    It seems clear that EM and ER (electronic monitoring and electronic 
reporting) are making inroads into fisheries management. The iSnapper 
app was mentioned in the Committee hearing and is an example of an 
approach that would seem to any outsider as a no-brainer for small-boat 
fisheries (basically a smartphone is used for recording catch and 
location, and reporting then occurs when vessels are in cell range). 
Participants in trial use of the software reportedly were pleased with 
it but were unable to take the time to estimate discards, which is an 
essential part of fisheries management. I suspect some refinement of 
the screens that are routinely seen on the smartphones (as suggested by 
participants) could make entry of essential data simple enough to allow 
the time to enter discard estimates. I wouldn't be surprised if they 
were fairly accurate when averaged over the whole fleet. A similar 
issue, that of estimating overall effort, could be attempted by asking 
participants to estimate the number of boats of their class that could 
be seen fishing at various ``stops'' along the way. I think a ``citizen 
science'' approach in this type could yield more timely and likely more 
accurate estimates of effort than shoreside surveys.
    The Holy Grail in electronic monitoring for commercial vessels is 
the ability to make species-level identifications of fish, to document 
discards, and make some attempt at reporting the size of fish being 
discarded. We are a long way from realizing this but it's going to 
occur at some point and it's important to continue funding the 
necessary research and concurrently introducing the incremental 
advances in this field as they appear.
    As someone who is involved with day-to-day fisheries data use, I 
have been surprised by the speed at which cloud services and ``big 
data'' analytics have become available to small concerns. I think that 
fisheries data modernization inevitably means moving fisheries data 
into the cloud, perhaps on a national level (a national landings 
database), so that the wheel is not being re-invented time and again at 
each regional science center, and for individual fleets spread 
throughout the country. There seems to be a critical mass of people 
from diverse science and technical backgrounds worldwide who are 
working on approaches to understanding complex problems and modeling 
solutions, but these are often difficult to actually program into 
machines, so a common, modernized data infrastructure could help 
immensely with the spread of these tools. These developments will help 
us with bycatch reduction by better understanding the problems and 
solutions through ``spatiotemporal'' modeling (looking at fish 
distributions changes both through space and over the course of many 
years). Combined with remote sensing we should be able to better 
understand the variability of species over time, and in response to 
climate variations, and this will affect stock assessments as well as 
industry response.
    Retooling the Nation's fisheries data infrastructure was viewed as 
essential to furthering partnerships with industry. My own personal 
belief is that this won't be possible without expert help from outside 
NOAA Fisheries. I think it would be necessary to form a relatively 
small task force that included members of the agency and stakeholders 
(including from the academic community), and some outside expertise on 
data management. I think at some point it would be necessary to decide 
which legacy data you have to leave behind (perhaps temporarily) to 
allow you to move forward with storing and allowing better access to 
current incoming data. Finally, design documents should be open to the 
public and source code should be in open source repositories to enable 
both shared access and increased scrutiny for debugging purposes. This 
would obviously be an expensive undertaking so certainly support from 
this committee outside the framework of MSA reauthorization would be 
essential.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Karl Haflinger
    Question 1. Bycatch Mitigation Strategies: Can you discuss some of 
the main bycatch mitigation strategies that the fleets you work with 
employ and what your company is doing to help fleets decrease bycatch 
within vessel cooperatives?
    Answer. The bycatch mitigation toolbox for the West Coast and 
Alaska trawl and cod longline fisheries has 3 components: gear designs 
to reduce the rates of bycatch, handling procedures to reduce the 
mortality of fish returned to sea alive (this works for Pacific halibut 
only), and avoidance programs designed to help vessels operate in areas 
of the lowest bycatch rates possible for that fishery in the first 
place. Gear modification is an ongoing process that involves regular 
trips to a flume tank in Newfoundland to study how half-scale models of 
trawl sections actually behave when deployed. Recapture devices or 
cameras placed on nets serve to document the effectiveness of designs. 
Deck sorting of halibut is used on large-volume catcher processors and 
smaller trawl catcher vessels to radically reduce the amount of time 
that halibut spend on deck (they are very tough animals and up to 50 
percent can be returned alive even when caught in a trawl net), thus 
increasing the survival rate. Quickly releasing halibut caught by large 
longiners increased survival rates for discards for this fleet to the 
90 percent range.
    My company (Sea State, Inc) is largely involved with helping fleets 
avoid bycatch in the first place. We look at observer data from 
catcher/processors, landings information from vessels that deliver 
shoreside, and satellite vessel positions records from VMS (vessel 
monitoring systems) to determine the locations of high-bycatch events, 
and relay this information to the fleet. Thus, we are working to get 
something as close to the raw data as possible, but still 
understandable, in front of those working on the water, as quickly as 
possible. We do not try to predict the next bycatch event but to let 
all fishermen in the various fisheries that employ us know as quickly 
as possible where bycatch events are occurring. We also implement 
bycatch reduction programs for 8 different cooperatives that fish in 
Alaska and the Pacific Northwest using trawl and longline gear. Each 
cooperative has different rules that they have decided their members 
must follow as a part of cooperative membership, and we process the 
catch information, get it back in front of the fishermen, and continue 
with any special reporting or activity that a given coop desires. This 
extended action ranges from simply publishing bycatch rates of the 
member vessels to actively monitoring bycatch on a daily basis and 
running ``rolling closure'' programs, wherein we decide which areas of 
the ocean should be temporarily closed to a cooperative or to 
individual vessels in a fishery based on criteria set forth in 
cooperative agreements. The closures generally last for a week, 
although at times they are extended for several weeks. Compliance with 
these closures is monitored using vessel VMS-reported positions, with 
substantial fines levied for infractions.

    Question 2. Data: What are some of the challenges your company and 
partners face in terms of modernizing data management and data 
collection?
    Answer. Whenever we add a new fleet or fishery we work with NOAA 
Fisheries to identify mechanisms that we can use to receive data from 
fleets via some form of bulk download. Oftentimes this has meant asking 
the agency to develop those methods for us, since it's their database 
that we need to pull information from. We always have to figure out how 
we are going to deal with confidentiality since different regions 
interpret the confidentiality rules in MSA somewhat differently. If we 
are trying to develop detailed views of fishing behavior we have to 
work with each vessel's VMS provider so that we can get a copy of the 
vessel's VMS information in near-real-time. Each company that sells the 
equipment and satellite time to these vessels provides for the vessel a 
website that allows the owner see his own data. We work with these 
vendors to allow us to download this data in bulk, given the owners' 
authorizations, much the same as we work with NMFS to develop new data 
pathways when necessary. All of these steps are challenging because 
there's no directive from NOAA Fisheries that the various regions 
cooperate with us. That is not to say that they haven't cooperated, 
because in most cases they have, ungrudgingly. In many instances the 
Councils have adopted management goals that only the member 
cooperatives could carry out, and the observer and landings data is 
required by the cooperatives, so it has been imperative that the agency 
work with the fleets to meet Council objectives. However, it has taken 
nearly 25 years of working with the fleets and NOAA Fisheries to get to 
this point. The idea that fishing vessel owners and operators are 
clients and need to be worked with cooperatively by NOAA Fisheries, 
especially as regards developing mechanisms to return data to the boats 
on which it was generate, would be a welcome addition to the re-
authorization process. As part of a modernization effort, NOAA 
Fisheries could develop software to provide critical data to both 
individual users and those like myself, who need data in large batches 
for users that authorize access. It would be very helpful if an amended 
MSA would make clear that individual fishermen (and their cooperatives) 
be considered as users of NOAA Fisheries data and that consideration be 
given to developing the software infrastructure needed to interact with 
them.

    Question 3. Limitations to Stock Assessments: Can you outline some 
of the major barriers to conducting more frequent stock assessments 
that you see and your suggestions on how to address those concerns?
    Answer. The stock-assessment process from start to finish is 
lengthy. Development of a new ``benchmark'' stock assessment can take 
upwards of 3-5 years to assemble data, iteratively go through and 
address comments from plan team and SSC to have a final model accepted 
and then used for setting Annual Catch Limits through the Council 
process. A previously approved stock assessment model is re-assessed 
approximately every 5 years by an independent review panel. 
Modifications based on these reviews can then take another year or more 
to be implemented and be approved by the Councils' SSC.
    Impediments to developing new assessments and updating old 
certainly include lack of regular survey data (data that are 
independent of fisheries), and also lack of fishery information (data 
from fisheries, including landings, discards, areas fished, lengths and 
ages of fish taken, etc). For some fisheries these data are hard to 
collect or don't exist, but in other cases the science centers depend 
on regional offices that manage fisheries to provide harvest 
information. My understanding is that outdated information processing 
systems and lack of communication within NOAA Fisheries often leads to 
delays in the transfer of fishery data to stock assessment scientists.
    Ironically, based on my experience, about 1/2 of the new hires in 
the last decade will stay in a particular position for 3-5 years before 
moving on to either a different-species, or a different science branch 
altogether. As an individual gains more experience, they are more 
likely to be assigned higher profile species. The process of promotion 
leaves the more difficult stocks to assess (those with less data and 
less fishery value due to scarcity) with less attention than we would 
desire.
    As far as improvements and making this process more efficient. I'm 
not an expert on this, but what I have seen with respect to developing 
tools such as Stock-Synthesis has had a significant impact on the 
efficiency of constructing new ``benchmark'' assessments. I don't think 
developing these tools has shortened the necessary length of the review 
process; however, these tools have allowed for competent reviews of 
very sophisticated models. Such model complexity would not be possible 
without the co-evolution of university training, model-development, and 
timely hiring within NOAA, that Stock-Synthesis has enjoyed.
    Another major barrier is a shortage of highly qualified and 
experienced personnel. Explosive growth in the tech industries has 
attracted a lot of young talent with high paying jobs. I can think of 
three potential solutions with respect to conducting more frequent 
stock assessments: (1) increase intellectual capacity, (2) industry 
collaboration, and 3) contract the work out. NOAA has a number of 
incentive programs in place for increasing intellectual capacity (e.g., 
John A. Knauss Marine Policy Fellowship Program), and these are great 
programs. Incentives for industry to collaborate in research programs 
(i.e., tax-credits for research and development might be effective 
tools (I have seen these operating at the state level, in Alaska). A 
number of other countries around the world have had success with bid 
contracts for software development, or annual stock assessments 
conducted in collaboration with industry (e.g., New Zealand rock 
lobster).
    Finally, a thorough, high-quality stock assessment obviously takes 
significant resources to develop and maintain. The current legislation 
makes it difficult to use other forms of management that are less 
reliant on stock assessments and estimates of absolute abundance. There 
are a number of other ``input'' controls that could also be used to 
effectively manage data poor commercial and recreational fisheries 
(e.g., time-area closures, season restrictions, lotteries, to name a 
few).

    Question 4. Do you have suggestions on how NOAA should prioritize 
allocating limited funding?
    Answer. I am not familiar enough with the competing priorities 
within NOAA and NMFS to answer this question.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                             Karl Haflinger
    Question 1. Mr. Haflinger, your company, Sea State, has been 
involved in helping to improve bycatch avoidance in the Pacific 
Northwest and Alaska. If a bycatch limit is reached, a fishery may be 
shutdown, which could lead to a loss in revenue and jobs. In order to 
develop bycatch reduction devices, exempted fishing permits, or EFPs, 
are often used to test new devices and techniques to determine if they 
are successful at improving fisheries management and reducing bycatch.
    Do you think that EFPs are helpful in developing new management 
techniques and testing new fishing gear to improve fisheries 
management?
    Answer. Exempted Fishing Permits (EFPs) have been essential to the 
process of developing both salmon and halibut excluders used in the 
trawl fisheries in Alaska. Using prototype models under real fishing 
conditions facilitates evaluating the success of those devices through 
scientific trials. Without objective evaluations of these devices, 
their efficacy is mostly guesswork, and fishermen are reluctant to 
adopt them. Experimental trials also often require that vessels seek 
higher bycatch circumstance (i.e., areas of higher bycatch rates) than 
fishermen would operate in under normal fishing circumstances. If a 
fisherman has a quota for halibut or salmon, then he is looking to 
avoid instance of high salmon or halibut abundance, but it is in 
precisely those conditions that we need to test the devices. You cannot 
ask a fisherman to deliberately sacrifice his quota and jeopardize his 
fishing season to test the device, so you need extra quota of 
constraining species that can be utilized under an EFP. Without it, the 
excluders would never be tested in the environments that matter most.
    It's also clear that EFPs are the most direct method available to 
evaluate new tools in catch estimation and bycatch reduction that are 
not gear modifications; for example, Electronic Monitoring (EM) and 
deck-sorting catches to reduce mortality on discards. Councils and NOAA 
Fisheries alike must figure out how these programs should work and it 
is impossible to anticipate the problems and work-arounds without 
trying these programs in real fishing conditions. For both these 
examples, the benefits to fishermen and conservation were obvious and 
unambiguous, but these were new approaches that everyone had to become 
familiar with putting rules in place. Thus, the adoption of these new 
methods would take much more time if Federal rules had to be 
promulgated for each new program before such methods could even be seen 
in action on deck. The resulting rules would have to be modified 
because you're never ``right'' the first time, and the ensuing delays 
(associated with the rule-making cycle) would be absurd.

    Question 2. Would your company and others like it be able to test 
new bycatch reduction mechanisms if EFPs became more difficult to 
obtain?
    Answer. Sea State has not been involved in field testing any 
devices although we often handle the data produced in these 
experiments, or advise field testers on bycatch conditions in the areas 
they seek to test (i.e., helping to find the optimal bycatch rates for 
the device test under consideration) Without the EFPs the only method 
we have to rate success in devices are comparative bycatch rates 
(between vessels) but in general we don't know the exact configuration 
of nets that vessels are using, and in real-world fishing you would 
never see enough paired tows (between boats that have reduction devices 
and those that don't) to make statistically valid comparisons. In other 
words, I don't think it's possible to effectively evaluate these 
devices and techniques without EFPs, and that is why I consider them to 
be essential.

    Question 3. From an economic perspective, EFPs are critical to 
keeping fishermen fishing while conservation issues are being 
addressed. What would happen to fishing jobs if EFPs were no longer a 
management tool?
    Answer. EFPs are just one of many issues surrounding bycatch that 
can allow fisheries to proceed or result in their closure, so I would 
first clarify that my remarks that follow include more than the effects 
of EFPs alone. Fishery-related employment occurs both on vessels and at 
shoreside plants, and further on down the supply chain to the point of 
sale. The most immediate effects of premature closures are probably 
felt by captains and crews, but almost as immediate are effects for 
employees at processing plants and later handlers of fish. In more 
remote coastal areas where jobs may be less available, plant closures 
may be difficult to recover from, so that once closed, they may not re-
open, and fishing jobs can be lost for good. The situation may or may 
not be the same for vessels, which can possibly move to different 
areas, depending on the management regime they fish under. In both 
cases, reestablishing fishing operations after prolonged closures is 
difficult, especially if key personnel are lost.
    Events that have played out over the last 20 years along the 
Pacific NW coast has shown the difficulty of retaining fisheries for 
healthy bottomfish species (for example, Petrale or Dover sole) when 
bycatch problems with overfished species of rockfish led to reduced 
fishing opportunities for non-rockfish species as well. For many years 
the fleets dealt with reductions in fishing areas due to rockfish 
bycatch regulations. With severe reductions in catch, many of these 
bycatch species have rebounded faster than stock assessments can keep 
up, so they remain problematic because allowed rockfish catch levels 
are still unrealistically low. Also, area-based rockfish conservation 
closures still remain in place, despite rebounding populations. 
Bottomfish catches are thus still affected unnecessarily by concerns on 
rockfish bycatch, and as a demonstration of the complexity of the 
problem, the rockfish that are quite legitimately harvested as bycatch 
in increasing amounts is difficult to sell. The markets are now 
unfamiliar with these fish, or where there is familiarity, the market 
share has been lost to foreign competition. It will likely take many 
years of persistent marketing efforts before these fish occupy the 
place they once did in markets on the West coast. This state is clearly 
the result of earlier overfishing, but it demonstrates the problems we 
see when fisheries in an area are closed for extended periods, and the 
continuing need for bycatch reduction of constraining species even when 
their populations have recovered.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                             Karl Haflinger
    Question 1. Improving Net Gains report: In your testimony you refer 
to the Improving Net Gains report that resulted from a multi-
stakeholder process you were involved in that included representatives 
from many regions of the country.
    Could you provide a little more information on the recommendations 
that resulted from that process and how they could help move us forward 
with fisheries data innovation?
    Answer. The basic recommendations could be summarized as:

  (1)  Prioritize modernization of national fishery information systems

  (2)  Perform a cross-regional assessment of status and needs

  (3)  Develop and disseminate a policy based on the above.

  (4)  Develop and fund a budget for modernization

  (5)  Review confidentiality issues and prioritize access to 
        participants

  (6)  Ensure that key stakeholders understand the capabilities and use 
        of these systems

    It is perhaps important to note that members of the task force were 
not current NMFS employees, but were mostly drawn from industry, NGOs, 
and state and former NMFS employees. Key areas that had proven 
frustrating to those attending were multiple levels of reporting for 
some fishermen (apparently multiple agencies needed the same 
information but didn't communicate), delays in stock assessments that 
led to harvest recommendations at odds with what fishermen saw in the 
environment, and difficulty for those outside NOAA Fisheries in 
accessing data that had been submitted by participants.

    Question 2. Improving Net Gains report: How can we make it easier 
for NOAA and the Regional Fisheries Management Councils to implement 
emerging technologies to reduce bycatch and improve data collection?
    Answer. Fishery issues involving multiple stakeholders are 
surprisingly complex and it simply takes a long time to figure out how 
management changes will affect all stakeholders, and also how to 
implement in ways that are cost-effective yet still meeting management 
goals. The simplest way to assist the process has been to utilize 
Exempted Fishing Permits (EFPs) to allow the industry, NOAA Fisheries, 
and councils experiment with altered and improved management approaches 
before deciding on every detail of the rules that will be necessary to 
implement new approaches. Cooperative research involving industry and 
agency can also be useful in developing expertise and familiarity with 
new techniques on both sides (agency and industry).

    Question 3. Improved Technologies: Data and data collection for 
fisheries, especially recreational fisheries, needs to be brought into 
the 21st Century, and there are so many technologies now available that 
were not in the past and additional technologies coming up on the 
horizon.
    What technologies are on the horizon that NOAA and NMFS should be 
taking a closer look at to improve data collection and meet both 
economic and conservation goals?
    Answer. It seems clear that EM and ER (electronic monitoring and 
electronic reporting) are making inroads into fisheries management. The 
iSnapper app was mentioned in the Committee hearing and is an example 
of an approach that would seem to any outsider as a no-brainer for 
small-boat fisheries (basically a smartphone is used for recording 
catch and location, and reporting then occurs when vessels are in cell 
range). Participants in trial use of the software reportedly were 
pleased with it but were unable to take the time to estimate discards, 
which is an essential part of fisheries management. I suspect some 
refinement of the screens that are routinely seen on the smartphones 
(as suggested by participants) could make entry of essential data 
simple enough to allow the time to enter discard estimates. I wouldn't 
be surprised if they were fairly accurate when averaged over the whole 
fleet. A similar issue, that of estimating overall effort, could be 
attempted by asking participants to estimate the number of boats of 
their class that could be seen fishing at various ``stops'' along the 
way. I think a ``citizen science'' approach in this type could yield 
more timely and likely more accurate estimates of effort than shoreside 
surveys.
    The Holy Grail in electronic monitoring for commercial vessels is 
the ability to make species-level identifications of fish, to document 
discards, and make some attempt at reporting the size of fish being 
discarded. We are a long way from realizing this but it's going to 
occur at some point and it's important to continue funding the 
necessary research and concurrently introducing the incremental 
advances in this field as they appear.
    As someone who is involved with day-to-day fisheries data use, I 
have been surprised by the speed at which cloud services and ``big 
data'' analytics have become available to small concerns. I think that 
fisheries data modernization inevitably means moving fisheries data 
into the cloud, perhaps on a national level (a national landings 
database), so that the wheel is not being re-invented time and again at 
each regional science center, and for individual fleets spread 
throughout the country. There seems to be a critical mass of people 
from diverse science and technical backgrounds worldwide who are 
working on approaches to understanding complex problems and modeling 
solutions, but these are often difficult to actually program into 
machines, so a common, modernized data infrastructure could help 
immensely with the spread of these tools. These developments will help 
us with bycatch reduction by better understanding the problems and 
solutions through ``spatiotemporal'' modeling (looking at fish 
distributions changes both through space and over the course of many 
years). Combined with remote sensing we should be able to better 
understand the variability of species over time, and in response to 
climate variations, and this will affect stock assessments as well as 
industry response.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                           Dr. Michael Jones
    Question 1. Management Strategy Evaluation: You have extensive 
experience with Management Strategy Evaluations that has led to a great 
deal of success in the Great Lakes.
    What could employing MSE approaches mean for U.S. fisheries 
especially in areas with tense relationships between different groups 
of stakeholders?
    Answer. As I mentioned in my earlier testimony, the National Marine 
Fisheries Service (NMFS) has begun to show strong interest in using 
Management Strategy Evaluations (MSE) to address challenging fishery 
management issues, including Atlantic Menhaden and Gulf of Maine 
Herring. I have been invited to speak about our experience with MSE in 
the Great Lakes at a NMFS workshop planned for late January 2018 in San 
Diego. MSE methods are being applied to important fisheries elsewhere 
in the world as well--most notably Australia, South Africa, and the 
European Union.
    The great advantage of an MSE process is its transparency. The 
simulation methods are intended to model the entire management process, 
from stock assessments to population dynamics to the harvest rule that 
determines how much fishing takes place, and to generate outputs that 
represent the consequences of different harvest policy options for a 
variety of performance measures representing different objectives. This 
means decision makers and stakeholders are able to see how alternative 
management strategies will lead to trade-offs among competing 
objectives that represent the divergent interests of different 
stakeholder groups, fostering a greater appreciation for how there has 
to be some give and take to balance these competing objectives and that 
there is often a middle ground that stakeholder groups with competing 
interests are all willing to live with.
    Vitally important to an MSE process that attempts to tackle a 
contentious issue is engagement. While the MSE simulation process can 
be highly technical, and thus beyond the capacity of many stakeholders 
to critically evaluate, engaging the competing stakeholder groups in 
the process of an MSE, especially the early stages where the problem is 
defined and objectives identified and acknowledged, fosters an 
environment of ``ownership'' of the problem--and the possible solution. 
Doing this right will be very challenging, especially when the level of 
conflict is already very high, but our experience has suggested that 
even (perhaps especially) in high-conflict situations and engaged MSE 
process can be extremely helpful.

    Question 2. Changing Environmental Conditions: We see changing 
environmental conditions everywhere with increased temperature, changes 
in water chemistry, and subsequent impacts to fish and other wildlife.
    What do you see as the emerging management issues for U.S. 
fisheries? And what can we do to detect these issues and ameliorate the 
situation before things get worse?
    Answer. I'm not sure it would be accurate to describe either of 
these as ``emerging'' issues--we have known about them for a long 
time--but there's not much doubt that global environmental change (dare 
I say climate change), and the spread of invasive species will be two 
of the most challenging issues facing the future management of U.S. 
fisheries.
    Needless to say, we have an awful lot of experience with aquatic 
invasive species in the Great Lakes. Management of sea lampreys has 
been a central element of fishery management in the Great Lakes for 
over fifty years, and emerging evidence suggests that zebra and quagga 
mussels may ultimately have an even greater impact on our lakes than 
sea lampreys did. Marine invasive species has received a great deal 
less attention than freshwater invaders, but I believe they will become 
a much more important issue for managers to grapple with in the 
future--in no small part because of the other issue I cited above. As 
the environmental conditions in coastal regions change (warmer, more 
acidic, stormier) the ecosystem is likely to become less favorable for 
currently important species and more favorable for new invaders.
    Another really important aspect of global change, which was 
discussed at the hearing, is that the range and distribution of 
economically valuable fish stocks will change, creating challenges for 
spatial management: location-specific quotas will become mis-aligned 
with where the fish are. Harvest policies in the future will likely 
need to be more adaptable to these changing conditions.
    Not only will global change affect species distributions, it will 
affect productivity of fish populations. It seems likely that 
productivity of some stocks will increase, while for others it will 
decrease. This means that management strategies which are informed by 
analyses of past data--which is nearly always how we do things--will be 
poorly tuned to the managed populations in the future. This reality 
will need to be accommodated as new harvest policies are established 
for species affected by global change.

    Question 3. Emerging science: You mention in your written testimony 
that in order to ensure that ``wise, fair decisions are made,'' you 
must ensure decisions are ``based on the best science.'' Currently, the 
Magnuson-Stevens Act requires that all ``measures shall be based upon 
the best scientific information available.'' The guidelines to 
implement that standard encourage using science from many sources and 
including both established and emerging science.
    Can you explain why maintaining this standard is important, and how 
progress in fisheries management might be harmed if this standard was 
eliminated or weakened?
    What considerations are important when using established science 
versus newer, emerging science in management decisions?
    Answer. Using scientific knowledge to inform fishery management is 
a ``no brainer''. Sometimes arguments are made that ``we got it wrong'' 
even when decisions were arguably science-based. Mostly this happens 
because we were either unlucky--an unpredictable event led to an 
outcome we weren't able to anticipate--or because the science was not 
used as well as it could have been. An example of the latter is that 
historically, science-based decisions often relied on the best 
scientific judgement of an expected outcome (for example setting 
fishing rates at levels expected to yield maximum sustained yield) 
without properly considering the risks of such policies; risks that 
arise due to inevitable uncertainties in our knowledge and information. 
But to conclude from this experience that using the best science is not 
necessary for wise management does not make sense. We need to use the 
best available science, and we need to use it wisely, which includes 
thoughtful consideration of both what we know and what we are uncertain 
about.
    New, emerging science promises to greatly improve our knowledge 
base to inform wise decision-making. In the Great Lakes, acoustic 
telemetry is a great example of emerging science that could transform 
our understanding of fish movement and thereby improve our ability to 
manage individual fish populations which inter-mix. Advances in 
molecular methods (DNA fingerprinting, genomics, etc) are also having 
an enormous impact on our understanding of fish populations. All 
scientific knowledge--established and emerging--needs to be subjected 
to rigorous standards of peer review and confirmation before we rely 
too heavily on exciting and sometimes controversial new knowledge. It 
is just as important that we apply this rigor to knowledge and 
information provided through so-called citizen science as it is for 
more traditional science led by academics and government scientists.

    Question 4. Forage Fish: Forage fish are crucial part of the food 
web that supports many of the fish we strive to eat. Menhaden were one 
species of forage fish brought up during the hearing, but forage fish 
are important from the Great Lakes to the Gulf of Mexico to the Gulf of 
Alaska.
    Can you share with us the importance of forage fish and provide 
guidance on managing forage fish such as menhaden and others across 
different regions?
    Answer. Management of forage species requires us to take a multi-
species, or even ecosystem view of fisheries management. Forage 
species, as the name implies, can be an important food source for 
economically valuable predator species, but in the case of species like 
Atlantic Menhaden or Gulf of Maine Herring they also have value as 
commercially exploited species. This implies a management trade-off 
between maintaining an abundant population of forage for predators to 
consume versus harvesting more forage in a fishery. This trade-off 
needs to be confronted by using sound ecosystem science to assess the 
relationship between (a) fishing rates and forage species abundance and 
(b) predator growth and survival and forage species abundance. We have 
a reasonably good understanding of (a) from forage species stock 
assessments, but empirical information to inform (b) is surprisingly 
limited for marine systems.
    We have experience with a predator-forage issue in the Great Lakes 
that is different from the scenario I described above but that 
nevertheless can illustrate how science can inform the marine forage 
species issue. In my Great Lakes example the predators are the 
salmonine species (trout and salmon) that are the basis our billion 
dollar recreational fisheries in Lakes Michigan, Ontario, and to a 
lesser degree, Huron. The primary forage species is alewife. The 
difference between our Great Lakes issue and the marine situation is 
that alewife is not the object of a commercial fishery in the Great 
Lakes so there is not a tension between commercial and recreational 
fishing interests in this case. However, alewife--an exotic species in 
the Great Lakes--are believed to have negative effects on numerous 
native species when they are abundant, which provides an incentive to 
reduce their abundance below levels that might be ideal for their 
predators. We have used decades of fishery assessment data for alewife 
and their predators to develop an understanding of salmonine-alewife 
predator-prey interactions, and then used this information in computer 
models that inform decisions about what levels of alewife abundance we 
should aim for to balance these competing interests. Our history of 
supporting ecosystem science in the Great Lakes has enabled us to 
develop a substantially better understanding of predator-prey 
interactions involving economically important species that is typical 
for most marine predator-forage systems.

                                  <all>
</pre></body></html>
